<html>
<title> - DISRUPTING TERRORIST TRAVEL: SAFEGUARDING AMERICA'S BORDERS THROUGH INFORMATION SHARING</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                      DISRUPTING TERRORIST TRAVEL:
                     SAFEGUARDING AMERICA'S BORDERS
                      THROUGH INFORMATION SHARING

=======================================================================




                             JOINT HEARING

                               before the

           SUBCOMMITTEE ON INFRASTRUCTURE AND BORDER SECURITY

                                and the

             SUBCOMMITTEE ON INTELLIGENCE AND COUNTERRORISM

                                 of the

                 SELECT COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 30, 2004

                               __________

                           Serial No. 108-60

                               __________

    Printed for the use of the Select Committee on Homeland Security


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

25-777                 WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001











                 SELECT COMMITTEE ON HOMELAND SECURITY



                 Christopher Cox, California, Chairman

Jennifer Dunn, Washington            Jim Turner, Texas, Ranking Member
C.W. Bill Young, Florida             Bennie G. Thompson, Mississippi
Don Young, Alaska                    Loretta Sanchez, California
F. James Sensenbrenner, Jr.,         Edward J. Markey, Massachusetts
Wisconsin                            Norman D. Dicks, Washington
David Dreier, California             Barney Frank, Massachusetts
Duncan Hunter, California            Jane Harman, California
Harold Rogers, Kentucky              Benjamin L. Cardin, Maryland
Sherwood Boehlert, New York          Louise McIntosh Slaughter, New 
Joe Barton, Texas                    York
Lamar S. Smith, Texas                Peter A. DeFazio, Oregon
Curt Weldon, Pennsylvania            Nita M. Lowey, New York
Christopher Shays, Connecticut       Robert E. Andrews, New Jersey
Porter J. Goss, Florida              Eleanor Holmes Norton, District of 
Dave Camp, Michigan                  Columbia
Lincoln Diaz-Balart, Florida         Zoe Lofgren, California
Bob Goodlatte, Virginia              Karen McCarthy, Missouri
Ernest J. Istook, Jr., Oklahoma      Sheila Jackson-Lee, Texas
Peter T. King, New York              Bill Pascrell, Jr., New Jersey
John Linder, Georgia                 Donna M. Christensen, U.S. Virgin 
John B. Shadegg, Arizona             Islands
Mark E. Souder, Indiana              Bob Etheridge, North Carolina
Mac Thornberry, Texas                Ken Lucas, Kentucky
Jim Gibbons, Nevada                  James R. Langevin, Rhode Island
Kay Granger, Texas                   Kendrick B. Meek, Florida
Pete Sessions, Texas                 Ben Chandler, Kentucky
John E. Sweeney, New York

                      John Gannon, Chief of Staff
       Stephen DeVine, Deputy Staff Director and General Counsel
           Thomas Dilenge, Chief Counsel and Policy Director
               David H. Schanzer, Democrat Staff Director
             Mark T. Magee, Democrat Deputy Staff Director
                    Michael S. Twinchek, Chief Clerk

                                 ______

           Subcommittee on Infrastructure and Border Security

                     Dave Camp, Michigan, Chairman

Kay Granger, Texas,                  Loretta Sanchez, California, 
Jennifer Dunn, Washington            Ranking Member
Don Young, Alaska                    Edward J. Markey, Massachusetts
Duncan Hunter, California            Norman D. Dicks, Washington
Lamar Smith, Texas                   Barney Frank, Massachusetts
Lincoln Diaz-Balart, Florida         Benjamin L. Cardin, Maryland
Robert W. Goodlatte, Virginia        Louise McIntosh Slaughter, New 
Ernest Istook, Oklahoma              York
John Shadegg, Arizona                Peter A. DeFazio, Oregon
Mark Souder, Indiana                 Sheila Jackson-Lee, Texas
John Sweeney, New York               Bill Pascrell, Jr., New Jersey
Christopher Cox, California, Ex      Kendrick B. Meek, Florida
Officio                              Jim Turner, Texas, Ex Officio

                                  (II)














           Subcommittee on Intelligence and Counterterrorism

                     Jim Gibbons, Nevada, Chairman

John Sweeney, New York               Karen McCarthy, Missouri, Ranking 
Jennifer Dunn, Washington            Member
C.W. Bill Young, Florida             Edward J. Markey, Massachusetts
Harold Rogers, Kentucky              Norman D. Dicks, Washington
Christopher Shays, Connecticut       Barney Frank, Massachusetts
Lamar Smith, Texas                   Jane Harman, California
Porter Goss, Florida                 Nita M. Lowey, New York
Peter King, New York                 Robert E. Andrews, New Jersey
John Linder, Georgia                 Eleanor Holmes Norton, District of 
John Shadegg, Arizona                Columbia
Mac Thornberry, Texas                James R. Langevin, Rhode Island
Christopher Cox, California, Ex      Kendrick B. Meek, Florida
Officio                              Jim Turner, Texas, Ex Officio

                                 (III)





















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Dave Camp, a Representative in Congress From the 
  State of Michigan, and Chairman, Subcommittee on Infrastructure 
  and Border Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     4
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California, and Subcommittee on Infrastructure and 
  Border Security................................................    20
The Honorable Jim Gibbons, a Representative in Congress From the 
  State of Nevada, and Chairman, Subcommittee on Intelligence and 
  Counterterrorism...............................................     4
The Honorable Karen McCarthy, a Representative in Congress From 
  the State of Missouri, and Ranking Member, Subcommittee on 
  Intelligence and Counterterrorism..............................    24
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Select Committee on 
  Homeland Security: Prepared Statement..........................     2
The Honorable Jim Turner, a Representative in Congress From the 
  State of Texas, and Ranking Member, Select Committee on 
  Homeland Security..............................................    36
The Honorable Robert E. Andrews, a Representative in Congress 
  From the State of New Jersey...................................    26
The Norman D. Dicks, a Representative in Congress From the State 
  of Washington..................................................    42
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island.................................    34
The Honorable Nita M. Lowey, a Representative in Congress From 
  the State of New York..........................................    31
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  From the State of North Carolina...............................    28

                               WITNESSES

Lieutenant General Patrick Hughes, Assistant Secretary for 
  Information Analysis, Department of Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6
The Honorable C. Stewart Verdery, Jr., Assistant Secretary, 
  Border and Transportation Security Policy and Planning, 
  Department of Homeland Security:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11
Professor Lawrence M. Wein, Graduate School of Business, Stanford 
  University:
  Oral Statement.................................................    38
  Prepared Statement.............................................    40

                             FOR THE RECORD

The Honorable C. Stewart Verdery, Jr. and Lieutenant General 
  Partrick Hughes Responses:
  Questions from the Honorable Christopher Cox...................    49
  Questions from the Honorable Dave Camp and the Honorable Jim 
    Gibbons......................................................    52
Professor Lawrence M. Wein Responses to Questions:
  Questions from the Honorable Dave Camp and Chairman Gibbons....    68















                      DISRUPTING TERRORIST TRAVEL:

       SAFEGUARDING AMERICA'S BORDERS THROUGH INFORMATION SHARING

                              ----------                              


                      Thursday, September 30, 2004

                          House of Representatives,
             Select Committee on Homeland Security,
                             Subcommittee on Infrastructure
                                       and Border Security,
                                                    and the
                               Subcommittee on Intelligence
                                      and Counterterrorism,
                                                    Washington, DC.
    The subcommittees met, pursuant to call, at 1:05 p.m., in 
Room 210, Cannon House Office Building, Hon. Dave Camp 
[chairman of the Subcommittee on Infrastructure and Border 
Security] Presiding.
    Present from Subcommittee on Infrastructure and Border 
Security: Representatives Camp, Dunn, Sanchez, Dicks and 
Pascrell.
    Present from Subcommittee on Intelligence and 
Counterterrorism: Gibbons, Dunn, McCarthy, Langevin, Dicks, 
Lowey and Andrews.
    Mr. Camp. The joint hearing of the Subcommittee on 
Infrastructure and Border Security and the Subcommittee on 
Intelligence and Counterterrorism will come to order. The 
subcommittees are meeting jointly today to hear testimony on 
the Department of Homeland Security's efforts regarding 
terrorists' disruption of travel. The purpose of this hearing 
is to look at the recommendations made by the 9/11 Commission 
report and examine DHS's efforts to obtain, analyze and 
disseminate terrorist travel information.
    On the first panel we have General Patrick Hughes, who is 
the Assistant Secretary for Information Analysis, and Assistant 
Secretary Stewart Verdery from the Border and Transportation 
Security Policy Office. And on the second panel we will hear 
from Professor Lawrence Wein from Stanford University, who will 
provide an overview of research he has done regarding the US-
VISIT program. And I would like to officially welcome all of 
our witnesses.
    I ask unanimous consent that Member opening statements be 
included in the hearing record, and encourage members of both 
subcommittees to submit their opening statements for the 
record.
    [The information follows:]

    Prepared Opening Statement of the Honorable Christopher Cox, a 
Representative in Congress From the State of California, and Chairman, 
                 Select Committee on Homeland Security

    Let me begin by commending Chairman Camp and Chairman Gibbons for 
working collaboratively to address the critical issue of terrorist 
travel and information sharing. I also would like to welcome and thank 
Assistant Secretary Hughes and Assistant Secretary Verdery for 
appearing before the panel today.
    Over the past 18 months, DHS has implemented several reforms to 
strengthen our Nation's borders and improve information sharing--from 
enhancing the National Targeting Center to strengthening relationships 
with state and local law enforcement. Further, President Bush continues 
to provide strong leadership to strengthen our collective security, 
with the creation of the Terrorist Screening Center (TSC) and the 
Terrorist Threat Integration Center (TTIC), and now the National 
Counterterrorism Center. Although these reforms have made us safer, 
there is still more work to be done. Currently, Congress is considering 
a wide range of legislative proposals and will soon deliver a set of 
reforms designed to further facilitate information sharing between our 
intelligence and homeland security agencies, and to strengthen our 
security here at home.
    The 9/11 Commission report helped to energize the current debate in 
these chambers about homeland security and information sharing within 
our intelligence communities. The Commission's report focused 
significant attention on the issue now commonly referred to as 
``terrorist travel.'' The 9/11 Commission Report urges us to address 
the issue of terrorist travel with the same vigor and focus that we are 
brining to terrorist financing.
    I wholeheartedly agree and am glad to see that Speaker Hastert's 9/
11 Commission recommendations implementation bill incorporates many 
significant provisions relating to terrorist travel, some of which were 
proposed by this Committee.
    While limiting access to money hinders terrorists' ability to carry 
out a mission, combating terrorist travel, especially into the United 
States, will significantly disrupt our enemy's ability to move 
operatives into position to launch an attack. Today, we will examine 
how DHS currently is organized to address this critical issue, and 
discuss how the Department should move towards further implementation 
of the Commission's recommendation in this area.
    In discussing the issue of terrorist travel, the Commission stated, 
``For terrorists, travel documents are as important as weapons. 
Terrorist must travel clandestinely to meet, train, plan, case targets, 
and gain access to attack. To [terrorists], international travel 
presents great danger, because they must surface to pass through 
regulated channels, present themselves to border security officials, or 
attempt to circumvent inspection points. In their travels, terrorists 
use evasive methods, such as altered and counterfeit passports and 
visas, specific travel methods and routes, liaisons with corrupt 
government officials, human smuggling networks, supportive travel 
agencies, and immigration and identity fraud.''
    Combating terrorist travel will require a multi-faceted approach 
that will reach across several DHS components and agencies. Potential 
terrorists may interact with the U.S. Government at an embassy or 
consular office overseas, a Border Patrol agent if they cross between 
ports-of-entry or are stopped at an interior checkpoint, a U.S. Customs 
and Border Protection inspector at our land and air ports-of-entry, and 
the U.S. Coast Guard on our waters and at our sea ports-of-entry. 



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Every encounter presents an opportunity for our front-line DHS 
personnel to disrupt terrorist travel. The ever-changing and developing 
intelligence and information related to terrorist travel techniques, 
documents, and trends needs to be effectively incorporated into the 
daily activities of our front-line DHS personnel, and we will discuss 
today how to make that happen as effectively as possible.
    In addition, international efforts also are required to effectively 
combat terrorist travel, and will involve our DHS personnel located 
overseas, working hand in hand with their State Department 
counterparts. If a terrorist's ability to travel is limited before 
reaching our borders, our homeland security will be strengthened and we 
will move closer to winning the War on Terrorism.
    We need to continue to tear down the walls and improve sharing of 
information in order to make continued progress in homeland security. 
Success in this struggle depends upon good information getting to the 
right people at the right time.
    I look forward to your testimony this afternoon, and thank you for 
your appearance today.

    Mr. Camp. And because this is a joint hearing, Members will 
be recognized based on order of appearance. And having said 
that, I will submit my opening statement for the record.
    [The information follows:]

Prepared Opening Statement of the Honorable Dave Camp, a Representative 
 in Congress From the State of Michigan, and Chairman, Subcommittee on 
                   Infrastructure and Border Security

    Disrupting terrorists in their efforts to enter into and freely 
travel within the United States is a critical part of fighting the War 
on Terrorism. The 9/11 Commission Report highlighted the flaws in U.S 
border and immigration laws that the 9/11 hijackers exploited. Many of 
these gaps have been addressed since September 11th, yet the Commission 
stressed that terrorist travel must remain a specific focus of security 
efforts.
    I hope to stress with this hearing that DHS must continue to 
develop and expand its ability to analyze terrorist techniques, 
patterns, indicators, and trends to enable front line personnel to 
identify, intercept, and disrupt terrorist seeking to travel to the 
United States.
    One thing that is very apparent is that DHS has a very wide range 
of resources and capabilities to disrupt terrorist travel. However, it 
is unclear to me how well all of these resources are utilized and 
coordinated. There is the National Targeting Center, the Fraudulent 
Documents Lab, Benefit Fraud Units, various BTS and Coast Guard 
intelligence offices, and Information Analysis Division. And that's 
just to name a few. With resources spread across the department, one of 
the concerns I have is making sure that there is a dedicated focus to 
ensure that terrorist travel detection remains a priority and that 
there is Department-wide coordination effort.
    There is no doubt that combating terrorist travel will require a 
multi-faceted approach across all DHS components and several other 
Federal agencies. Potential terrorists may interact with the U.S. 
Government at an embassy or consular office overseas, a border and 
immigration inspector, or a TSA screener as they seek to travel within 
the U.S.
    Each of these encounters presents an opportunity to detect 
terrorist travel. In addition, numerous pieces of information are used 
throughout this process, including visas, passports, travel plans, and 
intelligence reports. Given these various pieces of information and 
encounters with potential terrorists, this information needs to be 
integrated across the Federal government to create a current threat 
picture that can be used to identify and stop terrorist travel.
    I look forward to hearing from our witnesses today as they seek to 
address these very important issues.

    Mr. Camp. And at this time I would recognize Mr. Gibbons. 
Chairman of the Intelligence and Counterterrorism Subcommittee 
is now recognized for any opening statement he may have.
    Mr. Gibbons. Thank you very much, Chairman Camp. And to our 
guests today, welcome. General Hughes, it is great to see you 
back before us. And, Assistant Secretary Verdery, thanks very 
much for your presence here as well today. It is an important 
hearing we are going to have today and I know that your 
testimony is very valuable, and I, like Chairman Camp, am going 
to follow his lead and put my opening statement into the record 
so that we can move along quickly and expeditiously so that we 
don't take more of your time.
    I know that you are both facing immense challenges right 
now, and it is an exceedingly important job, and we look 
forward to hearing your testimony today.
    And with that, Mr. Chairman, I will submit my testimony for 
the record.
    Mr. Camp. All right. I think at this point--are there any 
other opening statements?
    All right. I think at this point we will go to our 
witnesses, and I again like to thank them for being here. 
General Hughes, we will begin with you. We have received your 
written testimony, and we will ask that you briefly summarize 
in 5 minutes your statement. Thank you.

   STATEMENT OF LIEUTENANT GENERAL PATRICK HUGHES, ASSISTANT 
  SECRETARY, INFORMATION ANALYSIS, DEPARTMENT  OF  HOMELAND  
                            SECURITY

    General Hughes. Thank you very much, and good day, Chairman 
Camp and Chairman Gibbons and distinguished members of the 
committee, joint committees I guess.
    As you know, the Department of Homeland Security was 
envisioned, formed and is now in operation. President Bush's 
decision to establish the Department has enabled us to unify 
our diverse resources into one team to prevent terrorism in the 
whole land, to ready ourselves against our enemy, and to ensure 
the highest level of protection for our country and the 
citizens we serve.
    Through the Homeland Security Act of 2002, among other 
things, we are charged with integrating relevant information, 
intelligence analysis and vulnerability assessments to identify 
threats, to inform preventive priorities and to support 
protective measures. We are doing this in partnership primarily 
with Federal partners and State and local governments, 
agencies, and other organizations that we find at the State and 
below level, and with our partners in the private sector.
    The Office of Information Analysis, which I represent, is 
the heart of intelligence at the Department of Homeland 
Security. It is responsible for accessing and analyzing the 
entire array of intelligence related to threats against the 
homeland and making that information useful to our Federal 
partners, first responders, and anyone in the United States who 
can use that information and has the right to receive it. IA 
provides a full range of intelligence support to the Secretary 
and DHS leadership and to all of our components. Additionally, 
IA assures that the best intelligence information available 
informs the administration of the Homeland Security Advisory 
System.
    In order to perform these duties, we must receive 
intelligence from a number of sources, including not only the 
United States Intelligence Community and our State, local, 
territorial, tribal and private sector partners, but also from 
Department of Homeland Security entities with intelligence 
capabilities. The large amount of information we coordinate 
includes reporting from the United States Secret Service, the 
United States Coast Guard; the Border and Transportation 
Security Directorate; Immigration and Customs Enforcement, 
including the Federal Protective Service and the Federal Air 
Marshal Service; Customs and Border Protection; the 
Transportation Security Administration; the Office of 
Citizenship and Immigration Services; and the Federal Emergency 
Management Agency; 180,000 plus persons on the ground 
throughout the country acting as eyes and ears, enforcers, and 
workers, and policymakers in some cases in order to protect the 
country.
    We represent a primary element of the United States 
Intelligence Community, a powerful source of information and a 
powerful capability in order to use the information we have to 
protect our citizens. We have a sense of purpose, and we have 
embarked on what has likely never been done before with regard 
to information fusion: to fully understand the threat and the 
conditions that make that information useful at a utilitarian 
level for such a broad range of officials from city mayors to 
Border Patrol agents, to airport screeners, to critical 
infrastructure operators, to the cop on the beat.
    This concludes my oral statement. I would be happy to 
answer any questions you have today, and I am looking forward 
to our interaction. Thank you.
    Mr. Camp. Thank you very much.
    [The statement of General Hughes follows:]

                Prepared Statement of Patrick M. Hughes

    Good morning Chairman Camp, Chairman Gibbons, and distinguished 
members of the Committee. I am privileged to appear before you today to 
discuss information sharing and collaboration, and the role of the 
Office of Information Analysis (IA), within the Information Analysis 
and Infrastructure Protection Directorate (IAIP) of the Department of 
Homeland Security (DHS).
    In the aftermath of 9/11, the Department of Homeland Security was 
envisioned, formed, and is now in operation. Standing up the 
Department, the largest reorganization of government in fifty years, 
has been a great undertaking. Many employees of DHS have assumed new 
responsibilities, and all have put in long hours to ensure that while 
our strategies may change to meet the terrorist threat, our course as a 
nation will remain constant. President Bush's decision to establish the 
Department has enabled us to unify our diverse resources into one team, 
to ready ourselves against our enemy, and to ensure the highest level 
of protection for our country and the citizens we serve.
    Through the Homeland Security Act of 2002, IAIP, and consequently 
IA, is charged with ``integrating relevant information, intelligence 
analyses, and vulnerability assessments (whether such information, 
analyses, or assessments are provided or produced by the Department or 
others) to identify protective priorities and support protective 
measures by the Department, by other executive agencies, by State and 
local government personnel, agencies, and authorities, by the private 
sector, and by other entities.'' In addition, Section 892 of the 
Homeland Security Act and Executive Order 13311 establish the Secretary 
of Homeland Security as responsible for information sharing across the 
Federal government and with State, Tribal, and local government, as 
well as private sector security responsible for protecting the nations 
critical infrastructure. The Secretary has delegated this to the Under 
Secretary for IAIP.
    IA is the heart of the intelligence effort at DHS. It is 
responsible for accessing and analyzing the entire array of 
intelligence relating to threats against the homeland, operational 
reporting from across DHS and State and local law enforcement, and 
assimilating disparate operational and intelligence information, making 
that information useful to federal partners, first responders, State, 
territorial, tribal, local, and major city governments, and the private 
sector. IA provides the full-range of intelligence support to the 
Secretary, DHS leadership, the Undersecretary for IAIP, and DHS 
components. Additionally, IA ensures that the best intelligence 
available informs the administration of the Homeland Security Advisory 
System.
    In order to perform these duties, IA must receive intelligence from 
a number of sources, including the United States Intelligence Community 
(IC), particularly the Federal Bureau of Investigation- the primary 
interface with law enforcement entities around the country, and our 
afore mentioned State, territorial, tribal, local and private sector 
partners, but also from all DHS entities with intelligence capabilities 
as well as DHS operational entities. The large amount of information IA 
coordinates includes reporting from the United States Secret Service 
(USSS), the United States Coast Guard (USCG), the Border and 
Transportation Security Directorate (BTS), Immigration and Customs 
Enforcement (ICE) including the Federal Protective Service (FPS) and 
the Federal Air Marshal Service (FAMS), Customs and Border Protection 
(CBP), the Transportation Security Administration (TSA), the U.S. 
Citizenship and Immigration Services (CIS), and the Federal Emergency 
Management Agency (FEMA). In addition, IA interfaces with our 
colleagues in the Infrastructure Protection (IP) Office of the IAIP 
Directorate to achieve one the cornerstones of the Department of 
Homeland Security, to deliver threat-informed vulnerability and risk 
assessments regarding our critical infrastructure, to our constituents 
and customers--notably the private sector that holds most of our 
nation's critical national infrastructure. We are an integral part of 
the Homeland Security Operations Center (HSOC) effort to monitor and 
communicate on all matters of homeland security interest 24X7. We also 
relate directly to the Integrated Staff element of DHS, the operations 
directorate that is responsible for planning and developing operations 
concepts and orders to DHS components and to our partner organizations. 
We attend all IC and White House collaboration and coordination 
meetings, including many that are accomplished by secure video 
teleconference. Our involvement in information sharing and 
collaboration includes all of this and more.
    Information sharing and collaboration is not a one-way street. In 
addition to receiving information from these entities, IA delivers the 
intelligence it coordinates to our partners as appropriate. This 
requires IA to share information and collaborate at all levels, from 
the Federal Government and IC members to local officials and DHS 
entities that in turn provide threat information to their associates on 
the front line. DHS component organizations not only provide support to 
IA and to their associates, they also serve as a conduit through which 
relevant information can pass to DHS and the rest of government and 
information and warnings can be shared with stakeholders within their 
areas of responsibility--thereby increasing the practical benefits 
derived from intelligence analysis.
    IA analysts have access to the most classified and highly sensitive 
national intelligence from the Terrorist Threat Integration Center 
(TTIC) (whose responsibilities will eventually be assumed by the 
National Counterterrorism Center--NCTC), the Central Intelligence 
Agency (CIA), the Federal Bureau of Investigation (FBI), the National 
Security Agency (NSA), the Defense Intelligence Agency (DIA), the 
Department of State (DoS), and other national-level agencies regarding 
international and domestic terrorist threats. This information is 
received formally through IA analysts' connections to the Joint 
Worldwide Intelligence Communications Systems (JWICS), TTIC Online, the 
IA Automated Message Handling System (AMHS), the Homeland Security 
Information Network (HSIN), and a variety of other formal and informal 
(i.e., analyst-to-analyst) mechanisms that contain such intelligence. 
This information from other agencies is augmented by our own internal 
reporting from DHS components.
    From Border and Transportation Security (BTS) reports regarding 
individuals of interest trying to enter the United States illegally, to 
USCG reports regarding suspicious activity near critical infrastructure 
points, intelligence from DHS components that IA analyzes provides 
invaluable perspective and insight for the entire Federal Government. 
Such reports are provided to IA through the same methods the IC uses- 
the physical presence of DHS component liaison officers within both IA 
and the Homeland Security Operations Center (HSOC) and communication 
between analysts and leadership. In fact, the presence of 
representatives of 26 separate Federal and local representatives within 
HSOC provides a perspective and collaboration capability which is very 
valuable. Additionally, coordination within DHS is aided by regular 
meetings of the intelligence chiefs of each entity, lead by the 
Assistant Secretary for Information Analysis (ASIA).
    Information moves into and out of IA in the form of a number of 
different documents. Many are familiar with the Homeland Security 
warning products that communicate valuable threat information to such 
varied audiences as the public, first responders, and infrastructure 
owners. Homeland Security Information Bulletins provide a means to 
communicate information of interest to the nation's critical 
infrastructures that does not meet the timeliness, specifics, or 
significant thresholds of warning messages. They are designed to 
provide updates on the training, tactics, or strategies of terrorists. 
Similarly, Homeland Security Threat Advisories identify a threat 
targeting critical national networks or key infrastructure assets and 
provide a means for DHS to communicate threat information to all DHS 
customers ranging from the IC to the general public. This information 
stream is augmented by other products, such as Special Assessments and 
Studies, Homeland Security Intelligence Articles, and Red Cell reports, 
which offer alternative or conceptual analysis. Additionally, Homeland 
Security Information Messages (HSIMs) are a valuable tool used to 
expeditiously communicate newly acquired, uncorroborated threat 
information to U.S. government agencies, state and local Homeland 
Security Advisors, and the private and public sectors. The HSIM 
contains a preliminary analysis of threat information received by DHS 
from the intelligence community, law enforcement community, private or 
public sector and have information that has not been fully evaluated.
    In addition to these products, IA employs a variety of reporting 
mechanisms to communicate with both IC members and the intelligence 
offices of DHS operational components. Intelligence goes to DHS 
component entities and the IC primarily through DHS Intelligence 
Information Reports (IIRs) and Homeland Security Intelligence Reports 
(HSIRs). The IIR quickly releases select raw intelligence reporting 
from DHS components to the IC, Federal Law Enforcement, and others as 
appropriate in a unified and recognizable format via the Automated 
Message Handling System (AMHS). Similarly, a HSIR provides DHS 
operational elements a vehicle to report case and potential terrorist 
information to DHS headquarters. It is a final report, containing a 
compilation of information where some processing or analysis has 
occurred and should stand alone as a semi-finished product. Lastly, 
information is shared and coordination occurs through the IA Executive 
Morning Brief (IAEMB), which is shared at the daily morning 
intelligence update and through the twice-daily Secure Video 
Teleconference (SVTC), as well as through direct analyst-to-analyst and 
leadership communication.
    It is IA's singular focus on the protection of the American 
homeland against terrorist attack that is unique among its IC partners. 
This focus provides invaluable information and assistance not only to 
State, territorial, tribal, local, and private sector officials that 
receive accumulated threat information, but also to DHS components that 
use the information, trends, and indicators to inform and prepare 
operators and decision makers on the front line. The relationship IA 
has with the HSOC, BTS and other DHS entities translates into 
continuous information sharing and collaboration that provides a unique 
threat picture to those who are vital to protecting the homeland.
    The Department of Homeland Security is a prime example of how 
changes have been made within the Intelligence Community, the 
counterterrorism community, and the law enforcement community to work 
more cohesively as well as more collaboratively, to assure information 
is shared as fully and completely as possible. This represents a 
dramatic change from conditions as they existed before September 11th, 
2001. DHS plays a central role in the counter-terrorism and homeland 
security effort as we continue the work of communicating intelligence 
and information to our partners in the federal government as well as 
with the State, territorial, tribal, local, and private sector 
officials charged with protecting the people and infrastructure of this 
country.
    Building up IA, increasing our information capabilities, and 
coordinating intelligence information sharing and collaboration across 
the entire federal government are monumental tasks. We have 
accomplished much in a short period of time and we continue to press 
forward to strengthen our capabilities and our ability to support the 
overall DHS mission set. In order to better facilitate this effort the 
Department of Homeland Security has formed the DHS Information Sharing 
and Collaboration (ISC) Program, appointed a Director, and formed a 
staff including representation from all internal components. We are a 
participating member of the larger national effort to improve and 
enhance information sharing and collaboration and to integrate ISC 
concepts and capabilities into the changing intelligence community (IC) 
environment under the various transformation efforts brought forth by 
the 9-11 Commission and by earlier and subsequent Administration and 
Congressional action. The DHS ISC Program has already begun the work of 
assessing the ``here and now,'' of envisioning and forming a future 
Information Sharing Architecture, and is engaged in building the 
business plan which will guide and govern efforts to construct the 
appropriate enterprise architecture to empower full and complete 
sharing throughout the entire Homeland Security environment. One of the 
major DHS programs the ISC Program now collaborates on is the Homeland 
Security Information Network (HSIN)-an overarching network for the 
Department to provide information exchange and real time collaboration 
between federal, state, local, tribal, and major city authorities. 
Using this network, federal, state, and urban area homeland security 
advisors are able to communicate with each other and with DHS. As a 
direct result of ISC Program efforts to cooperate and work jointly with 
other Federal partners, DHS and the Department of Justice (DOJ)/FBI 
have established the first ever capability to share information between 
the HSIN/Joint Regional Information Exchange System (HSIN/JRIES), the 
Regional Information Sharing System (RISSNet), Law Enforcement Online 
(LEO), and will soon be joined by the Criminal Information Sharing 
Alliance Network (CISANet). Through this technology demonstration 
project, Sensitive But Unclassified products of each department and 
network are posted to other networks thereby allowing users on any of 
the systems to see and use the products from the other organizations.
    Many of the efforts we are undertaking are technical in nature, but 
the primary effort is not merely technical but rather one of changing 
policy and procedure to motivate and empower necessary technical change 
in order to achieve our goals of functional interoperability and 
information transparency in order to accomplish the information sharing 
and collaboration mission. However, it must be noted that intelligence 
analytic tools such as link and nodal analysis tools, very dynamic 
search engines tailored for the intelligence data base environment, 
analytic workstations configured to empower the analysts in their work, 
and numerous other technical aids and capabilities. . .are key to our 
information sharing and collaboration success.
    We have accomplished much at DHS and in IA since our inception and 
we are on course with our partners and colleagues to continue to 
achieve. I firmly believe the American people are more secure and 
better prepared than before September 11, 2001 directly because of the 
advent of the Department of Homeland Security. We are fully connected 
to the U.S. Intelligence Community and well informed. We are more fully 
integrated into the workings of the domestic security structure. We are 
connected with law enforcement. We have working analysts poring over 
the detail of intelligence and law enforcement reporting to discover 
the hidden patterns and concealed threads of terrorist activity and the 
manifestation of other threats to America from crime with national 
security implications and from other disasters and threatening 
conditions that come our way. We have a sense of purpose and we have 
embarked on what has likely never been done before with regard to 
information fusion. . .to fully understand the threat and the 
conditions to make that information useful at a utilitarian level for a 
broad range of officials from city mayors to border patrol agents to 
airport screeners to critical infrastructure operators to the cop on 
the beat.
    Chairman Camp, Chairman Gibbons, and Members of the Committee, this 
concludes my prepared statement. I would be happy to answer any 
questions you may have at this time.

    Mr. Camp. Mr. Verdery, you have 5 minutes. We have your 
written statement, and if you could summarize it, that would be 
helpful.

  STATEMENT OF C. STEWART VERDERY, JR., ASSISTANT SECRETARY, 
    BORDER AND TRANSPORTATION SECURITY POLICY AND PLANNING, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Verdery. Of course.
    Chairman Camp, Chairman Gibbons and other members of the 
committee, thank you for the chance to be here today to join 
with General Hughes to testify about the efforts of the 
Department of Homeland Security to analyze and disrupt the 
travel of potential terrorists.
    The 9/11 Commission noted that, and I quote, ``targeting 
travel is at least as powerful a weapon against terrorists as 
targeting their money. The United States should combine 
terrorist travel intelligence operations and law enforcement in 
a strategy to intercept terrorists, find terrorist travel 
facilitators and constrain terrorist mobility''. The 
administration and this Department concur with this 
observation, and we have implemented a number of successful 
programs to deny terrorists the ability to travel freely into 
the U.S., identify potential travel facilitators, and constrain 
their mobility.
    This is a complex multiagency undertaking, and we are 
working in close collaboration with our interagency partners on 
this important task. We are reviewing how travel documents are 
produced and reviewed so we can better detect altered and 
fraudulent ones; improving and expanding watch-lists; and 
exploring ways to share data with our foreign counterparts that 
can help identify and thwart terrorists, and, of course, these 
efforts are designed to protect and respect the civil liberties 
and privacy of U.S. Citizens and residents, and of our 
visitors.
    I believe General Hughes in his written testimony ably 
described the role of Information Analysis Section of DHS in 
participating in the Intelligence Community. It is absolutely 
critical that actionable intelligence and actual information be 
provided to the front-line components of DHS, whether it is an 
inspector at a port of entry, a Federal air marshal, an 
aviation screener or a criminal investigator, and that 
capability is robust and improving.
    The BTS Directorate is current operations unit is 
responsible for ensuring a continuing productive relationship 
between the intelligence arms of BTS--Customs and Border 
Protection, Immigration and Customs Enforcement, and TSA--and 
IAIP. BTS analysts are assigned to IA, and there is a daily 
exchange of information between BTS agencies, IA and, of 
course, the Coast Guard. BTS analysts conduct follow-up 
research involving BTS incidents of interest and the 
Intelligence Community, and we have essentially set up a two-
way street of information sharing where our components receive 
information immediately through IA, and IA is immediately 
alerted to significant operational activity.
    Let me focus briefly on some of the programs we think are 
really disrupting the patterns of terrorist travel. And I will 
focus on the National Targeting Center, US-VISIT and our 
efforts to find fraudulent travel documents.
    The National Targeting Center, operated by DHS's U.S. 
Customs and Border Protection, working with numerous Federal 
agencies, provides tactical targeting and analytical research 
support for passenger and cargo targeting in the air, sea and 
land operations in inbound and outbound environments.
    NTC develops tactical targets, potentially high-risk people 
or shipments that should be subjected to additional scrutiny by 
CBP personnel, from raw intelligence, trade, travel and law 
enforcement data via the Automated Targeting System (ATS). The 
NTC supports DHS field elements including our container 
security personnel in 25 countries around the world, our visa 
security officers in Saudi Arabia, the CBP officers at ports of 
entry, and the Border Patrol, and is also working to support 
the pilot Immigration Security Initiative (ISI) operating in 
two airports in Europe to work on vetting passengers before 
they leave for international flights.
    During the heightened threat period last December and 
throughout the winter, NTC played a pivotal role in analyzing 
advance passenger manifest information related to several 
international flights of interest that were deemed to be at 
risk in order to secure those flights. DHS is committed to 
improving the current collection of manifest information over 
the coming months by standardizing formats, requiring departure 
information for outbound flights and finalizing crew manifest 
requirements, and these requirements will build on the 
passenger name record, or so-called PNR, data used for 
screening passengers. I personally served as the lead 
negotiator for the U.S. in our successful negotiations with the 
European Union that now allow that data to be transferred from 
Europe to DHS for analyzing incoming passengers.
    The US-VISIT program is a continuum of identity 
verification measures beginning overseas with the visa issuance 
process operating at 206 nonimmigrant posts, 115 airports and 
seaports of entry. Secretary Ridge deserves great credit for 
moving ahead with biometric components of this system ahead of 
schedule.
    And just to briefly summarize, as of the first 9 months of 
operation, we have now detected 838 individuals identified by 
the biometrics alone at ports of entry as subject to a watch-
list information or other lookout, and about a third of those 
have had adverse action taken against them, being refused entry 
or being arrested. In addition, today, September 30th, is the 
first day the travelers in the Visa Waiver Program are being 
enrolled in US-VISIT.
    The Commission's report noted that terrorists use altered 
and counterfeit travel documents to evade detection. Just 
yesterday I toured the ICE forensic document lab in northern 
Virginia. We have accumulated 130,000 legitimate and forged 
travel identification documents. They are accessible in 
seconds. The analysts at FDL develop hundreds of document 
alerts. They are sent to border inspectors, have the capability 
for front-line inspectors to have real-time review of suspect 
documents, and provides forensic investigation support and 
training. And I would encourage all Members interested in this 
issue to travel to northern Virginia to take a look at the FDL. 
It is truly a unique resource.
    Hopefully during the question-and-answer period we can talk 
a little bit about lost and stolen passport issues. We are 
addressing those through Interpol, through technology 
development and through our review of the Visa Waiver 
countries. This is a critical, critical program to secure those 
documents.
    Terrorism attacks in Asia, Europe and elsewhere are vivid 
reminders to us that terrorism is an international threat that 
cannot be conquered alone. We understand we must engage in a 
global effort each day through collaboration, information 
sharing and ongoing dialogue to bring the weight of our 
collective law enforcement intelligence capabilities to bear 
against those who seek to do us harm.
    Thank you for the opportunity to be here. I will look 
forward to your questions.
    Mr. Camp. Thank you very much.
    [The statement of Mr. Verdery follows:]

             Prepared Statement of C. Stewart Verdery, Jr.

    Chairman Camp, Chairman Gibbons, Ranking Members Sanchez and 
McCarthy, and other distinguished members, I am pleased to be here 
today to testify about the efforts of the Department of Homeland 
Security (DHS) to analyze and disrupt the travel of potential 
terrorists. I am especially pleased to be joined by my colleague, 
Assistant Secretary Patrick Hughes, from DHS's Information Analysis and 
Infrastructure Protection Directorate (IAIP).
    The 9/11 Commission noted that ``[t]argeting travel is at least as 
powerful a weapon against terrorists as targeting their money. The 
United States should combine terrorist travel intelligence, operations, 
and law enforcement in a strategy to intercept terrorists, find 
terrorist travel facilitators, and constrain terrorist mobility.'' The 
Administration and DHS concur with this observation and have 
implemented a number of successful programs to deny terrorists the 
ability to travel freely into the U.S., identify potential travel 
facilitators, and constrain the mobility of known and suspected 
terrorists.
    This is a complex multi-agency undertaking, and DHS works in close 
cooperation with its interagency partners on this important task. DHS 
works cooperatively with our colleagues at the Departments of State and 
Justice and the intelligence community to improve our ability to 
identify terrorists without impeding legitimate trade and travel.
    We are reviewing how travel documents are produced and reviewed so 
that we can better detect altered and counterfeit documents, improving 
and expanding watch lists and how they are vetted, and exploring ways 
to share data with our counterparts that can help identify and thwart 
terrorists. These efforts are also designed to protect and respect the 
civil liberties and individual privacy of U.S. citizens, residents, and 
visitors.
    I would like to focus today on our creation and use of the National 
Targeting Center (NTC) to identify both potential terrorists and 
patterns of terrorist travel, our US-VISIT biometric screening system 
which helps to fix the identities of individuals entering and departing 
the U.S., and our efforts to detect fraudulent travel documents. As 
described more fully in Assistant Secretary Hughes's testimony, I will 
also briefly address how we analyze and pass intelligence information 
to and from our border officers.

National Targeting Center
    The NTC began around-the-clock operations on November 10, 2001, 
providing tactical targeting and analytical research support for anti-
terrorism efforts. The NTC is primarily staffed by DHS's Customs and 
Border Protection (CBP). The NTC staff consists of CBP Officers and 
field analysis specialists who are experts in passenger and cargo 
targeting for air, sea, and land operations in the inbound and outbound 
environments. The NTC develops tactical targets--potentially high-risk 
people and shipments that should be subject to additional scrutiny by 
CBP personnel--and it develops these targets from raw intelligence, 
trade, travel, and law enforcement data.
    The NTC has access to over 20 critical anti-terrorism and law 
enforcement databases, including the Terrorist Screening Data Base 
(TSDB) maintained by the Terrorist Screening Center (TSC), and receives 
strategic intelligence daily from CBP's Office of Intelligence, our 
IAIP Directorate, and other law enforcement and intelligence entities. 
The NTC includes representatives from ICE, the FBI, the intelligence 
community, the Transportation Security Administration (TSA), US-VISIT, 
the Department of Energy, the Department of Agriculture, the Food and 
Drug Administration, and the United States Coast Guard.
    NTC supports DHS field elements, here and overseas, including 
Container Security Initiative (CSI) personnel stationed in 25 countries 
throughout the world, the Visa Security Program, and CBP Officers at 
all of our ports of entry, as well as between the ports through support 
to CBP's Office of Border Patrol. NTC also supports the Immigration 
Security Initiative, currently operating at Schiphol Airport in 
Amsterdam and Warsaw, Poland, where teams of CBP officers are deployed 
to work with local authorities in preventing the onward movement of 
people identified as presenting a security threat to the carrier or 
passengers on international flights destined to the U.S.
    During the period of heightened alert last December, the NTC played 
a pivotal role in analyzing advanced passenger information system 
(APIS) manifests related to several international flights that were 
determined to be at risk, in order to ensure that passengers on board 
did not pose risks to the flights.
    The NTC uses the Automated Targeting System (ATS) to identify and 
target high-risk passengers and cargo entering the United States. ATS 
permits the NTC's trained personnel to process advance passenger 
information, to recognize anomalies and ``red flags'' and to determine 
which individuals and shipments should be given greater scrutiny at our 
ports of entry.
    DHS is committed to improving the current collection of passenger 
manifest information over the coming months by standardizing entry 
information formats, requiring departure information, and finalizing 
crew manifest requirements.
    The United States and the European Commission signed an 
international agreement on May 28, 2004 permitting CBP to access 
passenger name record (PNR) data to be used for screening passengers. I 
personally served as the lead for the U.S. interagency team which 
negotiated for over one year until we succeeded in establishing a 
mutually acceptable legal framework to allow CBP to receive PNR data 
from the airlines that carry passengers between Europe and the United 
States. In 1996, the European Parliament and Council issued a ``Data 
Protection Directive'' that set forth detailed requirements for the 
utilization and sharing of personal data. Prior to our resolution of 
these issues with the Commission, airlines found themselves in a 
position where they could be subject to fines from EU member states if 
they provided PNR data to the United States.
    PNR information is just one of many tools used by CBP to fulfill 
its mission. PNR data is an essential tool allowing CBP to accomplish 
its key goals: (1) PNR data helps us make a determination of whether a 
passenger may pose a significant risk to the safety and security of the 
United States and to fellow passengers on a plane; (2) PNR data 
submitted prior to a flight's arrival enables CBP to facilitate and 
expedite the entry of the vast majority of visitors to the United 
States by providing CBP with an advance and electronic means to collect 
information that CBP would otherwise be forced to collect upon arrival; 
and (3) PNR data is essential to terrorism and criminal investigations 
by allowing us to link information about known terrorists and serious 
criminals to co-conspirators and others involved in their plots, as 
well as to potential victims. Sometimes these links may be developed 
before a person's travel, but at other times these leads only become 
available days or weeks or months later. In short, PNR data helps CBP 
fulfill its anti-terrorism and law enforcement missions and allows for 
more efficient and timely facilitation of travel for the vast majority 
of legitimate travelers to and through the United States. At this time, 
CBP is receiving PNR data, which is enabling us to link information 
about known terrorists.
    Over the course of our negotiations, both sides worked together to 
reach a workable solution that outlines the type of data that may be 
transferred, the period of time it can be retained, and the purposes 
for which it may be used. Additionally, the final arrangement includes 
requirements for aggressive and important passenger redress mechanisms, 
including a channel for direct access by European Data Protection 
Authorities to the Chief Privacy Officer at the Department of Homeland 
Security on behalf of European citizens.
    While this agreement was signed by the EU and the Secretary of 
Homeland Security in May, matters related to the agreement are 
currently being challenged by the European Parliament before the 
European Court of Justice. We are, nevertheless, confident that the 
agreement is legally sufficient and will improve the safety of air 
passengers.
    In addition, CBP continues to work on a version of ATS that, for 
the first time, will be able to identify potentially high-risk 
passenger vehicles and travelers at our land border ports of entry. The 
new version of ATS will also increase the amount of government data 
that the system can access and analyze and enable us to train more 
people on the use of the system.
    These, and many other U.S. intelligence analysis capabilities, are 
being used to help exploit terrorists' vulnerabilities as they travel 
and to learn more about their activities and methods. In addition to 
our ongoing efforts to target terrorist travel to, from, and within the 
United States, the Administration is seeking, on both a bilateral and 
multilateral basis, to promote similar efforts by other responsible 
governments, and to provide those governments with relevant terrorist-
related information.

US-VISIT
    Prior to the terrorist attack on September 11, Congress twice 
mandated the creation of an electronic entry-exit system. Following the 
events of September 11, Congress added the requirement that the entry-
exit system focus on biometric technology as a means to verify the 
identity of foreign travelers. DHS established the US-VISIT program, 
and began implementing US-VISIT, as required, at 115 airports and 14 
seaports of entry on January 5, 2004. In accordance with direction from 
the Secretary, US-VISIT incorporated biometric technology into US-VISIT 
even though biometrics were not statutorily mandated by that date.
    US-VISIT enhances the security of our citizens and visitors; 
facilitates legitimate travel and trade; ensures the integrity of our 
immigration system; and protects the privacy of our visitors.
    In addition to developing an integrated system that records the 
arrivals and departures of travelers and uses biometric technology to 
combat fraud, DHS is designing US-VISIT to: (1) provide information to 
CBP Officers and consular officers for decision making purposes; (2) 
reflect any pending or completed immigration applications or actions; 
(3) identify nonimmigrant overstays; and (4) provide accurate and 
timely data to appropriate enforcement authorities. US-VISIT is working 
to accomplish these objectives.
    US-VISIT represents a major milestone in enhancing our nation's 
security and our efforts to reform our borders. It is a significant 
step towards bringing integrity back to our immigration and border 
enforcement systems. It is also leading the way for incorporating 
biometrics into international travel security systems.
    US-VISIT is a continuum of security measures that begins before 
individuals enter the United States and continues through their arrival 
and departure from the country. Enrolling travelers in US-VISIT using 
biometric identifiers allows DHS to:

        <bullet>Conduct appropriate security checks: We conduct checks 
        of visitors against appropriate lookout databases, including 
        the TSDB, and selected criminal data available to consular 
        officers and CBP Officers at the ports of entry, including 
        biometric-based checks, to identify criminals, security 
        threats, and immigration violators.
        <bullet>Freeze identity of traveler: We biometrically enroll 
        visitors in US-VISIT--freezing the identity of the traveler and 
        tying that identity to the travel document presented.
        <bullet>Match traveler identity and document: We biometrically 
        match that identity and document, enabling the CBP Officer at 
        the port of entry to determine whether the traveler complied 
        with the terms of her/his previous admission and is using the 
        same identity.
        <bullet>Determine overstays: We will use collected information 
        to determine whether individuals have overstayed the terms of 
        their admission. This information will be used to determine 
        whether an individual should be apprehended or whether the 
        individual should be allowed to enter the U.S. upon her/his 
        next visit.
    The DHS and Department of State (DOS) together have created a 
continuum of identity verification measures that begins overseas, when 
a traveler applies for a visa, and continues upon entry and exit from 
this country. The system stores biometric and biographic data in a 
secure, centralized database and uses travel and identity documents to 
access that information for identity verification and database checks. 
206 nonimmigrant visa-issuing posts and 118 immigrant visa issuing 
posts capture finger scans and digital photographs of foreign nationals 
when they apply for visas, regardless of their country of origin. This 
process will be implemented at all 207 visa-issuing posts worldwide by 
October 26. In addition, today is the first day that nationals from 
Visa Waiver Program (VWP) countries will be enrolled in US-VISIT when 
they travel to the United States.
    At assigned U.S. border points of entry, designated visitors are 
required to provide biometric data, biographic data, and/or other 
documentation. This data is checked against various databases, which 
US-VISIT has successfully integrated and which contain visa issuance 
information, terrorist (through the TSDB) and criminal watchlists, and 
immigration status information. That information allows a CBP Officer 
at the border to verify the identity of the traveler and to determine 
whether the foreign national is a public threat or is otherwise 
inadmissible. In its first 9 months of operation, DHS processed over 
8.9 million foreign national applicants for admission through US-VISIT 
at its air and sea ports of entry. During that period, 838 individuals 
were identified by biometrics alone as being the subject of a watchlist 
lookout. After a careful examination of all the relevant facts, DHS 
elected to take adverse action in approximately 33 percent of those 
cases where an individual was identified--such action included arrest 
or refusal of entry into the United States.

Examples of US-VISIT Success
    For example, At Newark international airport, an international 
traveler appeared for inspection. Standard biographic record checks 
using a name and date of birth cleared the system without incident. 
However, a scan of the traveler's index fingers, checked against the 
US-VISIT biometric database, revealed that the traveler was using an 
alias and was, in fact, a convicted rapist. Additionally, he had 
previously been deported from the United States. US-VISIT's search 
disclosed that the individual used at least nine different aliases and 
four dates of birth. He had previously been convicted of criminal 
possession of a weapon, assault, making terrorist threats, and rape.
    CBP Officers at JFK International Airport processing a passenger 
through the US-VISIT procedures found that the individual was using an 
alias. Further information uncovered two arrests for aggravated 
trafficking of drugs, a subsequent failure to appear, and visa fraud. 
The traveler had used this fraudulent visa to enter the United States 
over 60 times without being detected by standard biographic record 
checks, the last time only 11 days earlier.
    Recently, a traveler with four aliases, three social security 
numbers, and a criminal history going back to 1990, tried to enter the 
United States. He was not admitted because a comparison of his 
fingerscans against the US-VISIT biometric watch list determined that 
he had previously been deported from the United States.
    US-VISIT, as well as the student tracking system SEVIS, has 
developed mechanisms to facilitate the lawful and appropriate use of 
entry-exit data by law enforcement agencies such as the Federal Bureau 
of Investigation to enhance their ability to investigate terrorist 
travel patterns.

Secure Flight
    On August 26, DHS unveiled the concepts underlying our new Secure 
Flight program designed to improve security for domestic flights by 
improving the use of terrorist screening information. Under Secure 
Flight, TSA will take over responsibility for comparing PNR information 
of domestic air passengers to a greatly expanded list of individuals 
known or suspected to be engaged in terrorist activity--a function 
currently administered by each airline individually. The move will help 
reduce the number of false alerts caused by the current outdated 
system.
    When in place, following the completion of a pilot program and 
consideration of any issues that arise, and after the completion of a 
rulemaking, Secure Flight will help move passengers through airport 
screening more quickly and decrease the number of individuals selected 
for secondary screening--while fully protecting passengers' privacy and 
civil liberties.
    This new system will implement a key recommendation of the 9/11 
Commission for the government to continue improving the use of `no-fly' 
and `automatic selectee' lists by using the terrorist screening 
database maintained by the Terrorist Screening Center.
    Significant progress has already been made by the U.S. Government 
by providing greatly expanded No-Fly and Selectee lists to airlines to 
conduct checks on their own computer systems under the current 
prescreening program. New names are being added every day as 
intelligence and law enforcement agencies submit persons for 
consideration. As Secure Flight is phased in, TSA will be able to check 
passenger records against sensitive watch list information not 
previously available to airlines.
    Secure Flight differs from earlier enhanced prescreening systems by 
focusing screening efforts on identifying individuals known or 
suspected to be engaged in terrorist activity, rather than using it for 
other law enforcement purposes. As with previous proposals, the new 
program will also include a redress mechanism through which people can 
resolve questions if they believe they have been unfairly or 
incorrectly selected for additional screening.
    The development of the program will be as publicly transparent as 
possible without compromising national security. Testing and eventual 
implementation will be governed by strict privacy protections including 
passenger redress procedures, data security mechanisms, and limitations 
on use.
    Privacy-related documents and a proposed order compelling the 
submission of historical PNR data from the airlines to TSA for testing 
the Secure Flight program were released for public comment and 
published in the Federal Register on September 24. The notice addressed 
the purpose of the testing and set forth the limited purposes for which 
the information collected will be used in Secure Flight.

Alien Flight Students
    On October 5, 2004, TSA will assume the responsibility from the 
Department of Justice for the Alien Flight Student Program (AFSP) 
program and conduct security threat assessments on all non-U.S. 
citizens who apply to receive flight training from an U.S. flight 
school.
    Flight schools are required to submit training information, such as 
the type of training the candidate is requesting, and biographical 
information, including full name, passport and visa information. 
Applicants must also provide their fingerprints.
    All non-U.S. citizens who apply to U.S. flight schools will now 
have to undergo a security threat assessment regardless of the size of 
aircraft in which they wish to train. Previously, only students wishing 
to fly aircraft of 12,500 pounds or more underwent threat assessments. 
Another significant change is that flight schools will be required to 
submit a candidate's photograph to TSA when the candidate arrives at 
the flight school to help ensure the person who was cleared by TSA is 
the person who actually receives the flight training.

Human Smuggling and Trafficking Center
    In July, DHS and the Departments of State and Justice established 
the Human Smuggling and Trafficking Center. The center is housed at the 
State Department and includes the participation of intelligence 
agencies.
    The Center analyzes and disseminates information, and provides 
related support to law enforcement, intelligence, diplomatic, foreign 
assistance, and other entities that take action against the threats of 
human smuggling and trafficking and against criminal support for 
terrorist travel.
    The Center is another measure that the Administration has taken to 
improve our ability to analyze and disrupt terrorist travel, and we are 
optimistic about its possibilities.

Deterring the Use of Fraudulent Documents
    The Commission's report noted that terrorists use altered and 
counterfeit travel documents to evade detection. In the border and 
immigration enforcement arenas, biometric identifiers are tools that 
help prevent the use of fraudulent identities and travel documents. The 
purpose of the biometric identifier is to verify a person's identity in 
order to run criminal history checks and to ensure that an individual 
cannot apply and/or be granted benefits under different names. 
Biometric visas issued by the DOS to travelers to the United States 
allow one-to-one matches, to verify that the person presenting the visa 
is the person who was issued the visa, and one-to-many matches, to 
ensure that the bearer is not the subject of a biometric lookout or 
enrolled in the system under another name. Like the biometric visa 
process, US-VISIT enrollment fixes a person's identity. When a VWP 
traveler enrolls in US-VISIT, the person's fingerprints will be 
electronically linked to the passport, thus preventing another person 
from using that passport by freezing identities at the border and 
ensuring that the person is not enrolled under another name.
    CBP Officers must use their expertise to recognize and block the 
fraudulent use of many types of identification documents presented by 
applicants for admission at our ports of entry. For example, there are 
more than 240 different types of valid driver's licenses issued within 
the United States, and more than 50,000 different versions of birth 
certificates issued by U.S. States, counties, and municipalities.
    While advances in technology allow our dedicated and hardworking 
CBP Officers to examine and validate documents presented for reentry, 
that same technology also enables the perpetrators of fraud to produce, 
relatively inexpensively, high-quality fraudulent documents. Forgers 
and counterfeiters can produce high-quality fake birth certificates and 
driver's licenses with off-the-shelf software programs and materials 
that are difficult to detect without sensitive instruments and 
sufficient time to examine them.
    Our CBP Officers are also charged with detecting look-a-likes or 
impostors who attempt to use valid documents which belong to another 
person. This is one of the fastest growing phenomena in travel document 
abuse. Document vendors solicit genuine, unaltered documents and match 
them up with ``look-a-likes.'' DHS's Immigration and Customs 
Enforcement (ICE) has developed a training program to detect impostor 
documents, which it has conducted for both U.S. and foreign immigration 
and border officers around the world.
    Equipment costs money, and taking the time to examine thoroughly 
and in-depth every one of the approximately 460 million identity 
documents presented at our over 300 land, sea, and air ports of entry 
would be an enormous undertaking with potentially serious secondary 
effects. And, even were we to do this, this effort would only permit us 
to detect fraudulent documents, not, legitimately issued documents that 
are based on fraudulent identity.
    The Administration continues to improve efforts in the area of 
identification security. Last month, the President signed Homeland 
Security Presidential Directive-12 (HSPD-12) to set a common 
identification standard for Federal employees and contractors. HSPD-12 
mandates the expedited, public, and open development of a uniform 
standard for Federal employee and contractor identification that 
ensures security, reliability, and interoperability; closes security 
gaps and improves our ability to stop terrorists and others from 
accessing or attacking critical Federal facilities and information 
systems; and improves efficiency among Federal agencies through more 
consistent systems and practices.
    Secure identification is a priority for the United States. As noted 
by the 9/11 Commission, birth certificates, drivers' licenses, and most 
other forms of identification have traditionally been issued by State 
and local governments, not the Federal Government.
    At the Federal level, we are working closely with our State and 
local partners to find ways to strengthen the standards used to issue 
documents that people use to establish their identity without creating 
a national identity card. DHS has supported the efforts of the American 
Association of Motor Vehicle Administrators (AAMVA) in looking at the 
security of drivers' licenses and strongly supports the States in their 
endeavors to improve the security of these documents.

Lost and Stolen Passport Data
    DHS is addressing security challenges posed by lost and stolen 
passports together with our colleagues in the Department of State, who 
are responsible for the U.S. passport system, and our foreign 
counterparts.
    CBP complies with the section of the Enhanced Border Security and 
Visa Entry Reform Act of 2002 which requires that lost and stolen 
passport data be entered into lookout systems within 72 hours. CBP 
incorporates lost and stolen passport information into its systems to 
aid in the detection and interception of persons using lost and stolen 
documents.
    Across the globe, international border control authorities continue 
to seek timely and accurate information concerning the validity of 
travel documents presented at consular posts and their borders. In most 
cases, countries are able to recognize the misuse of their own 
documents, but because of concerns about the use of personal data, many 
nations remain reluctant to share data on lost or stolen travel 
documents with other governments or international agencies.
    We are making progress in our efforts to encourage international 
cooperation in this area. For example through the efforts of the 
Departments of State and Justice, the U.S. has provided over 300,000 
records of lost and stolen passports to the Interpol's lost and stolen 
document database, which is available to border authorities worldwide. 
We hope that many more of our international partners will join us in 
this effort.
    We are working with our colleagues at the Department of State to 
exchange of information with the Government of Australia on lost and 
stolen passports. We expect that an agreement--the first of its kind 
will be concluded shortly. Efforts are also under way internationally 
to enhance such exchanges of information. At the June 2004 G8 Summit in 
Sea Island, G8 partners agreed to a U.S. proposal to start providing 
information on lost and stolen passports to the Interpol database by 
December 2004. This will allow participants access to real-time 
information on lost and stolen international travel documents. We want 
to advance this effort beyond the G8 and encourage all countries to 
submit relevant information to the Interpol database. We are promoting 
a comparable initiative among the APEC countries to 
develop<greek-e>Regional Movement Alert System.
    Additionally, the U.S. is initiating a study to assess a technology 
concept that could further address this concern. The Enhanced 
International Travel Security (EITS) concept would use distributed 
databases as a mechanism to allow real-time exchange of the basic 
information needed--i.e., a ``yes'' or ``no'' response--to assess the 
validity of a document without requiring visibility into the actual 
data used for that determination. The approach would be similar to the 
one already used worldwide by the banking industry to support ATMs. 
Developing better systems for international sharing of information, and 
expanding participation to more countries will improve our ability to 
identify and screen travelers before they enter our country.
    In addition, as DHS conducts the required reviews of countries 
participating in the Visa Waiver Program, each country has provided 
detailed information about lost and stolen passports, their law 
enforcement response to such incidents, and efforts made to tighten 
distribution and document security processes. How a country handles 
this key issue will be an important factor in how DHS, working with 
interagency teams, determines whether VWP countries shall remain 
eligible for the program. These reviews are due to be completed in 
October.

Integrating Intelligence Information
    DHS has developed sophisticated methods for identifying and 
targeting potentially high-risk cargo and passengers through the 
effective use of strategic intelligence. This intelligence is gained 
through a close relationship between our bureaus, ICE, CBP, and the 
Transportation Security Administration (TSA), our IAIP Directorate, the 
U.S. Coast Guard's intelligence program, and the intelligence 
community. As a result of these relationships, we are able to review, 
analyze, and integrate information that resides in multiple government 
databases, various watch lists, and advance information received 
directly from travelers, airlines, and shippers.
    BTS's Director of Current Operations is responsible for ensuring a 
continuing productive relationship between the intelligence arms of our 
BTS agencies--CBP, ICE, and TSA and IAIP. BTS analysts are assigned to 
IA and there is a daily exchange of information between the BTS 
agencies and IA. BTS and the Coast Guard have also exchanged personnel 
to enhance data sharing.
    The BTS analysts primarily conduct follow-up research concerning 
BTS incidents of interest to IA and the intelligence community. This 
relationship provides a two-way street of information sharing, where 
the component representatives are immediately alerted to significant 
information received through IA channels and IA is immediately alerted 
to significant operational activity.
    BTS intelligence representatives attend multiple, daily, meetings 
with IA where significant intelligence information is discussed. This 
includes intelligence derived from other elements of the intelligence 
community and law enforcement entities.
    BTS agencies send daily reports to IA about significant incidents 
encountered by BTS agencies. These incidents are usually associated 
with a watch listed individual intercepted at the border, a subject on 
the no-fly list attempting to board an aircraft, or information 
alleging potential terrorist-related activity gained from an 
investigation.
    BTS also works with IA to vet intelligence bulletins, reports, and 
assessments and to jointly assess relevant information. BTS ensures 
that intelligence is shared between intelligence analysts and 
operational personnel. BTS seeks to ``operationalize'' the intelligence 
we receive to ensure that the intelligence is incorporated into 
targeting and other decisions on an ongoing basis. For example, we may 
institute more targeted secondary inspections of travelers from regions 
that intelligence suggests warrant additional scrutiny, send priority 
leads based on intelligence to investigators in the field, or reassign 
Federal Air Marshals.
    ICE has created a Threat Analysis Section (TAS) to identify and 
address potential vulnerabilities relative to the national security of 
the United States. The TAS establishes associations between individuals 
or groups linked to potential national security threats, develops 
profiles based upon relevant investigative and intelligence reporting, 
and produces actionable leads for field offices.
    In addition, TSA's Transportation Security Intelligence Service 
(TSIS) produces a daily intelligence summary and a weekly suspicious 
incidents report that is shared with Federal Security Directors Federal 
Air Marshals, and state, local, and industry transportation 
stakeholders.

Conclusion
    We have made much progress to deny terrorists the ability to travel 
freely into the U.S., identify potential travel facilitators, and 
constrain the mobility of known and suspected terrorists. In addition 
to the initiatives described above, we are working aggressively with 
our international partners to improve standards for travel documents, 
enhance aviation safety and port security, and speed the exchange of 
terrorist identifying information. The bombings in Madrid, the recent 
hostage crisis in Beslan, Russia and the Australian Embassy bombing in 
Jakarta also serve as vivid reminders to us that terrorism is an 
international threat that cannot be conquered alone. DHS understands 
that we must engage in a global effort each day, through collaboration, 
information sharing and ongoing dialogue to bring the weight of our 
collective law enforcement and intelligence capabilities to bear 
against those who seek to do us harm.
    I would be happy to answer any questions you have at this time.

    Mr. Camp. Thank you both for your testimony.
    General Hughes, given your extensive experience in 
intelligence and your understanding of this threat to our 
homeland, which, since 9/11, we have been focused on very 
intensely, how do you characterize our efforts to track 
potential terrorists attempting to enter the United States? How 
would you particularly--you know, in comparison to pre-9/11?
    Mr. Hughes. Well, I think it is much improved; for one 
thing, the fact that we have standing watch-lists as a tool 
which we did not have before. The fact that we have a variety 
of registration techniques and much better overwatch on travel 
documentation, the issuance of passports and visas and certain 
knowledge provided by the travelers in many cases about who 
they are and what they intend to do in their travel is a big 
change. That does allow us to begin to have knowledge of them 
earlier in the process than we used to. I think the Department 
of State may have had that information, but it wasn't 
integrated into the intelligence and law enforcement and 
security communities in a way that it is now.
    When they reach our borders, of course, as Stewart was 
discussing here, the U.S. visa--excuse me--the US-VISIT 
program, the enhanced Customs and Border Protection mechanisms 
at the border when they seek passage into our country, and the 
knowledge that we have about them combined is a very powerful 
tool, and indeed we are--as opposed to tracking them, in many 
cases we are interdicting them earlier. We are interdicting 
them in some cases before they get on an airplane. Occasionally 
that system fails. When they reach our border, generally we 
know who they are, and we are finding them.
    I will say that we have some additional capability from the 
past in the illegal border-crossing context. We know quite a 
lot about activities to our Southwest border and Mexico, and 
some information concerning along the Canadian border, perhaps 
a little bit less in the case of Canada because of the 
construct between our two countries. But that is a very 
powerful tool. We can in many cases anticipate movement, and we 
often do interdict persons on those two borders because we knew 
something about them. We knew they were staging or a group was 
planning to travel or something like that. It is not perfect, 
and I don't wish to communicate to you it is by any means, but 
it is better than it used to be.
    And the last thing I would like to mention to you is the 
term "tracking" is very interesting. We have not only this 
foreknowledge or preknowledge of their activities in many 
cases, but we are then able to amass this knowledge in a 
cumulative way in databases that did not exist before. This is 
an invaluable tool and critical to our future success in this 
regard. The identification and registration in these databases 
of these people is vital, and we weren't doing that in the 
robust way that we are now doing it.
    Mr. Camp. I appreciate that, and I think we all agree that 
we have been working toward putting together a really strong 
system in place to apprehend terrorists trying to enter the 
United States. But it seems to me the more we strengthen our 
policy at ports of entry, it is also more likely that 
terrorists may try to infiltrate the country simply by walking 
across our border. You know, Time Magazine recently had a 
fairly chilling article on this issue and the human smuggling 
operations and the efforts like that.
    What is the Department doing--and this may be something the 
Assistant Secretary would like to comment on as well. What is 
the Department doing to strengthen our capabilities to prevent 
illegal crossings, and how can we use intelligence information 
to target and detect potential terrorists who may be trying to 
enter our country in that fashion?
    Mr. Verdery. Well, the short answer is a lot. And at some 
point I would like to follow on to what General Hughes talked 
about in terms of our overseas efforts, and especially on the 
visa side and US-VISIT.
    In terms of the southern border, the enforcement 
capabilities are growing by leaps and bounds, but it is 
obviously a very difficult problem. In recent years, we have 
increased the number of Border Patrol agents. We have increased 
the use of advanced technology, UAVs, sensors, lighting, motion 
detection and the like. We have put the necessary number of 
prosecutors and asylum adjudicators and the like on the ground, 
as well as advanced aircraft deployment. All this, though, does 
demonstrate this is a difficult issue with the amount of 
traffic across the border.
    Under Secretary Hutchinson has launched the Arizona Border 
Control Initiative, ABC, which is really trying to bring 
operational control to certain sectors in Arizona and has 
resulted in huge increases in the number of apprehensions in 
that sector. But that, of course, has then put pressure on 
other sectors who have had to respond with efforts such as the 
Los Angeles Airport Initiative to try to keep migrants from 
being moved into LAX and then flown into other parts of the 
country.
    We also have to look at our legal authorities, and that is 
why we put into place the expedited removal program to turn 
around third-country nationals quickly who don't have asylum 
claims; and the interior repatriation program, to fly Mexicans 
back into the interior of the country to try to break the cycle 
of people being just returned across the border. But over the 
long haul, we, of course, need to improve the entire spectrum 
of apprehension capability, detention capability, removal 
capability. It is a long-term project that we all have to 
concentrate on.
    General Hughes. May I just comment on the intelligence 
piece of this answer? In this open environment, it is important 
for me to tell you that especially with Canada and Mexico, but 
also with some other countries that are involved, not in 
crossing the border illegally as in walking across, but the 
illegal border crossing activity can be facilitated from afar 
through the use of illegal documentation and false identity. 
And we do have better and growing cooperation with both Canada 
and Mexico and with other countries in that regard. Once again, 
in an open environment I probably wouldn't like to get into the 
details, but I can look you directly in the eye and tell you 
that it is better than it was. It needs to get better than it 
is, and we are working on that part of this activity.
    Mr. Camp. All right. Thank you. Thank you both very much.
    And at this time the Chair would recognize the Ranking 
Member of the Border and Infrastructure Subcommittee Ms. 
Sanchez to inquire.
    Ms. Sanchez. Thank you, Mr. Chairman. And thank you 
gentlemen for being before us.
    I think the last few weeks in particular, the Department of 
Homeland Security has had some pretty negative press with 
respect to borders and air; borders, I think, because Time 
Magazine, I believe, was one that has that little picture of 
something being pulled apart and talked about, how much we 
really do need to do with respect to our borders. And it really 
did highlight the northern border, which, of course, we all 
know is much more open than even the southern border. But I 
think the other incident that happened was the incident of 
Yusuf Islam, who everybody in this room probably knows as Cat 
Stevens. He had--you guys returned him to England after he 
arrived in the United States because his name was on the watch-
list.
    I think this episode highlights several problems with our 
current policy, and I sort of want to go through them so I 
understand what happened. I think America wants to know what 
happened and what we are going to do to fix this.
    First of all, he was allowed to board the plane, and I 
guess while he was en route, you guys found his name on a 
watch-list. I guess the question is why would you--why wouldn't 
we be checking it before we got a supposed dangerous person on 
the plane, because maybe he could have blown it up as we were 
trying to figure out who he was? So the question is why do we 
have such a huge security gap in the Visa Waiver Program that 
allows travelers participating in the Visa Waiver Program to 
get on a plane without first being run through the watch-list 
check? And why doesn't DHS check the names of passengers on 
international flight against the terrorist watch-lists before 
the flights take off? And if you can't do it to all passengers, 
can you at least do it for the vast majority of passengers who 
buy international tickets at least an hour in advance?
    Mr. Verdery. I think I will take that one, Congresswoman. 
The Cat Stevens episode does exemplify a current weakness in 
the way international travelers come to this country. As you 
know, we do not have people stationed overseas except for a 
couple of selected airports, as I mentioned, and or the 
Immigration Security Initiative. And essentially the airlines 
are currently our response overseas to enforce the watch-lists. 
And so when a person such as this individual is on a watch-
list, it is the airlines' responsibility to compare the 
manifest against the watch-list and make those no board 
determinations.
    In this case there was an error made. We recognize this 
weakness and have announced as part of the Secure Flight 
Initiative For Domestic Travel that the international realm 
will be enhanced by a proposed rule to be announced later this 
year to require that manifest information be supplied to us in 
advance of wheels up, so before the plane takes off. Now, this 
would be a very complicated endeavor. It will not only change 
the way booking patterns are made, especially connecting 
flights from overseas travel, but it would provide much greater 
security for us to be able to run those watches ourselves 
through the National Targeting Center before the plane takes 
off, and hopefully these types of situations will be much less 
likely to occur.
    You asked about the Visa Waiver Program. Again, the watch-
list check that is done now is no different whether you are 
from a visa waiver or non-visa waiver country. This same error 
could occur with the airlines enforcing the system. So that is 
not the issue in this case. There is a visa waiver issue we can 
discuss at another time.
    We do have the ability, and this happened during the 
heightened threat period in the winter, if there is a plane 
under a certain threat, we can essentially hold the plane on 
the tarmac and run the checks, and that is what was going on. 
But that is not a tenable solution for all international 
travel, and that is why we were going to move with this 
proposed rule to try to get this information ahead of time. It 
is also why we went to such great lengths to get the PNR, kind 
of back-up information about your travel agent, the people you 
are flying with, your bags, and your frequent flyer number from 
the Europeans under this agreement, so we could use that 
investigative tool both to find people and also to clear people 
if there is a potential hit.
    Ms. Sanchez. You held him for 33 hours. You held his 
daughter for 33 hours also, because they ended up going off 
together. After 33 hours you sent him back to England. In 33 
hours you couldn't figure out who this guy was? I mean, such a 
famous person? I am trying to figure out what kind of a system 
are we using to figure out what is going on here. And did you 
tell the British authorities? Why would you put him on a plane 
if he was such a dangerous person? Did you put him on chained; 
you know, shackled? I mean, what is the process?
    Mr. Verdery. Well, there is a lot of different issues 
involved in the situation. I mean, there is the `should he have 
been allowed on the plane' issue. There, is the `what should 
the plane have done while it was in midair'; and then there is 
`how was the individual who actually makes it to our country 
who is on a no-fly list or a watch-list treated'? They are all 
separate issues, and all need separate analysis.
    But in this case, we feel that he was treated 
appropriately. He should not have been allowed on the plane, 
and we had to return him when he arrived in our country after 
the appropriate booking.
    So we need to continue to work on these processes, but we 
feel that proper procedures were followed once we recognized 
that he had been allowed to board. And again, that demonstrates 
all the more why we need to make these decisions ahead of time 
before the person boards the plane.
    Mr. Camp. All right. Thank you very much.
    Ms. Sanchez. Thank you Mr. Chairman.
    Mr. Camp. Thank you.
    At this time the Chairman of the Intelligence and 
Counterterrorism Subcommittee Mr. Gibbons may inquire.
    Mr. Gibbons. Thank you very much, Mr. Chairman.
    And, General Hughes, again, welcome. And I have read your 
testimony and wanted to ask a series of questions, if I may, 
because I think it will sort of hone itself down to or distill 
itself down to a point where I think we are going to get to the 
heart of the issue here, which is information analysis.
    As you stated in your testimony, information analysis is 
really at the heart, I think, of good intelligence efforts, and 
absolutely, if you don't have good analysis, no matter how good 
the collection is, the result is going to be flawed. So my 
question is, is when you have several other Department--or 
components within the Department of human--or homeland defense 
that maintain distinct intelligence units, what kinds of 
control do you have as the head of the information analysis 
over these other intelligence offices? Is there a need for a 
structured relationship between IA and these offices? If there 
isn't one, should there be one? And tasking; describe for me 
the tasking ability of IA to these other offices in order that 
you get the right information to make a decision, from your 
standpoint.
    General Hughes. Well, the answer, sir, I think, is--I will 
start from the back and go forward here. The capabilities 
resident in all of organizations that I enumerate in my oral 
statement are impressive. They all produce what I would call 
organizational intelligence. They are focused on their 
organizations. The Secret Service, as an example, is 
exclusively focused on the missions and matters at hand for the 
Secret Service, and they are very closely held and are not 
broadly applied for very good reasons. Conversely, perhaps the 
United States Coast Guard, a member of the U.S. Intelligence 
Community in its own right, it is a bona fide member and has 
its own budgetary line and its own identity, has a very broad 
set of capabilities akin to any other armed force. And I will 
just describe one more example, Immigration and Customs 
Enforcement, which is--in large measure operates in a 
clandestine manner and is a very capable organization in the 
human intelligence context, all of those and others that I 
won't take the time to enumerate, together, taken together, 
find their way into the national Intelligence Community through 
their own conduits and through the Department of Homeland 
Security. Depends on the circumstances, the nature of the 
reporting, but virtually everything of departmental and 
national interest comes to us at some point.
    I believe we have a value added in regard to the analysis 
of all of that information. We are able to put it together, 
assemble it in one place, cause it to become synergistic in 
nature.
    The answer to the last part of your question, sir, we can 
task anyone inside the Department of Homeland Security in the 
name of the Secretary, and we do.
    Mr. Gibbons. Is there a structured relationship between you 
and these other intelligence agencies?
    General Hughes. Yes, there is. We have an agreement among 
us which has been verified by the Secretary and by their 
individual organizational leaders that IA is the departmental 
organization that gives some form to the structure. We meet 
every 2 weeks formally in the Homeland Security Intelligence 
Group context, and we exchange information among us and between 
us. We also have coparticipation in many meetings, and 
interaction every day exists between us in automated form, like 
telephone and, in many cases, face-to-face meetings that occur 
because we interact.
    Mr. Verdery. Congressman, if I could just add on this from 
the BTS perspective. And that is one of the points of having 
the Border and Transportation Security Directorate as an 
umbrella over these large operational components, CBP, ICE, 
TSA, which have their own headquarters. They are operating 
around the country, around the world. BTS is at headquarters 
with IA, so there is constant interaction between General 
Hughes' operation and the BTS headquarters operation; and also 
to coordinate, because we recognize that the activities, 
intelligence or otherwise, between the BTS components are so 
linked, especially between ICE and CBP, because essentially 
Congress broke INS and Customs in half and stuck the 
investigators with the investigators and the inspectors with 
the inspectors. But those links between the two to bring front-
line activity back to the investigative realm has to be 
maintained. And that is one of the large purposes of the BTS 
Directorate is to make sure that link continues, along with 
getting the intelligence from headquarters out to the field.
    Mr. Gibbons. Well, Secretary Verdery, let me ask you this: 
You just talked about having 838 apparent hits on your watch-
list, with one-third receiving some sort of adverse action, 
either arrested or rejected for entry due to the biometrics 
program that you have got. What are you doing today to enhance 
the current capability of biometrics? In other words, are you 
looking at new technologies that are out there so that we don't 
get, as Ms. Sanchez said, an inadvertent hit because of the 
inability either to not have the information that was properly 
there, or to have a poor biometric system that doesn't do what 
we expect it to do? What programs, what pilot efforts have you 
got going? What research and development--are you reaching out 
to the private sector to do this?
    Mr. Verdery. Well, sir, the VISIT system which you 
referenced is obviously a fingerprint-, finger-scan-based 
system. Secretary Ridge, the Attorney General, and the 
Secretary of State made the decision to base it on fingerprints 
largely because that is how we have people listed in criminal 
databases, and also in terrorist watch-lists in many cases. 
That is what makes us able to find people, and it has worked 
extremely well. I think the turnaround time is running about 6 
seconds from a systems perspective.
    Mr. Gibbons. There are also other systems out there that 
could be supplemental to the fingerprint systems that could be 
very helpful.
    Mr. Verdery. There are. VISIT is always looking at trying 
to find repetitive or back-up systems that would enhance the 
biometrics, such as the facial recognition. Part of the 
biometric passport which will be coming on line throughout next 
year will be part of the VISIT system. We have to deploy 
readers to read those biometric facial recognition parts of the 
passport and build that into the database. We are looking at 
other biometrics, whether it is iris or the like, and that can 
be built in on top of that.
    Now, a very important thing, the President issued HSPD 11, 
Homeland Security President's Directive 11, last month, which 
requires our Department to go through a screening review of all 
things across the government, including biometric screening 
processes, to harmonize them to come up with the best 
biometrics, the best screening procedures to make them 
consistent. That review is ongoing right now with a biometric 
subgroup.
    Again, the other thing I should mention, our Science and 
Technology Directorate, not represented here, is putting in an 
incredible amount of effort on next-generation biometrics, 
working with our operational entities like US-VISIT.
    Mr. Gibbons. Well, at some point I would like to talk to 
you personally about these systems and look forward to that.
    Thank you, Mr. Chairman.
    Mr. Camp. Thank you.
    And at this time the Chair recognizes the Ranking Member of 
the Intelligence and Counterterrorism Subcommittee Ms. McCarthy 
to inquire.
    Ms. McCarthy. Thank you, Mr. Chairman.
    I have a question for each one of you. I will take Mr. 
Verdery first. I appreciate that you said that we are not under 
the practice of holding planes when we are checking watch-
lists. I happen to agree with you on that. But in a journey I 
made during the recess period, I learned that Australia has a 
system now where they do that investigation when the individual 
buys the ticket. And I wonder if we are moving in that 
direction on this legislation in the House, sponsored by our 
Ranking Member, to encourage that. Would you give us your 
thoughts?
    Mr. Verdery. Yes, ma'am. As I mentioned, we have announced 
that we are planning to promulgate a draft rule that would 
require that advance manifest information be supplied before 
the plane takes off so that we can do the vetting at the 
National Targeting Center before the plane gets into the air. 
And so that is something that will be coming down the pike.
    And I will say, to be candid, it is not an easy solution, 
because if you talk to airports, airlines, the way that the 
changes have had to be made to how people book flights, the way 
people connect on flights will be immense. There will be costs 
here both in terms of inconvenience to passengers, the way 
airports are structured and the like. We support it, we think 
it is the right way to go, but it is something that has to be 
managed very carefully to make sure we don't kill off the 
travel industry in the process.
    Ms. McCarthy. Well, it hasn't killed off the travel 
industry in Australia, so I think there is probably a good 
model for you out there. And people who are bargain shopping 
are generally buying their tickets ahead of time, and that 
should be of assistance in your efforts as well. I think it is 
only Members of Congress that don't know when they are getting 
on a plane.
    Mr. Verdery. It is of assistance, but, of course, when you 
are talking about millions of incoming travelers, even if you 
have a 1 percent error rate where you know you are talking to 
the travel agent on the phone and you say your name or an 
address or a phone number, and they mistype a key or a number, 
that then ends up with the kind of false hits that you try to 
avoid. So that is why the system right now is based on the 
information on your passport that is swiped electronically at 
the desk at the check-in counter so there aren't errors, or 
very rarely, in that kind of information taking. You take it 
off the phone, off the Internet, you end up with more errors.
    Ms. McCarthy. Well, I have every faith that you will figure 
this out and will do an even better job than Australia.
    General, does DHS or TTIC or any of the other intelligence 
agencies have an office devoted specifically to terrorist 
travel? The information sharing that is going on in other 
countries, I was on a trip with Member Dunn, who chaired the 
trip to Ireland, to Northern Ireland, the Republic of Ireland 
and England, and one of the examples we learned there was that 
a--of a police officer in Northern Ireland investigating an 
incident uncovered information that, when shared with others in 
the Republic of Ireland, in the South, and with Great Britain 
led to the discovery of the cell that funded the Bali tragedy 
and others. So they, albeit they are all in one compact series 
of islands, are doing that information sharing.
    How are we doing on information sharing not just within our 
own country, but within those other strategic countries that 
are so important to our mutual success?
    General Hughes. That is a good question, but it is broader 
than the Department of Homeland Security. I will go ahead and 
answer it on behalf of the many other colleagues.
    The U.S. Intelligence Community, at a variety of levels, 
especially the Central Intelligence Agency, the Department of 
State's intelligence organs, the Federal Bureau of 
Investigation, and the Defense Intelligence Agency, and the 
Department of Homeland Security, we all exchange information 
with other countries. It is not perfect in some cases. And the 
reasons are we have to go forward with information that can be 
released and placed at risk in the other countries' realm. We 
do have mechanisms to do that, such as tear lines and 
sanitization, where you take out the source's methods that we 
use to get the information. But it is a very robust activity 
and ongoing.
    I think there was kind of an interior question there that 
you asked, and that is how are we doing with regard to the 
travel, terrorist travel focus? The Transportation Security 
Administrations intelligence organisms, there are two or three 
different pieces to that, do overwatch terrorist travel in a 
professional sense. And in my organization, as part of our 
Strategic Intelligence Division, we have a culmination of 
liaison officers and devoted analysts who work part time or 
whole time on the issue of terrorist travel. Indeed, I would 
probably say each and every day, my time is devoted in some 
measure to the issue of persons who we have encountered in the 
travel process who are connected in some way with terrorism. It 
is of vital importance to us.
    Ms. McCarthy. Mr. Chairman, if I might pursue very, very 
briefly.
    Mr. Camp. Very briefly. The gentlewoman's time has expired.
    Ms. McCarthy. Yes, sir.
    Are you sharing this--is there a clear sharing with other 
countries?
    General Hughes. Yes.
    Ms. McCarthy. Thank you.
    Mr. Camp. The gentleman from New Jersey, Mr. Andrews may 
inquire.
    Mr. Andrews. Thank you, Mr. Chairman. I appreciate the 
testimony of the witnesses.
    Our goal, our policy, is to reach a day when every person 
attempting to gain entry in the country can be affirmatively 
identified so we know who they say they are. When will we reach 
the day where every port of entry into the country has 
biometric reading capability?
    Mr. Verdery. Well, if you are talking about the US-VISIT 
biometric reading capability, that has been deployed to the 
major seaports. There are some smaller ones that have not been 
brought on line. That will be coming down the pike throughout 
the coming months and years. In addition to that gap, we are 
deploying at the land borders, at the 50 largest land borders, 
at the end of this year and the smaller ports of entry 
throughout next year. So US-VISIT is not a complete system by 
any means, but the Secretary, I think, took the bold step of 
deploying it in stages, because no one had been able to do this 
because no one--
    Mr. Andrews. I understand. You want to do it right rather 
than fast. But we want to do it right and fast. So what 
percentage of people coming into the country today do not have 
their IDs biometrically read?
    Mr. Verdery. Well, I am trying to remember. The 
overwhelming number people who come in this country are coming 
via the land border, and the larger percent of that from 
Mexico. Now, most people coming from Mexico are Border Crossing 
Card holders. I would have to get the numbers for you, but my 
sense of it is at least probably a third of the individuals 
coming in are coming in as Border Crossing Cardholders, coming 
back and forth all the time. Those people have gone through a 
background check similar to a visa, so they have been checked. 
Anybody who has gone through a visa has been checked. And now 
starting today--
    Mr. Andrews. When you say checked, you mean read through a 
biometric reading?
    Mr. Verdery. If you apply for a visa now, you will go 
through a biometric check at the time of the visa interview and 
then again with US-VISIT at the port of entry to see if 
derogatory information has been received in the meantime or if 
you forged your document. And again, as of today, literally 
today, Visa Waiver travelers who don't have a visa are now 
being checked biometrically at the port of entry, at the 
airports and seaports.
    Mr. Andrews. I know that it is not a totally knowable fact 
to know when the day will come when every port of entry has 
biometric reading capability, but when do you think the day 
will come?
    Mr. Verdery. Well, again, the most difficult one will be 
the smaller land ports of entry, which is by statute required 
by the end of 2005. These are the outposts in the middle of 
nowhere, so to speak. So that is the backdrop of the last date 
where things would be fully employed.
    Mr. Andrews. And is that going to happen?
    Mr. Verdery. I believe it will, yes. We are committed to 
have the big ports of entry with that capability in secondary 
at the end of this year, building out in the primary lanes of 
entry throughout next year.
    Mr. Andrews. So this will include by sea, by air, by land?
    Mr. Verdery. Air is complete right now for entry, and the 
seaports largely complete. There are a few gaps. Land this year 
and next.
    Mr. Andrews. Now, let's talk a bit about biometric quality. 
Dr. Wein, or Wein--I am sorry if I mispronounce his name--is 
going to testify later this afternoon that he has concluded 
that a very, very small number of the readings are reliable, 
and he has made a suggestion that if we shift the technology 
for the fingerprint reading to read 10 fingers instead of what 
we read now, we can dramatically increase reliability, I 
believe, to over 90 percent from in the forties or fifties 
where it is now.
    A, do you agree with his assessment? And B, if you do--if 
you don't, what is wrong with his assessment? And if you do 
agree with his assessment, do you think that we should make the 
rather modest technological change that is proposed to try to 
plug the hole?
    Mr. Verdery. All I have seen is his testimony for this 
hearing, which doesn't have the technical back-up that you 
might expect. I understand he has a study that will be released 
in the coming days, which I would expect that our team, 
especially the US-VISIT Office, would want to look at very 
carefully.
    As I understand it, it is not that the majority are 
unreliable. It is that a small minority are unreliable if they 
have certain characteristics of their fingerprint. I honestly 
feel a little uncomfortable talking about in open session as to 
how to defeat the system, to be honest. But--
    Mr. Andrews. But certainly we could generically say that 
there are people trying to beat the system, and there are ways 
to do it, right? So do you agree with his conclusion that those 
of--a significant plurality, I guess, of those who try to beat 
the system can do so now.
    Mr. Verdery. I don't agree with that, and I don't believe 
our US-VISIT biometric experts do either. I don't pretend to be 
a biometric expert, but I don't believe they would agree with 
that in the way it has been presented.
    Now, to go to your question you asked earlier about the 10-
print. I think we do agree that in a perfect world, a 10-print 
solution, if it didn't take any more time and any more costs, 
would be preferable. But at a port of entry, at a visa issuance 
window, there is a big difference between putting a 10-print 
reader and a 2-print reader out in a primary lane or at a very 
crowded consular office. And so the marginal gain between 10-
print and 2-print we have decided to date is not worth it 
because it would have held up deployment of a system that is 
working every day, as we speak, to find people you would not 
want coming into this country.
    Mr. Andrews. I have to say I am concerned about that answer 
because it is my understanding that NIST looked at this study 
and believes that his--the professor's conclusions were 
conservative; that, in fact, the error rate may be higher. And 
remember that although the vast majority of people trying to 
get entrance do not in any way try to alter their fingerprint, 
I would assume that it is a pretty fair conclusion that a 
significant number of people that we are actively trying to 
keep out might want to alter their fingerprint. So it is a 
small part of the universe, but a very crucial part of the 
universe.
    Let me also ask you this. It follows up with Mr. Gibbon's 
question. What mechanism is in place to move forward in 
biometric technology for things other than fingerprint, like 
eye scan? Do we have the flexibility to test those 
technologies, and, if so, what are we doing?
    Mr. Verdery. Well, we are actually testing the iris scan, 
if that is what you mean, right now in a different program, the 
Registered Traveler Program that TSA is operating at five 
airports around the country, including Reagan National, both 
fingerprints and iris scans, as a way to verify people who have 
been preenrolled in a Registered Traveler Program. And so we 
are working on the iris scan from that end.
    As I mentioned, the facial recognition technology that will 
be built into international passports, will be required of Visa 
Waiver travelers next year. We are building in the capability 
to read that into our document readers at ports of entry. And 
so we are looking at the systems to provide redundancy and the 
like.
    But again, the backbone of the system, from our point of 
view, has to be the fingerprint because that is the way our 
criminal records are characterized; that is how we are able to 
find people very quickly with very low error rates, people who 
should not be admitted to this country.
    Mr. Andrews. Thank you very much.
    Mr. Camp. Thank you.
    Mr. Pascrell may inquire.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. Chairman, 98 percent of over 281 million visitors 
annually enter our country and are inspected. That means that 
millions of travelers entering the country are entering without 
being checked against any intelligence database that could help 
identify a potential terrorist or even a convicted criminal.
    I am interested--when we talk about terror, General, and I 
want to know if you agree with me, I am talking not only about 
those people who wish to bring explosives into this country or 
to come into this country to wreak havoc on our citizens and 
our property, and I am talking about those people who are 
transporting drugs across our border. I see that terror every 
day in my district, throughout this Nation. And I know that 
drug trafficking in the United States has a lot to do with the 
funding and the assisting of terrorist groups and 
organizations. What do you see and what do you do about drug 
interdiction? And how do you see they are both connected?
    General Hughes. Well, thank you very much for the question. 
Perhaps Assistant Secretary Verdery would like to comment after 
I do.
    Personally, I am not positive about the figures you quoted, 
but I grant you that there are people who successfully get into 
the country with drugs and who are terrorists who may come in 
with some capability. That certainly is true. I think it is a 
very small percentage compared to what it was.
    We have actually been extremely successful in interdicting 
drug shipments, and indeed in the past 2 weeks, we have 
interdicted huge multiton, ship-borne movements of cocaine in 
the Pacific, which you may have read about in the newspapers.
    Aside from that, on our land borders and in air crossings, 
it is pretty common for us to now interdict any kind of 
carrying of such material, either terrorist-related material or 
drug materials, through the air bridge.
    The land bridge, as we mentioned, poses a significant 
problem for us. We are trying to do our best to control that, 
and there are a lot of issues there I can talk to you about, 
but I think we are making progress. We are on the right track.
    But I don't know whether that is a good answer for you, but 
I will summarize it. Maritime is a huge problem, but we are 
being successful at interdicting, and that is often based on 
good intelligence. The air bridge is pretty secure 
comparatively for both terrorist activity involving material 
and narcotics trafficking. Small amounts probably arrive here 
and there. The land borders are an issue, and we are working 
hard to secure them.
    Mr. Pascrell. Mr. Verdery, would you respond to that 
question, please?
    Mr. Verdery. Sure. I think, as General Hughes mentioned, 
the numbers on drug seizures are up quite dramatically, whether 
it is by sea with the Coast Guard or over land at our ports of 
entry or the Border Patrol. We have seen no degradation of the 
drug mission in this Department. In fact, it has been enhanced 
by the additional capabilities being brought to bear. I would 
be happy to get you those figures on that.
    We do recognize, of course, that the means by which people 
are able to enter the country on the land border could 
facilitate a terrorist looking for the same type of entry. That 
makes it all the more important--
    Mr. Pascrell. Well, my point--excuse me for interrupting. 
My point is that there is no difference in the terrorists. What 
is the difference? If you are bringing drugs into this country 
to kill our children and our citizens who are stupid enough to 
use it, you are--what is the difference between that kind of 
terrorism and the terrorism that the President has been talking 
about over the last 3 years? What is the difference?
    Mr. Verdery. I take the point. We want to do both. We want 
to fight the counternarcotics mission and also what I was 
referring to as more of international terrorism, which I think 
is a term of art.
    Mr. Pascrell. Well, would you agree with my statement that 
the terror of drugs in this country is just as horrible, just 
as terrible as the terror which is brought into this country of 
those who wish to bring explosives or to kill our citizens or 
to damage our property?
    Mr. Verdery. I wouldn't want to rank two horrible outcomes. 
They are both horrific.
    Mr. Pascrell. We both agree then.
    Mr. Verdery. Yes. But I think the capabilities that are 
being brought to bear against the terrorism threat as I define 
it, kind of international terrorism, Al-Qa'ida and the like, is 
having significant impact on the drug enforcement mission also, 
whether it is the One Face at the Border Initiative, getting 
our Customs inspectors and immigration inspectors cross-
trained, enhanced Border Patrol missions, advanced technology 
on the border. We are seeing increases in picking up people, 
picking up drugs, all those kinds of things on the border.
    The last point I have to make is that this demonstrates all 
the more reason for the President's Guest Worker Initiative, 
because we have got to figure out a way to get the overwhelming 
majority of people who are crossing the border legally, who are 
not criminals, who are not trafficking drugs, who are not 
terrorists, who want to work, we have to be able to have a way 
for them to walk, to come back and forth to those jobs through 
the ports of entry where they can be vetted for security 
reasons and essentially pull the wheat and the chaff, separate 
them. Terrorists are not going to be able to walk into a port 
of entry. And so if we can get the guest workers who are here 
to work coming back and forth through ports of entry, 
regularize that, it would make our border enforcement mission 
much better.
    Mr. Pascrell. Let me make myself clear. I didn't make 
myself clear then. There are 22,000 Americans that are killed 
every year in the United States due to illicit drugs. It would 
seem to me, just an observation, a perception, that we do not 
have the commitment to interdicting those drugs and ending this 
horror on the streets of our communities. And we know the 
tragedy of 9/11. The Commission spelled it out, made some 
recommendations. Some we have included in legislation 
conveniently, and some we have left out.
    You don't have enough people to do your job. I don't care 
what you tell us today. You don't have enough people to do your 
job. So you are the messenger. I understand that. It is not you 
personally that I am--
    Mr. Verdery. If I could just--I mean, there is a commitment 
from the Department, from the Secretary, from Asa Hutchinson, 
the Under Secretary, former head of the DEA, our Deputy 
Secretary, our operational heads such as Commissioner Bonner 
and our Counternarcotics Office to see this mission forward. 
And as General Hughes mentions, the numbers bear out that we 
are doing it. Are drugs getting in? Of course. This is never a 
100 percent solution. But we have seen a robust increase in the 
amount of drugs that are interdicted in the source zone, at the 
ports of entry and the like, and we need to ramp it up. But we 
are doing the job.
    Mr. Pascrell. I just wanted to bring something to your 
attention, that is, on the Border Patrol. We are talking about, 
in 2011, there were 9,700, almost 9,800 Border Patrol. There 
are 10,839 today. How can you sit there and tell this 
committee--being the messengers, how can you sit there and tell 
this committee that by adding the small amount of Border 
Patrol, that you are even touching the surface of this serious 
problem.
    You know that there are more drugs coming into this country 
than ever in the history of the Nation. You don't have enough 
people to do the job. We are doing this on the cheap, and we 
are doing this for what the reason?
    I don't know why we are holding this hearing today, I 
really don't. We need to act and we need to act yesterday. And 
that was the whole message of the 9/11 Commission, we need to 
act yesterday. And we need to do it in a very tangible way, 
rather than simply having committee upon committee, everybody 
gets a piece of this, and nothing is being done.
    There is terror in our streets, and there is terror from 
drugs in this country that are moving freely. You know it and I 
know it. Just as serious as the lunatics that are out to try to 
kill us--just as serious.
    Mr. Camp. Thank you. The gentleman's time has expired.
    And before I recognize Mrs. Lowey, the purpose of this 
hearing is to look at terrorist travel. We have separate 
committees in this House that deal with narcotics, and there 
are some Members that are on both committees, like Chairman 
Souder who has done a great deal of work in this area.
    So I appreciate the gentleman's line of questioning, but 
this hearing, in fairness to our witnesses, is about terrorist 
travel. And I realize--
    Mr. Pascrell. I am talking about terrorist travel, Mr. 
Chairman.
    Mr. Camp. I realize, by your definition, but we have 
separate committees--
    Mr. Pascrell. That is why I asked the question.
    Mr. Camp. But we have separate areas that are also working 
on this.
    So, with that, I would recognize the gentlewoman from New 
York, Mrs. Lowey, to inquire.
    Mrs. Lowey. Thank you, Mr. Chairman.
    Gentlemen, good to see you again. Tuesday's New York Times 
reported, based on the findings of an FBI inspector general 
report, that 3 years after the September 11th attacks, more 
than 120,000 hours of potentially valuable terrorism-related 
recordings have not yet been translated by linguists at the 
FBI.
    My judgment, this is absolutely outrageous, not to mention 
dangerous, particularly for the residents of my home State of 
New York which is referenced in intelligence reports time and 
time again.
    In my judgment, we can collect all of the intelligence we 
want, but if we let it sit on a shelf and collect dust for 3 
years, it won't do us any good. We are here today, in part, to 
review the progress being made by the Department in the area of 
information sharing.
    And perhaps, Secretary Hughes, could you just tell me what 
this report indicates to you, and what you are doing about it?
    General Hughes. It indicates to me that we--and actually I 
guess I will use a little bit of history here--we haven't 
solved the problem we have had for many years, where similar 
kind of records have been found throughout the intelligence 
community, not just at the FBI, but at the National Security 
Agency, the Central Intelligence Agency and the former office 
that I held, the Defense Intelligence Agency. We are 
overwhelmed, in fact, many times by the volume of material.
    We do have some screening mechanisms to go through this 
material and highlight to us the issues of interest that are in 
them, rapidly, key word search, as an example of anything that 
can be digitized. That is not the only--
    Mrs. Lowey. Secretary Hughes, if I may, but I know that my 
time is fast disappearing. You are the Assistant Secretary, 
Information and Analysis. I may not get to my next question 
about border security. But it is 3 years after 9/11.
    I have three children, I have seven grandchildren; I want 
to know what you or others who have similar responsibilities 
are doing about this now? This is an embarrassment. It should 
be an embarrassment to you, to Secretary Ridge, to the FBI. 
What are we doing about it now?
    General Hughes. I don't think I can answer your question. I 
don't know what we are doing about it now, outside of being 
equally outraged, as you are, about the report. I don't 
actually know if the report is completely accurate.
    But let's assume that it is for a minute. What I intend to 
do is to ask questions about it in the appropriate forum and to 
seek full detail, and then search for ways to solve this 
problem. I am sorry if it seems like I was talking on anything 
something that wasn't related. But, indeed, it is related, 
ma'am.
    We have had these problems for 20 years or more. And we are 
likely to have them in the future. The volume of information 
and the number of people to deal with it is in great imbalance.
    I apologize for giving you that answer.
    Mrs. Lowey. No, I appreciate your honesty, sir. But I just 
want to say, as someone who sits on Appropriations, I know 
the--in addition to this committee, I know the billions that we 
are spending. We spent billions organizing this Department of 
Homeland Security.
    I had real concerns that instead of dealing with issues 
like this and replacing incompetent people with competent 
people, we have been moving chairs around. Some people aren't 
even in their offices yet. So I just wanted to send a very 
strong message that if my first responders--my police, my fire 
fighters--are going to be getting plans in place to deal with 
emergencies and the FBI doesn't even have all of these urgent 
messages interpreted--as you know, before 9/11, part of the 
problem was they couldn't get the messages to the right people; 
and I am not even talking about other issues that our first 
responders have. But if we can't get these messages interpreted 
in a timely way, we might as well just all say, Give up, save 
the money, put it into our schools, put it into our health 
care, the Department of Homeland Security is just not doing 
what it should.
    And I hate to be so strong, because I know you are working 
so hard. But I just hope that if I am sending my strong message 
to you, it is gotten, and you can report back to me and to the 
committee as soon as possible with a plan that is going to 
address this.
    Mrs. Lowey. I don't know if we are going to have a chance 
to ask other questions, but Solomon Ortiz, my colleague, has 
been asking a lot of question about the gangs, the illegal 
immigrants that have been coming over the border. 
Unfortunately, the head of counterintelligence at the CIA, 
never heard about that.
    So I hope, Mr. Chairman, you all have heard about it. He 
didn't know about it, and so there seems to be a real problem 
of people in one office not communicating with people in other 
offices. And I hope, Mr. Chairman, if we have another round, we 
can deal with that, because that is truly a major issue in 
border security. Thank you.
    General Hughes. May I give one brief answer?
    One of our--
    Mrs. Lowey. I am talking about the catch-and-release issue.
    General Hughes. I understand--and the gangs. My point that 
I was going to make is, one of our primary databases is called 
VGTOF it is the Violent Gangs and Terrorist Activities or 
Terrorist Organizations Database.
    We combine the two in at least one database and look at 
them with equal vigor for lots of reasons. And part of the 
reason is, we believe, I strongly believe, there is a 
connection. So MS13 from El Salvador or Honduras here in the 
United States and Al-Qa'ida somewhere else, I believe does have 
a relationship that is important for us to understand.
    May I just close by saying, I share your passion, and I 
will do my best, ma'am.
    Mrs. Lowey. Mr. Chairman, I think it is just important to 
remember, and I know if we get to another round, that the 
problem here is that these illegal immigrants are released 
under their own recognizance.
    And I have a feeling that they might not all be home just 
knitting with their families or cooking dinner. And I think it 
is an amazing issue that many of my colleagues have spent a lot 
more time focusing on, and I was just going to bring it up 
today.
    Thank you, Mr. Chairman.
    Mr. Camp. Thank you.
    Mr. Langevin.
    Mr. Verdery. If I can have a brief minute to respond. But 
you mentioned that there were catch and release. That is 
obviously a concern of ours, because there is an imbalance 
between the number of people who are picked up, who are 
scheduled for deportation, and the amount of beds we have.
    Now, within that imbalance, ICE has gone to great lengths 
to prioritize people who have been found to be involved with 
criminal activity, violent criminal activity, or are non-
Mexican. So we are trying to prioritize amongst our bed space 
to keep the violent felons in custody until they are deported, 
as well as trying to improve the deportation system itself to 
get more people through the system, whether it is through 
repatriation, getting people back to countries that won't take 
them.
    We are trying to move more people through so we have less 
catch and release.
    Mrs. Lowey. Maybe you should have more bed space.
    But, Mr. Chairman, I won't take any more time.
    Mr. Camp. Thank you.
    Mr. Langevin may inquire.
    Mr. Langevin. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here today. Andrews, who is 
clearly on the same wavelength addressed my question in large 
part, but I do want to follow on, if I could, and just explore 
a little further where we are, how close we are in terms of 
having a robust system that is as close as possible to 100 
percent effective when it comes to biometric scanning of 
fingerprints.
    What are you doing to get us to that 100 percent level, and 
in terms of a time frame, at what point can you give assurance 
to the public that we are as close as we are going to get, that 
it is a 100 percent accurate scanning system?
    Mr. Verdery. Well, if you think of--
    Mr. Langevin. If I could, in addition to that, are we 
giving equal attention in terms of the technology that is 
deployed to airports, ports of entry and land border crossings, 
particularly in light of the fact that there are some that 
suggest that Al-Qa'ida would prefer a port of entry as opposed 
to some of the other methods coming in?
    Mr. Verdery. Well, thank you for that question, sir.
    Again, VISIT is being deployed in fairly well-identified, 
discrete increments: Increment 1, January 5 of this year, 
airports and seaports. It is now 100 percent at airports, so 
every international traveler, with the exception of diplomats 
and a couple of other minor categories, basically 100 percent 
are vetted biometrically at the port of entry, at airports.
    Seaports are close to 100 percent for entry. Land borders, 
we will put US-VISIT capabilities in secondary processing by 
the end of this year at the 50 biggest ports, the very heavily 
trafficked ones, and at the smaller ports of entry by the end 
of next year, by 12/31/05.
    The VISIT capability on primary, because essentially when 
your cars are driving through you are talking about primary, 
will be deployed throughout 2005 at the big ports of entry and 
2006 for the smaller ports of entry.
    In terms of how are we deploying it, we recognize there is 
no way to make everyone get out of a car at primary, with 
literally millions of people coming through. So we are going to 
be going with a radio frequency technology solution, so that 
the biometric information is pulled off your travel document as 
you are going through the port of entry ahead of time, so that 
the inspector can see the information, see if there is a 
potential problem while there is still time for a law 
enforcement response or other necessary action. And that same 
solution will be deployed on exit, so there is an exit at the 
port of entry, as well as for land.
    I think I mentioned the airport exit solutions will be 
deployed this year, and throughout next year there will be a 
universal airport and seaport exit.
    So I think the bottom line for airports and seaports, you 
are looking at near 100 percent coverage by the end of next 
year; land ports, 2006.
    Mr. Langevin. What about the accuracy of the technology 
itself? As Mr. Andrews was--brought up, Dr. Professor Wein's 
findings indicate that the technology itself in some cases may 
be as low as 52 or -3 percent in terms of its accuracy. You 
feel it is higher.
    But, clearly, it is not at 100 percent. So what steps are 
you taking to get us as close to 100 percent accuracy as 
possible? And how long before you have confidence that it is 
100 percent accurate when the technology is used?
    Mr. Verdery. Well, what we found in the 9 million or so 
people who have been enrolled in US-VISIT this year is that the 
accuracy is quite high. The false positive rate is less than 1 
percent. And those people are resolved usually very quickly, in 
a couple of minutes in secondary, where a fingerprint appears 
to be a match against a watch-list, but is not. There also are 
small numbers of individuals whose fingerprints cannot be taken 
for medical reasons or other reasons.
    The issue that was raised by the witness in the second 
panel is, I think, a little bit different than that. It is a 
question of, if you are trying to defeat it, how easy is it to 
essentially try to rig the system. And again I don't feel real 
comfortable talking about that in open session. I would be 
happy to come in and talk to you privately about that.
    But in terms of the overwhelming majority of individuals, 
it is working extremely well, in the 99 percent range.
    Mr. Langevin. My time is almost up, so quickly I would like 
to ask this.
    I still am constantly baffled by the sheer number of 
different databases and lists available for determining who 
requires extra screening and who should or should not be 
flying. And I can't believe that we still don't have one 
complete and integrated list that can be effectively used for 
our Border and Transportation Security infrastructure to thwart 
terrorist travel.
    So can you provide some more detail as to what your goal is 
in terms of streamlining those lists and ensuring that they are 
used effectively? And can you tell me exactly when that goal 
will be met?
    Mr. Verdery. Well, the watch-listing effort is being led by 
the Terrorist Screening Center established by the President 
last year. The terror screening database is what is accessed by 
our frontline people, whether it is the TSA screener or an 
airline in terms of enforcing the "no-fly" list. So essentially 
we do have a common set of watch-lists that are now used, 
depending on the program.
    So the problem we have, and the reason you see these 
stories in the paper of people being flagged inappropriately, 
and the like, is not so much a problem with the list, it is a 
problem with the implementation of the list. Right now, it is 
being run by each of 77 different airlines differently. 
Essentially, your person that is checking you in is essentially 
acting as the watch-list enforcement person.
    We recognize that is not a tenable solution. That is why we 
have proposed a Secure Flight program to bring that 
responsibility within the government's sphere, within the TSA. 
But to do that, we have to get information from the passenger, 
via the airlines, in time to make that determination.
    So we have issued an order to compel data for testing of 
the system. That will be followed on by an order compelling 
data to make the system go live, so that we can handle this and 
leave airlines with the responsibility of trying to enforce 
these lists. It will be based on the Terrorist Screening 
Center's coordinated watch-list.
    Mr. Langevin. Can you give a time frame? Can you assure the 
public out there that we are not going to see these kinds of 
stories in the paper where we have got different lists that 
don't pick up accurately the people that should not be flying?
    Mr. Verdery. Secure Flight, I believe, is due to become 
operational in the spring, post-testing; that is when you will 
see the transition from the airline-based system to the 
government-based system.
    Will it be 100 percent? No. Because there are so many air 
travelers, there will be false hits. If we have somebody on our 
watch-list whose name is Bill Jones, there will be other people 
named Bill Jones who are flying, and we have to resolve those 
types of potential hits.
    I am always amazed at how many similar names there are, 
when they sound like a common name; but you put the entire 
American people and our international travelers out there 
flying, you are going to have those types of hits that have to 
be resolved. That is why we are working on Secure Flight.
    Mr. Camp. Thank you.
    The ranking member of the full committee, Mr. Turner, is 
recognized, if he would like to inquire.
    Mr. Turner. Thank you, Mr. Chairman.
    I think the first thing I would like to talk about is this 
problem we have on the border with the catch-and-release 
practice that is ongoing. Do we have a figure available, 
Secretary Verdery, that would tell us what it would cost us to 
end that practice?
    Mr. Verdery. A figure on how much it would cost to detain 
every person who is apprehended until they are deported?
    Mr. Turner. Yes.
    Mr. Verdery. I do not have that in front of me. It would be 
quite large.
    Mr. Turner. Has there been any consideration of some 
temporary detention facilities that would enable us to halt 
that practice?
    Mr. Verdery. Well, there are temporary facilities used on 
occasion. That is what we have done in Arizona where we have 
gone in and enhanced the resources.
    We recognize there has to always be a balance of the 
prosecutorial resources, the detention resources, the removal 
resources. And if you end up with an imbalance, you essentially 
haven't done any good, because you can't get people through the 
system appropriately.
    So there has to be essentially a continuum. So, in that 
case, we have put more temporary space in Arizona.
    Mr. Turner. I am told by some of the Border Patrol people 
that I visit with that the catch-and-release practice fairly 
quickly has become well known among those who are engaged in 
human smuggling. And so we are likely to have seen an increase 
in efforts to come across our unprotected borders as a result 
of the fact that it has become known that if you are from a 
place other than Mexico, you have about a 50 percent chance of 
being released on your own personal bond if you come into our 
country.
    And I would suspect that we could at least make some impact 
upon the movement of illegal immigrants from places other than 
Mexico if we had some effort--made some effort to try to stop 
that practice.
    Mr. Verdery. Well, regarding the announcement that we had 
recently of the new use of expedited removal, it points out the 
need for that. It essentially is going to say, if you are from 
a country other than Mexico and picked up between a port of 
entry and you do not have an asylum claim, you are going to be 
held, whether it is a couple of days, a short period of time. 
You are going to be flown back, you are not going to be put 
into the system taking up a bed for months, even years. We can 
move people through more quickly.
    Again, I have our detention numbers: 108,000 in 2001, 
113,000 in 2002, 145,000 in 2003. We had 130,000 in 2004 
through June, so I think we are on track to have quite a bit of 
increase from last year. But, again, there is no shortage of 
people in this regard.
    Mr. Turner. The Border Patrol people that I visit with say 
that they have received no instruction from the Department 
regarding how this new expedited deportation process is going 
to work, no indication of what kind of training the Border 
Patrol agents will be receiving, no indication of when this is 
going to be implemented.
    We have a program here that you have announced, but there 
doesn't seem to be much understanding among the rank and file 
about how it is going to work or where you are getting the 
money to pay for it. Could you help enlighten us on that?
    Mr. Verdery. Well, it is operational in two sectors, in 
Tucson in Arizona and Laredo in Texas. So if you are not a 
Border Patrol agent in those two sectors, then you probably 
wouldn't have been trained, because it is not being applied. In 
these sectors, training has been completed. I have to get back 
to you on exactly how many people, but the training has been 
provided.
    There was a month lag time between the announcement and 
when it became operational, so they can get their proper 
training, to make sure we are abiding by our asylum 
requirements under international law.
    In terms of the funding, this is a money saver in the long 
haul. It is going to move more people through, and will be a 
deterrent effect against the migrant flow that you mentioned.
    And if I might just mention one other thing while I have 
the floor, a very important announcement from last week is that 
we have now integrated at the Border Patrol stations the IDENT 
and IAFIS fingerprint systems, which were formerly separate 
systems developed by the Justice Department. We have integrated 
work stations available at all Border Patrol stations so that 
if Border Patrol picks somebody up, they can not only check it 
in IDENT, which has information about prior illegal crossings 
and immigration information, but also against IAFIS, which has 
all of the criminal database from FBI and other sources.
    So we will have an end to that situation where people were 
picked up for a crime in one State, and then Border Patrol 
didn't know about it. We have already had a number of successes 
of violent criminals being found. Of course, that means those 
are the types of people we are going to detain. They are not 
going to be part of a catch-and-release policy, so to speak, 
but will be the priority people that will take up those beds.
    Mr. Turner. Do you have the capability to access the FBI 
database to know who they may have on their database when 
people come to Border Patrol stations?
    Mr. Verdery. That is exactly what I was just talking about; 
the IAFIS system is what FBI operates. So, yes, if Border 
Patrol picks somebody up, they are now run against IAFIS to see 
if there is a prior criminal record. we had promised that was 
going to be deployed in 70 percent of the Border Patrol 
stations by the end of this year, and we will have beaten that 
by going to 100 percent as of last week.
    Mr. Turner. Do you feed information back to the FBI 
regarding people that you picked up? do you feed records into 
the same database that you receive information from?
    Mr. Verdery. They have access to IDENT through the US-VISIT 
program. And we have actually just announced an enhanced access 
by FBI to do searching through IDENT, whether it is the Border 
Patrol information you mentioned, or the entry-exit information 
through US-VISIT. They do have access to that. We are enhancing 
that.
    Mr. Camp. Thank you. The gentleman's time has expired.
    We have another panelist that we would like to hear from.
    I want to thank both General Hughes and Assistant Secretary 
Verdery for being here this afternoon. And this would conclude 
your testimony before this subcommittee today. Thanks again for 
being here.
    Mr. Camp. The next panel will include Professor Wein. I 
want to thank Professor Wein for coming all of the way from 
California to testify at this hearing. Professor Wein can come 
and take a seat at the table. Thank you.
    We have your written testimony. If you could briefly 
summarize your statement in 5 minutes.

  STATEMENT OF PROFESSOR LAWRENCE M. WEIN, GRADUATE SCHOOL OF 
                 BUSINESS, STANFORD UNIVERSITY

    Mr. Wein. Good afternoon, Chairmen Camp and Gibbons, 
Ranking Member Turner and members of the House Select Committee 
on Homeland Security. I am honored to appear before you today 
to discuss a serious but repairable vulnerability in the 
biometric identification performance of the US-VISIT program.
    The implications of our findings are disturbing enough that 
last week I briefed members of the Homeland Security Committee, 
staff from the Office of the Vice President, and analysts at 
the General Accounting Office, and program managers at the US-
VISIT program.
    On the surface, the biometric identification of the US-
VISIT program appears to be highly effective. A NIST May 2004 
report estimates that the chances that a terrorist who is on 
the watch-list--when entering a port of entry, the chances that 
we catch them and have a watch-list hit is 96 percent, while 
maintaining a false positive rate, that is the probability that 
someone like you or me would nonetheless set off a watch-list 
hit, maintaining that probability at a mere 3 in 1,000.
    So what is the problem? Well, the devil is in the details. 
It turns out that the software systems also report and 
determine the quality of each image. And the software has a 
very difficult time in accurately matching images that have 
poor quality.
    And the premise of our study is that terrorist 
organizations, such as Al-Qa'ida, will exploit this 
vulnerability by choosing U.S.-bound terrorists who have 
inherently poor image quality, such as worn-out fingers or 
deliberately reduced image quality. Why is this?
    First, all of the information is public; it is on the NIST 
database; two, Al-Qa'ida has a large pool of terrorists from 
which to choose; and three, we know they are sophisticated 
enough. Indeed, given the intricacies of the planning of the 9/
11 attacks, I think our assumption is not only prudent but 
realistic.
    So using publicly available information from the NIST Web 
site, we developed and analyzed a new mathematical model that 
includes red-teaming. First, the U.S. Government chooses a 
biometric strategy, essentially the rules that decide how you 
determine if a watch-list hit happens. So they choose a 
strategy to maximize the chances of catching a terrorist, 
subject to maintaining moderate congestion at the ports of 
entry under current staffing levels.
    Then the terrorist tries to defeat this system by choosing 
his or her own image quality to minimize his or her chances of 
getting caught. And the results are sobering. The currently 
implemented strategy has only a 53 percent chance of detecting 
a terrorist at U.S. points of entry, compared to the overall 
level reported in the NIST report of 96 percent.
    Again, the deterioration, down to a coin flip here, is due 
to the fact that the terrorist is allowed to exploit the 
vulnerability in the biometric system.
    We have two main results. The first result is that instead 
of using a one-size-fits-all decision rule for who gets a 
watch-list hit, we derived different rules for different image 
qualities. And by doing so, we were able to increase the 
detection probability from 53 percent to 73 percent. So from 
essentially a coin flip, up to almost three-quarters. This is a 
minor software fix.
    Over the next few days, I will give a detailed mathematical 
paper to people at NIST, to people at the US-VISIT office, and 
this should be implemented as soon as possible.
    Now, even if we increased inspector staffing levels 
significantly, we can't really get over the three-quarters 
level, over the 75 percent chance. But now here is our second 
result. If we take 10 fingers at visa enrollment, and then have 
the opportunity at ports of entry to use more than two fingers 
for the people with the poor image quality, then we can 
increase our detection probability all of the way up to 95 
percent without increasing the false positive rate.
    Although switching from a two-fingerprint to a 10-
fingerprint system may be costly and certainly would be 
disruptive, there is simply no excuse for a $10 billion program 
to not achieve a 95 percent performance level, particularly 
given the potentially grave consequences of allowing a 
detection--allowing someone, a terrorist, to cross the border.
    If slower two-finger matching algorithms cannot in the 
immediate future approach this 95 percent detection probability 
for poor quality images, then the US-VISIT program should be 
reconfigured with 10-fingerprint scanners as soon as possible.
    Thank you. And I look forward to taking your questions.
    [The statement of Mr. Wein follows:]

                 Prepared Statement of Lawrence M. Wein

    Good afternoon, Chairman Cox, Ranking Member Turner, and the 
Members of the House Select Committee on Homeland Security. I am 
honored to appear before you today.
    I am the Paul E. Holden Professor of Management Science at the 
Graduate School of Business, Stanford University. I teach operations 
management to MBA students, and perform research in the areas of 
operations management, medicine and biology. At their essence, many 
homeland security problems are service operations problems: Just as 
McDonalds needs to deliver hamburgers in a rapid and defect-free 
manner, the US Government needs to quickly deliver vaccines and 
antibiotics after an attack and to safely prevent nuclear weapons and 
terrorists crossing our borders.
    Since September 11, 2001, I have used mathematics to analyze a 
variety of homeland security problems in bioterrorism (effective 
responses to terrorist attacks using smallpox, anthrax or botulinum 
toxin) and in border security (evaluating ways to detect nuclear 
weapons coming through ports). These analyses have led to policy 
recommendations, several of which the U.S. Government has adopted.
    Today, I am here to discuss the results of a study I conducted at 
Stanford University with Ph.D. student Manas Baveja that examined the 
ability of the US-VISIT program to accurately match the fingerprints of 
visitors at ports of entry against a watchlist that contains the stored 
fingerprint images of suspected terrorists. The implications of our 
findings are disturbing, so much so that last week I briefed members of 
the Homeland Security Council, staff members from the Office of the 
Vice President, analysts from the Government Accounting Office (GAO) 
and officials from the Department of Homeland Security.
    On the surface, biometric identification of the US-VISIT Program 
appears to be highly effective. A May 2004 NIST study, entitled 
``Matching Performance for the US-VISIT IDENT System Using Flat 
Fingerprints,'' predicted that the likelihood that US-VISIT would flag 
a terrorist whose fingerprints are stored on the biometric watchlist is 
96%, while simultaneously limiting the false positive probability, 
i.e., the likelihood that a visitor not on the watchlist would 
nonetheless generate a watchlist hit, to 3 in 1,000.
    So what's the problem? It turns out that the devil is in the 
details: The biometric software also computes the quality of each 
fingerprint image, and it is very difficult to accurately match poor-
quality images. Our study stems from the belief that terrorist 
organizations can exploit this observation by choosing US-bound 
terrorists that have either poor image quality (e.g., worn out fingers) 
or deliberately reduced image quality (e.g., surgery, chemicals, 
sandpaper). The relevant data is publicly available on the NIST web 
site, and we know Al-Qa'ida has the sophistication to understand this 
and has a large pool of potential terrorists to draw from.
    Using publicly available biometric data from NIST, we developed and 
analyzed a novel mathematical model that allows red-teaming: First, the 
government develops a biometric strategy to maximize terrorist 
detection for a given inspector staffing level, and then the visiting 
terrorist attempts to defeat the biometric system by choosing the image 
quality to minimize his chances of getting caught.
    The results are sobering: the currently implemented strategy has 
only a 53% chance of detecting a terrorist during US entry, compared to 
the overall value of 96% mentioned earlier. The detection probability 
is reduced to essentially a coin-flip because the terrorist is allowed 
to exploit the vulnerability in the biometric system.
    The good news is that our study pointed to possible solutions that 
our nation can implement. Rather than using the current one-size-fits-
all rule for generating watchlist hits, we derived different rules for 
different levels of image quality and improved the likelihood of 
detecting a terrorist from 53% to 73% without increasing the false 
positive rate.
    Unfortunately, our study predicts that increasing staffing levels 
of US Custom and Border Protection inspectors would offer only modest 
benefits, and could increase the 73% detection by only an additional 
5%. Given that US-VISIT runs millions of watchlist checks each year, 
this is an unacceptable security risk.
    Fortunately, our nation has a second solution it can rely upon. 
Instead of using a software system that scans two index fingers, we 
found that that allowing additional fingers to be tested from people 
with worse image qualities achieves a 95% detection probability, 
without increasing the primary plus secondary inspection workload 
associated with legal visitors.
    Finally, the government's investment in biometrics at ports of 
entry for detecting terrorists should be assessed in light of the 
detection probability required to deter terrorists from crossing at an 
official port of entry. The deterrence value of a fingerprint system 
depends on the terrorists' perceived likelihood of successfully 
entering the US between the ports of entry, e.g., along the US-Mexico 
border. While this detection rate has been estimated to be 
approximately 25% in a recent Time Magazine article, it appears that 
Al-Qa'ida prefers to enter the US at ports of entry.
    To summarize, there is a serious but reparable vulnerability in the 
biometric identification system of the US-VISIT Program, which is our 
last line of defense for keeping terrorists off U.S. soil. A minor 
software modification that allows the watchlist rule to vary with image 
quality can increase detection from 53% to 73%. I have provided details 
to officials who oversee the US-VISIT operations, and this should be 
implemented as soon as possible. The use of more than 2 fingers for 
low-quality images can achieve a detection probability of 95%. Although 
switching from a 2-fingerprint to a 10-fingerprint system may be costly 
and disruptive, there is no excuse for a 10-billion dollar program to 
settle for performance below this level. Indeed, our results are not 
inconsistent with the warning in the November, 2002 NIST report that a 
2-finger search was not sufficient for identification from a large 
watchlist. If slower 2-finger matching algorithms cannot approach 95% 
detection for poor-quality images, then the US-VISIT Program should be 
reconfigured with 10-fingerprint scanners as soon as possible.
    Our recommendations hinge on the assumption that terrorist 
organizations as sophisticated as Al-Qa'ida will eventually attempt to 
defeat the US-VISIT system by employing terrorists with poor-quality 
fingerprints. In light of the meticulous planning that went into the 9/
11 attacks, I believe this assumption is not only prudent, but 
realistic.
    Thank you, and I look forward to responding to your questions.

    Mr. Camp. Thank you very much. We just had, last week, a 
demonstration of some of the technology available in 
biometrics, and they didn't have exactly the same rates.
    I think the way you look at your data is a little different 
than theirs. But I understand your concern is that people 
intentionally deface their fingerprints and then--on a two-
finger scan system, that is not that hard to do, and they will 
circumvent.
    Now, in theory, if there is a bad read or an inability to 
read a fingerprint, there should be diversion to secondary 
screening at that point under the system. But my question is 
more about alternative biometrics.
    I have seen some demonstrations on facial scans. I am not 
sure that 10 fingers is really the best direction that we 
should go. It is almost landline versus wireless in terms of 
telecommunications. But it seems to me that this facial reading 
has a much higher rate of accuracy, which is in sort of the 
development stage.
    As you referred to, there are other biometrics, such as eye 
scans. Can you comment on those and give us some information on 
what you--
    Mr. Wein. Yes. The operative word you bring up is 
``development.'' These are in the development phases. I have 
worked on port security also with Stephen Flynn on some of 
these issues. It is a hard problem, because you have all of 
this technology that may provide a silver bullet, but it may 
take 5 or 6 years. But the terrorists aren't going to wait 5 or 
6 years to sneak a nuclear weapon into the country.
    NIST has done quite a bit of analysis on face biometrics, 
and they claim for large-scale identification of the size we 
are talking about here, it simply is not a feasible option. The 
iris and eyes--I have read up on all of these, and some of them 
sound promising; they may be ready in several years, they are 
not ready for prime time. Either they have too many false 
positives, people don't like to have various parts of their eye 
scanned and so forth. So, whereas, it may not be viewed as 
wireless technology, taking 10 fingers clearly will help a lot.
    Indeed, my recommendations are not inconsistent with what 
is reported from the NIST way back to November of 2002, that 
two-finger methodology is simply not adequate to do large-scale 
identification.
    Mr. Camp. Well, it seems if you could deface--
    Mr. Dicks. Would you yield just for a second?
    I think you were here. We had a meeting here, and they came 
up and told us that two fingers gave us 95 percent reliability.
    And you are saying that is not true, because there are 
quality problems associated with two fingers or any fingers, 
and that is why you should do 10, in order to get the higher 
reliability; is that not correct?
    Mr. Wein. The 95 percent is averaged over the entire 
population. The overwhelming amount of the average population, 
like you and me, we are not attempting to defeat the system.
    Part of the reason we are putting this program in place is 
to stop terrorists from coming into the country. It would be 
naive to think that these people are not trying to defeat the 
system.
    An insignificant fraction of people have naturally worn-out 
fingers, have naturally poor image quality. It is on the order 
of 5 to 10 percent.
    Mr. Camp. If I could reclaim my time, my point was, we did 
have a higher number. I think he is looking at it a little 
differently.
    But, second, if you can deface two fingers, you can deface 
10, and we ought to be looking at other means--my point is 
that.
    US-VISIT is just one of the items that we have to try to 
disrupt terrorist travel. We also have, you know, this other 
biometric capability. We have the watch-lists that we just had 
an extensive discussion on. There are inspectorinterviews. 
There is secondary screening. There is actual real intelligence 
that has helped disrupt this.
    So this is just one of the many items that we are looking 
at in terms of how we disrupt terrorist travel.
    Mr. Wein. I think it is important on many of these homeland 
security problems to move forward in two ways. One is, 
operationally we need to get things in place that are 
effective, and get them in there quickly, because Al-Qa'ida and 
other terrorist organizations are not going to wait.
    And second, we need to keep an eye towards the future of 
trying to find better technologies, be they biosensors, be they 
radiation detectors, be they biometrics, to help us on the 5-
to-10-year time line.
    Mr. Camp. The last point is that the additional 
fingerprints, from what we understand now, would take a great 
deal of additional time. To get in this 45-second or 50-second 
window at the booth is very important in terms of not 
disrupting travel for those citizens who are not trying to do 
us harm. So it is a balance there.
    Mr. Wein. My analysis is conservative. I am assuming each 
finger takes 5 seconds. So if you did 10 fingers, it is going 
to take you 50 seconds rather than 10 seconds that it currently 
does.
    Mr. Camp. Well, it takes longer than 10 seconds with two 
fingers, because of the entire process. But I understand your 
point.
    Mr. Wein. Right.
    Mr. Camp. We are not there yet in terms of speed.
    Mr. Wein. Right. But, MITRETEK and NIST and have proposed 
the four-finger slap. And, indeed, they think they can do this 
quite quickly, more like doing it in 10 seconds rather than in 
50 seconds. And, indeed, I have been told ergonomically that 
you can actually get better prints from the slap, because your 
fingers are more stable.
    Mr. Camp. Thank you. My time has expired.
    And I would at this time recognize the ranking member of 
the Border and Infrastructure Subcommittee, Ms. Sanchez, to 
inquire.
    Ms. Sanchez. Thank you, Mr. Chairman.
    And thank you, Professor. I am trying to understand what 
you were telling us.
    Are you saying that over a large range of people, an end 
sample being almost infinite, or 200 million, or whatever we 
have in the United States, that if we look at all of our 
fingerprints, we have a 95 percent good match, but if we are 
taking a look at a much smaller number, these people who we 
think are terrorists or would happen to be on a list, that 
because we think that they might deform their fingers in some 
way or something, that the percentage would therefore be lower?
    I am trying to understand how you get down to the 50 
percent.
    Mr. Wein. Right. The 95 percent that they give us is over 
everyone. But it turns out, on the order of 5 percent, let's 
just say, people have poor image quality.
    For the most part, this is naturally poor image quality, 
people who have worn-out fingers either genetically, or they 
have scrubbed floors all of their life or whatever. Al-Qa'ida 
has a large pool of terrorists to choose from to come into this 
country. There are pictures on the NIST Web site of what a low-
image-quality finger looked like.
    Ms. Sanchez. So they can select those people who they think 
are low-image people to put into the pool of people we would be 
concerned about?
    Mr. Wein. Right. So they don't even have to deliberately 
deface their fingers with sandpaper or chemicals or surgery or 
whatnot. They can simply choose people for their U.S.-bound 
missions who have poor image quality.
    Ms. Sanchez. You said, if we took these 10 fingers at the 
visa processing--when we were processing the visa, that it 
would take about a minute a person?
    Mr. Wein. Well, we would take the 10 fingers at enrollment, 
so we have the 10 fingers. We wouldn't need to use all 10 
fingers, except for the people with bad image quality. We would 
have that information when they show up at port of entry, Oh, 
this is a person who has bad image quality. We are going to use 
8 or 10 fingers here at the port of entry.
    What you can do at port of entry is take 10 fingers from 
everyone, so that everything else can be blind to both the 
operator and to the visitor of how many fingers you use to 
actually try to figure out if they are on the watch-list.
    Ms. Sanchez. OK. I just wanted that clear for my own 
information. Thank you, Professor.
    I will yield back my time.
    Mr. Camp. Thank you.
    Mr. Gibbons may inquire.
    Mr. Gibbons. Thank you, Mr. Chairman.
    Mr. Wein, thank you for being here. Appreciate your 
testimony. As you know, the State of Nevada for many years has 
had biometrics within their gaming industry that uses massive, 
large-scale recognition of large crowds to be able to single 
out a selected individual based on facial recognition features. 
And I am sure that their system, while not perfect, could be an 
ancillary or additional check for a person coming through 
either the screening at a port or, at the same time--
    But let me ask a completely different question that goes to 
this quality image that we talked about. How much of the 
quality is outside of the control of the Department of Homeland 
Security? I mean, you talked about the characteristics of the 
fingerprint,but is there a quality issue with the machine, a 
quality issue with the training, a quality issue with the 
software?
    How much of it is outside of their control, and therefore, 
what portion could be corrected by going back and doing, like 
you said, software versus the quality image of having a bad 
series of fingerprints?
    Mr. Wein. That is a very good question. We asked ourselves 
that in the process of this research.
    Unfortunately, the available data from NIST doesn't exactly 
answer that question. But we do have an analysis that is quite 
technical--I won't go into it now--but it suggests that the 
great majority of this is inherent in the fingers and is not 
operational noise due to sweat and dirt and finger pressure and 
things like that.
    I do think it is important to train the operators to keep 
the operational noise or environmental noise as small as 
possible by, you know, cleaning the fingers and cleaning the 
surfaces where they are putting the fingers and making sure 
they are holding their fingers steady and things like that.
    In talking with the US-VISIT people last week, it sounds as 
if good operations processes are in place. So I think US-VISIT 
is doing all they can on the image quality problem--I mean on--
in reducing, on getting rid of the operational noise. And most 
of it is simply inherent in the people; that is why we really 
need to make these fixes I recommended.
    Mr. Gibbons. OK. Let me go back to the issue of other 
biometrics, particularly facial recognition. Is facial 
recognition enhanceable by increasing the number of points on a 
face from today's standard--I guess what is it, 14 or something 
like that?
    What if the facial recognition capability were 200 points 
on a given picture of a given face? Is the likelihood or 
accuracy of that biometric far greater?
    Mr. Wein. I can just tell you that my analysis, and what I 
will distribute in the next few days to the government, cites a 
paper from NIST that says for large-scale identifications, that 
is, one-to-many matching for a large watch-list, facial 
biometrics is inadequate to even help on the problem. It just 
isn't feasible at this point in time.
    Mr. Gibbons. Do you know why they say that?
    Mr. Wein. The data is there. I would have to go back and 
look at the paper to give the reasons. They mostly do a 
statistical analysis, look at this, and conclude that the 
facial recognition cannot help. It certainly is great for 
verification one-on-one, are you who you say you are, but when 
you are comparing it to all of the millions of people on a 
watch-list, it is simply--
    Mr. Gibbons. Is it because of the computer technology where 
we have to sort through a large, massive database in order to 
have sufficient evidence, or time or recognition features that 
would allow for a more accurate determination of who the 
individual is with something like that?
    Mr. Wein. As I understand it from reading, there is a lot 
more noise involved in taking someone's picture, the lighting, 
the shadows, the angle, things like that, than there is on a 
finger. That is why there are many more false positives.
    And when you start thinking about a false positive, when 
you are comparing against hundreds of millions of people, you 
are getting back to the John Doe that the assistant secretary 
was talking about. There are just too many John Doe's on the 
watch-list.
    Mr. Gibbons. It just seems to me that if we can control the 
quality of the fingerprint, we can control the quality of the 
photograph.
    Mr. Camp. Would the gentleman yield?
    With the new facial recognition, the lighting is not as 
important as in past times. So there is some new technology 
there that really gets around that problem.
    Mr. Gibbons. Mr. Chairman, my time is up.
    Mr. Wein. NIST has decided--has said that facial 
recognition has gotten much better in the last few years, but 
it still cannot help on the problem of large-scale 
identification. Maybe in 5 years, hopefully, but not now.
    Mr. Camp. The gentleman from Texas, the ranking member of 
the full committee may inquire.
    Mr. Turner. Thank you, Mr. Chairman.
    Professor, the NIST scientists that our staff has talked to 
say that, if anything, your numbers are very conservative, that 
the quality of the fingerprint images in the terrorist watch-
list is even worse than what you are talking about.
    So it seems to me that you are telling us something that is 
very, very troublesome. And I don't know how much worse they 
think it can be than your 50 or 52 percent number.
    Did they give you any indication? Have you talked to them 
about what they think about this?
    Mr. Wein. I only talked to one person from NIST who was 
present when I briefed the program managers from US-VISIT last 
week.
    It is true that NIST has said over and over again in their 
papers, which are publicly available on the Web site, that the 
test databases they use, in some sense are much cleaner than 
the true operational databases that we are using to try to 
catch terrorists. And, indeed, there is going to be lower image 
quality in general on the real databases than there is on these 
test databases.
    Obviously, at this point in time, they are not sharing 
those numbers with me, so I can't say what the magnitude of 
that is. But I would agree with their assessment that my 
numbers are conservative and are painting, if anything, an 
optimistic view of the current operation.
    Mr. Turner. I mean, this is quite disturbing. We are 
talking about a program that was announced and estimated to 
potentially cost the taxpayers $10 billion to put in place. And 
you are saying, even by your numbers, the chances of catching a 
determined terrorist may be only 52 percent.
    Mr. Wein. Yes. And, you know, one good thing is that a 
chunk of that, you can get maybe from 50 to, 70 or in real 
terms, maybe 40 to 60 or whatever by just a few lines of 
software code. So that is part of the silver lining here.
    But, yes, I do want to just reiterate that a program this 
expensive and this important with the implications of allowing 
terrorists into this country, given that there is an existing 
fix that we can do that doesn't involve--well, it does involve 
some retrofit--I realize there are space constraints at the 
ports of entry. But this seems like a no-brainer, that we have 
the 10 fingers available, we can get it, and let's do it.
    Mr. Turner. And so that fix, moving to 10 fingers and 
changing the software, would move it up to where we might have 
a 75 percent chance of catching a terrorist that was 
determined--
    Mr. Wein. Yeah. I think that is conservative. I would think 
it would be higher than that.
    But, again, one would really have to almost, you know, look 
at the true database, and probably people with security 
clearances--and I don't know if it is NIST or people at the US-
VISIT--would have to run the final numbers. But I think we 
would get in the 90's.
    Mr. Turner. You know, we have had a large number of Members 
of Congress raise this question about why US-VISIT is based on 
a two-fingerprint system, rather than a 10. Some have suggested 
that even going to four would be a substantial improvement.
    Do you understand and could you shed any light on why it is 
that the Department chose to stay with its two-fingerprint 
system, which apparently is much less effective in 
accomplishing our objective?
    Mr. Wein. To be honest, the last few years I have focused 
on other catastrophic terrorist events, namely, smallpox, 
anthrax, botulinum toxin and port security. So I have only been 
working on this problem for the last few months. I was not 
engaged in this problem at the time these decisions were going 
on. So I would guess other people in this room would have 
better answers to that.
    I would--I think I will stop there.
    Mr. Turner. All right. My time may be up.
    Mr. Camp. Thank you.
    Mr. Dicks may inquire.
    Mr. Dicks. Thank you very much.
    We have pointed this out to them, going all the way back to 
the time when they were selecting contractors. And I don't know 
why this--for some reason, they went for two, because it was 
easier and faster, I think.
    This is something we pointed out to them; and I think they 
misled the committee, Mr. Chairman. I think the witnesses that 
were here misled our committee by not pointing out this problem 
with the unrecognizable or poorly done fingerprints.
    I agree with you, I think terrorists are going to pick that 
up and understand that. So, I think we have to go to a 10-
fingerprint system.
    I have checked with some of the best experts in the world 
on this, and they all agree. In fact, NIST recommends a 10-slap 
fingerprint image stored in type 14.
    You know, I think Congress--I think we have put in the 
reports recommending to them that they do this, that they 
compete it and have a competitive system. They didn't do it. I 
think it has something to do with the contractor, frankly.
    But having said that, we have only got 3 minutes and 40 
seconds. Tell us a little bit about these other issues. We know 
about this one. We know this is a mistake.
    Tell us--you mentioned port security. Give us a couple of 
seconds on that.
    Mr. Wein. I have worked on the port security problem with 
Steve Flynn. I think, A, that is a much more important problem 
in the sense--it is one thing to let a terrorist into the 
country; it is another to let highly enriched uranium or a 
nuclear weapon into the country.
    B, to their credit, I think it is a lot more difficult 
problem, the technology isn't all there.
    C, I think they have been dropping the ball on this 
problem, and Steve Flynn and I have briefed Commissioner 
Bonner's entire staff. They have put all of their eggs in the 
ATS basket, and we are currently testing 5 percent of the 
containers; the other ones can waltz through the system.
    It is easy for a terrorist to bypass one layer of security, 
particularly given the manifest rules that are in place. And we 
really need to do-100 percent passive radiation testing, and we 
need to do a fair amount of active testing in the sense of an 
x-ray or gamma ray imaging to look for shielding.
    And we also need to spend money now to to find a way to 
detect highly enriched uranium, which is very difficult to 
catch with existing equipment.
    Mr. Dicks. You mentioned a few others, anthrax and some 
other ones.
    Mr. Wein. For anthrax, I have an op-ed in the Washington 
Post, a paper in the Proceedings of the National Academy of 
Sciences. As a result of that, your area here, Washington, 
D.C., if a big attack occurs, the postal workers will help 
distribute antibiotics throughout the area. Hopefully, this 
program will go nationwide.
    That was a direct result of our op-ed. I am currently 
funded by HHS to help them decide how, if and when to deploy 
the next-generation anthrax vaccine. My work on smallpox was 
instrumental in affecting the Bush administration's post-attack 
strategy for vaccination.
    Mr. Dicks. We still don't have enough people vaccinated, 
though, do we? The caregivers, isn't that still a problem?
    Mr. Wein. Yes. The implementation of the front-line worker 
vaccination had a number of problems with it. And, you know--
    Mr. Dicks. They still haven't been corrected, have they? 
They still don't have enough people vaccinated, do they?
    Mr. Wein. I think this--I think it is dead in the water at 
this point, until we have another terrorist attack, to be 
honest.
    Mr. Dicks. In other words, to get more people vaccinated, 
the caregivers, we are going have to have a catastrophic event 
in order to convince everybody to do that? Is that what you are 
saying?
    Mr. Wein. It may not have to be catastrophic, but I think 
we need another event.
    Mr. Dicks. Because nobody is paying attention? Is that what 
you are saying?
    Mr. Wein. No, it is not because no one is paying attention. 
It is because--it is several reasons. It is the risk 
communication, about what is the risk of--if I give the vaccine 
to the frontline worker, what are the chances of them dying or 
having a serious incident?
    It is the perception of, is there really smallpox out 
there--the whole weapons of mass destruction in Iraq, issue. 
And it is a complicated problem.
    Mr. Dicks. Well, again, I am troubled by this, Mr. 
Chairman, that we have had a series of these hearings. I 
commend the majority for having these hearings, but I think it 
is pointed out again and again and again, the deficiencies in 
this homeland security program.
    And I don't know how we can, in the Congress, get people's 
attention in the executive branch that we have got to do more 
on these issues from port security, anthrax, the fingerprints 
for the US-VISIT program. I mean, there are all of these 
problem areas that haven't been addressed.
    It is one of the things that has shocked me, frankly, in my 
service here in this Congress for 28 years. I have never seen 
something of this importance treated this way by the executive 
branch.
    I commend the committee for having the hearings, because at 
least we have a chance to present the information to the 
American people. But we can't seem to get anybody to do 
anything about it.
    Mr. Wein, I appreciate your going around and meeting with 
all of the officials. I hope that they will respond to your 
very lucid presentation of this gap in the fingerprinting 
program. I commend you for your good efforts, and please keep 
them up.
    Mr. Camp. Thank you.
    That concludes our questioning. There being no further 
business, again I want to thank the subcommittee members and 
our witnesses for being here today.
    The Chair notes that some members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 10 days--
    Mr. Turner. Mr. Chairman.
    Mr. Camp. --for Members to submit written questions to 
these witnesses and to place their responses in the record.
    [The information follows:]

                             FOR THE RECORD

  Please note: Assistant Secretaries Verdery and Hughes have departed 
DHS. Deputy Assistant Secretary for Policy and Planning Elaine Dezenski 
 submits on behalf of A/S Verdery, Matthew Broderick, of the Homeland 
      Security Operations Center, submits on behalf of A/S Hughes.

         Questions for the Record from Chairman Christopher Cox

    1. Although the interagency charter for the Human Smuggling and 
Trafficking Center between the Departments of Homeland Security, State 
and Justice was just signed this past July, the 9/11 Commission's 
report itself referred to this center as having produced, 
``disproportionately useful results.'' The Commission staff believes 
that the collective interagency effort of the Center holds great 
promise to become one of the most important resources to combat 
terrorism and terrorist travel.
    Q02133: Please describe for the Committee how the Department is 
currently working with the Human Smuggling and Trafficking Center and 
more importantly, what formal plans does the Department have and what 
steps has it taken to ensure that DHS does its part in ensuring this 
center reaches its full potential?
    Answer: The Department of Homeland Security (DHS) supports the 
Human Smuggling and Trafficking Center (HSTC) in a variety of ways to 
enhance border security efforts:
        <bullet> DHS has signed an interconnectivity agreement that 
        provides HSTC personnel with access to critical DHS data 
        systems to facilitate efficient information sharing;
        <bullet> DHS procured necessary equipment to provide the HSTC 
        with secure communications capabilities and provides the 
        necessary systems support;
        <bullet> Immigration and Customs Enforcement has assigned full-
        time staff to the HSTC that serve as subject matter experts in 
        the areas of human trafficking, terrorist mobility and human 
        smuggling. DHS is also committed to providing full time 
        participation in the HSTC from other DHS components such as the 
        United States Coast Guard (USCG), Customs and Border Protection 
        (CBP), and Information Analysis.
        <bullet> DHS utilizes the HSTC to convene important interagency 
        coordination meetings, and to coordinate select initiatives. 
        DHS also utilizes the products produced by the HSTC to inform 
        the policymaking decision process.
    DHS' commitment to the HSTC is long-term. DHS holds three seats on 
the HSTC Steering Group; Acting Under Secretary Randy Beardsworth is 
the DHS co-chair representative for the Steering Group, Elaine 
Dezenski, Acting Assistant Secretary BTS Policy and Planning, and 
Michael Garcia, Assistant Secretary of Immigration and Customs 
Enforcement, serve as members on the Steering Group for the HSTC. This 
group oversees and provides policy and administrative oversight of the 
HSTC, and to make sure that it is operating in a manner consistent with 
Constitutional liberties and national security requirements. Through 
this interagency Steering Group, DHS works with our partner agencies to 
ensure that the HSTC is fully supported by DHS, including personnel, 
fiscal resources, and information.

    (B) Q02134: What specific budget authority and personnel resources 
does DHS plan to provide the HSTC?
    Answer: In effecting the HSTC, DHS is more fully utilizing existing 
governmental facilities that have been associated with monitoring the 
flow of illegal persons, cargo and conveyances into the country. DHS is 
currently reviewing the resource requirements for the HSTC and 
anticipates that it will finalize both the operations funding and 
personnel requirements in the very near future. Currently there are 6 
ICE agents/analysts staffing the Center full time and the USCG has 3 
individuals on a part-time basis.
    Additionally, the Director of the HSTC is a Department of Homeland 
Security (DHS) Immigrations and Customs Enforcement (ICE) Supervisory 
Special Agent.

    (C) Q02135: How is the DHS Office of Information Analysis sharing 
information with the HSTC? And how is DHS as a whole going to share 
information with the Center?
    Answer: Department of Homeland Security (DHS) Office of Information 
Analysis (IA) analysts have daily or near daily interaction with the 
management and staff members of the HSTC during which they discuss 
cables of mutual interest and collaborate on tasking and production. 
Cable traffic flagged by IA personnel is sent to the HSTC via SIPRNET 
(Secret Internet Protocol Router Network; the DoD-operated SECRET level 
network), as are all products classified SECRET and below that contain 
references to alien smuggling and terrorist mobility. If there are 
documents at a higher classification, IA will share hard copies with 
properly cleared HSTC members, and/or encourage HSTC to obtain the 
documents by other means. Once the HSTC is equipped with JWICS (Joint 
Worldwide Intelligence Communications System; the DoD-run TOP SECRET/
Sensitive Compartmented Information system), all appropriate documents 
will be shared electronically. Information identified by HSTC staff is 
shared with IA in a similar fashion. Similar procedures are followed 
for information sharing between the HSTC and other enforcement and 
intelligence entities within DHS. HSTC personnel are able to access 
message traffic and finished production via connectivity to their 
parent organization systems and other online data repositories.
    2. My staff had several meetings with the 9/11 Commission staff 
responsible for writing the terrorist travel portion of its report. And 
although not specifically articulated in the 9/11 Commission Report, 
its staff has pointed out in discussions with this Committee's staff 
combating terrorist travel will require ``specialists'' who are located 
at all ports-of-entry and that these specialists must have the ability 
to contact the intelligence community directly to obtain up-to-the 
minute classified information that could be used to combat terrorist 
travel.

    Q02136: Please comment on this recommendation of Commission staff 
and indicate what concerns and roadblocks you see which might prevent 
this from occurring.
    Answer: CBP worked diligently after release of the 9/11 Report to 
examine their findings and recommendations and make use of the report 
within CBP. Some of those recommendations will be incorporated into CBP 
practices and enforcement posture. By example, CBP is devoting 
extensive resources to training to make frontline officers more 
cognizant of the threat posed by terrorists and their weapons. To 
further this field level training, CBP's Office of Intelligence has 
placed an intelligence analyst at the Terrorist Mobility Group at the 
Terrorist Threat Integration Center (TTIC) to be aware of the trends 
and techniques and assist CBP with knowledge of these trends and 
methods to identify and defeat them. \1\ We are participating in Joint 
Terrorism Task Force (JTTF) squads. We are nearly completing 
installation of a Special Compartmented Information Facility (SCIF) at 
the CBP National Targeting Center, with access to classified materials, 
to be able to support field enforcement--first and foremost, 
identification of terrorists and their weapons. Moreover, we work each 
day to apply whatever intelligence is derived from the Intelligence 
community into appropriate actions by field officers, in a manner 
consistent with the classification and sensitivity of the information. 
Our concerns would be more pedestrian--the length of time to obtain 
clearances for employees, which are needed to help work through the 
ever-growing volume of intelligence and classified material and the 
need for training employees to think and work as intelligence analysts 
do.
---------------------------------------------------------------------------
    \1\ On December 6, 2004, the NCTC undertook all responsibilities 
assigned to the TTIC.
---------------------------------------------------------------------------
    When CBP officer encounters a possible terrorist, they are required 
to contact the CBP National Targeting Center (NTC) and relay all the 
specifics of the individual for further review. In all cases where the 
NTC cannot discount the individual is a match to the terrorist, the 
Terrorist Screening Center (TSC) is contacted. The TSC has complete and 
full access to all of the derogatory information associated to the 
record and passes it back to the NTC when appropriate. The passing of 
information is only limited to the clearance level of the NTC officer 
and the security level of the communications into the NTC. The NTC, in 
turn, will relay enough information back to the port of entry (POE) for 
the front line officer to make appropriate decisions. The TSC will also 
contact the FBI Counter Terrorism Watch (CTW) with information on the 
encounter. The CTW acts as the operational arm for the TSC and will 
relay operational instructions to CBP. They can also dispatch the local 
Joint Terrorism Task Force (JTTF) and have the ability to pass 
classified information to the cleared JTTF members.
    There are two limitations to getting classified information to the 
POE. The first issue is the clearance level of CBP personnel in the 
field is rarely above the SECRET level and most derogatory information 
today is at the Top Secret and Code Word levels. The other issue is the 
lack of a secure communications path to the ports and how to get 
classified information to a non-SCIF environment. Two possible 
solutions are to make the NTC SCIF operational and/or to rely on the 
clearance levels of the JTTF teams. The JTTF approach is already in 
place and appears to be working.
    3. As you are already aware, ICE's Forensic Document Lab is the 
only Federal crime lab dedicated almost entirely to the forensic 
examination of documents and has been doing so since 1978-and 
specializes in the identification of fraudulent visas and passports. 
Besides the FDL's role as the leading resource on fraudulent passports 
and visas to other Federal agencies, including the FBI and Department 
of State, the FDL's Library houses the largest known repository of 
known genuine travel documents. I have two questions related to the 
FDL,

    (A) Q02137: Since the FDL is the leader in such documents, what 
concerns do you have that both the Department of State and the 
Department of Justice, both consumers of the expertise and resources 
available through the efforts of the FDL, may be planning to set up 
their own capabilities in the identification of fraudulent documents?
    Answer: At present, we are not aware of any initiatives by either 
the Department of State (DOS) or Justice to develop their own 
capabilities in the identification of fraudulent documents. Several 
years ago, however, the DOS expressed an interest in establishing such 
a capability. When the Forensic Document Lab (FDL) learned of this, FDL 
representatives initiated a meeting with DOS officials to express their 
concern over the potential duplication of effort and unnecessary 
expenditure of resources. The FDL reiterated its willingness to provide 
forensic and operational support to all DOS entities. Subsequently, the 
DOS decided that its plan represented duplication of effort, and rather 
to continue to utilize the FDL's unique resources and expertise.
    Central to the FDL's forensic and field operations support 
functions is its exemplar library, which presently contains more than 
120,000 known genuine travel and identity documents and other resource 
materials from every country of the world. The library, the largest 
known collection of its kind and continually growing, represents a 25-
year effort by FDL staff which would take enormous time and resources 
for another agency to replicate. A far more feasible and cost effective 
approach would be to dedicate additional resources to expand the FDL 
library and extend its availability to more federal, state, and local 
user agencies.

    Q02138: And do you think that instead of duplicating efforts in 
other Federal agencies that instead more resources should be dedicated 
to the FDL and it expanded in light of the new importance being placed 
upon the disrupting of terrorist travel?
    Answer: DHS agrees with the view of the 9/11 Commission Report that 
``targeting travel is at least as powerful a weapon against terrorists 
as targeting their money.'' DHS has devoted additional attention and 
resources to the analysis and disruption of terrorist travel. CBP has 
created the Fraudulent Document Analytical Unit (FDAU) to analyze the 
travel of suspected terrorists and the documents they use. CBP 
coordinates closely with ICE and the FDL so that the unparalleled 
experts at the FDL can forensically examine suspect documents, issue 
any necessary alerts, and modify the training in fraudulent document 
recognition that FDL offers accordingly. DHS believes that the FDL is 
the leading government entity in the identification of fraudulent 
travel documents and it would not be a prudent use of resources for 
other government agencies to seek to replicate the expertise that FDL 
already provides so well.

    (B) Even with the FDLs limited resources and current staff of only 
51, it impressively provides training to not only the agencies within 
DHS, (ICE, CBP, CIS, and the USCG), but also to other Federal agencies 
(State, Justice, IRS, SS Administration) and to state and local law 
enforcement and they can barely keep up with the requests for training 
currently.

    Q02139: Please describe for the Committee how the Department plans 
to build upon the expertise of this office and enhance its ability to 
provide necessary training-including ongoing training-to DHS and other 
Federal agency personnel?
    Answer: ICE is working to develop a strategy to establish an 
operational entity within the FDL to provide proactive, high quality 
training in fraudulent document recognition, specifically tailored to 
the needs of students from a wide variety of domestic and foreign law 
enforcement organizations, intelligence agencies, and private sector 
employers. In addition, the FDL would provide training courses and 
material to formally certify Document Instructors for DHS and other 
federal, state, and local agency personnel. The FDL would also develop 
training modules and presentations for use by ICE offices overseas in 
implementing outreach programs to educate and liaison with foreign 
enforcement agencies. The outreach materials would focus on document 
fraud and threat awareness training, and acquaint foreign officials 
with FDL capabilities and access protocols.

       Questions from Chairman Dave Camp and Chairman Jim Gibbons

    1. Q02140 How is classified information disseminated to front line 
border and consular officials?
    Answer: In the U.S. Customs and Border Protection, classified 
information is reviewed by a team of intelligence analysts for 
information pertaining to terrorists attempting to enter the country or 
smuggle weapons of mass destruction into the United States. When 
appropriate, the analysts request a downgrade of information from the 
originating agency to put into the Sensitive but Unclassified (SBU) 
system that is available to the front line officers. This information 
could be as simple as the name of a person or as complex as performing 
analysis of various pieces of information to put into an intelligence 
alert or report, a trend analysis, or a threat assessment which again 
is entered into the SBU system.
    Currently if classified information needs to be sent to the field, 
it is secure faxed or, if possible, verbally conveyed by way of STU/
STE. CBP completed installation of the Homeland Secure Data Network 
(HSDN) in 24 offices in Calendar Year (CY) 04 for secure communications 
up to the Secret level.
    The National Targeting Center (NTC) and Terrorist Screening Center 
(TSC) work together to identify and vet potential terrorists intending 
to travel to, or ship cargo to the U.S. and prevent them from entering 
or endangering the U.S. The NTC is a resource to CBP field officers for 
coordination and communication. It is also one of the TSC's largest 
customers for requesting additional identification of internationally 
traveling personnel or cargo that may have terrorist ties.
    The NTC has the unique mission to provide a centralized 
communication point for all CBP field officers and a coordination 
center for all CBP Office of Field Operations anti-terrorism 
activities. This presents other agencies with the benefit of having a 
single point of contact (the NTC) for communicating anti-terrorism 
information and it ensures a coordinated, managed approach toward 
focusing CBP resources that is accountable across all levels of CBP.

    2. The National Targeting Center (NTC), located in U.S. Customs and 
Border Protection (CBP), and the Terrorist Screening Center (TSC) both 
screen people and cargo using multiple databases.

    Q02141: How do these centers work together and how do they 
distinguish their unique missions?
    Answer: The NTC and TSC work together to identify and vet potential 
terrorists intending to travel to, or ship cargo to the U.S. and 
prevent them from entering or endangering the U.S. The NTC is a 
resource to CBP field officers for coordination and communication. It 
is also one of the TSC's largest customers for requesting additional 
identification of internationally traveling personnel or cargo that may 
have terrorist ties.
    The NTC has the unique mission to provide a centralized 
communication point for all CBP field officers and a coordination 
center for all CBP Office of Field Operations anti-terrorism 
activities. This presents other agencies with the benefit of having a 
single point of contact (the NTC) for communicating anti-terrorism 
information and it ensures a coordinated, managed approach toward 
focusing CBP resources that is accountable across all levels of CBP.
    It also has the added benefit of having entities knowledgeable 
about CBP operations conveying specific information regarding anti-
terrorism efforts that is specific and germane to the operating 
environment.
    The TSC is the clearinghouse for all encounters with known or 
suspected terrorists and as such is a significant resource for the 
National Targeting Center. Additionally, the NTC is the research center 
for CBP field officers for all potential terrorist or terrorism 
identifications. The NTC researches all terrorist field alerts and will 
contact the TSC for any additional classified derogatory information 
that may not be readily available to CBP field officers. By 
centralizing this capacity, clean, secure lines of communication and 
roles can be established between the TSC and NTC. Through this process 
the TSC can contact the FBI Counter Terrorism Watch (CTW). The CTW, in 
turn, can dispatch the local Joint Terrorism Task Force (JTTF) and 
ensure an FBI case exists on the individual. In cases where an FBI case 
does not already exist, the National Joint Terrorism Task Force is 
contacted and they initiate a threat assessment on the subject. All 
information collected from the encounter is pushed back to DHS, FBI, 
NCTC and member of Intelligence Community (IC) for further analysis. 
The CTW coordinates the appropriate response through the NTC and they 
serve as the conduit for getting the appropriate information directly 
to the CBP field officers.

    a. Q02142: Do these centers work with the Human Smuggling and 
Trafficking Center (HSTC)?
    Answer: DHS can not speak for the TSC; however, the National 
Targeting Center is CBP's centralized anti-terrorism communication and 
coordination center for CBP's Office of Field Operations. As such, they 
routinely exchange available information with other agencies and their 
operations centers.

    b. Q02143: How does the Department of Homeland Security envision 
these centers roles and responsibilities changing once the National 
Counterterrorism Center (NCTC) is created?
    Answer: CBP sees the role of the NTC becoming even more significant 
once the NCTC is created. There will continue to be a need for CBP to 
centralize its anti-terrorism communication and coordination with its 
field assets. The need for the NTC will continue to be vital for 
managing effective and efficient communications from external sources 
and passing it down to CBP field officers, as well as, collecting 
information internally from CBP field officers and passing it up to 
external sources. A side benefit from this accountability process is 
that the NCTC or other centers are not responsible for knowing how to 
best communicate information to CBP field officers in and between over 
300 ports, or have telephone lists.
    3. Homeland Security requires a strong international security 
policy. The Department of State is the face of the U.S. Government 
overseas and is our first line of defense, through the visa review 
process, against potential terrorists entering the United States.

    Q02144: How does DHS share information with State Department?
    Answer: State's Consular Lookout and Support System (CLASS) 
receives over 3 million watch-listings from DHS systems, including the 
Treasury Enforcement Communications System (TECS).
    In the context of visa security specifically, State Department 
shares visa applicant and adjudication data with the Visa Security 
Program, and the Visa Security Program shares the results of its 
reviews with State. State also provides watch-listings and lost and 
stolen passport information to TECS (over 850,000 records).
    USCIS' Office of Fraud Detection and National Security (FDNS) meets 
on a monthly basis with DOS' Office of Fraud Prevention Programs to 
discuss cross cutting issues. In addition, FDNS is drafting a 
Memorandum of Understanding (MOU) with DOS's Visa Office (VO) on data 
sharing. Pursuant to the MOU, USCIS will obtain access to DOS' 
Consolidated Consular Database (CCD) and certain reports and systems 
accessible through the CCD and DOS will be granted access to certain 
USCIS databases.
    During the visa application process, biometric and biographic 
information collected by consular offices is queried against selected 
databases via an electronic interface with US-VISIT. At the POE, the 
inspecting office can verify biometric and biographic information 
provided by the travel against the DOS visa information through US-
VISIT.

    Q02145: Are there common training programs regarding terrorist 
indicators and fraudulent documents?
    Answer: In the context of visa security specifically, the Visa 
Security Program is developing a training program for consular officers 
that will address numerous issues relevant to effective consular 
adjudication of visa applications, including terrorist indicators and 
fraudulent documents. These trainings will leverage training material 
that is included in the Program's training curriculum for Visa Security 
Officers. The FDL does provide fraudulent document training to State 
and other agencies and will continue to do so.

    4. Is the following available to DHS personnel including front line 
agents? If it is, what agency provides this information?
    (A) Q02146: The number and type of fraudulent documents used broken 
down by country over the past month, quarter, or year?
    Answer: CBP collects information on fraudulent documents in several 
ways. One source is through its statistical collection Form G-22 
Inspections Workload Report provided by the ports of entry. The Form G-
22 data provides only the number of various types of fraudulent 
documents intercepted, but does not provide the country of origin. In 
January 2005, CBP established the Fraudulent Document Analysis Unit 
(FDAU), now the collection point for fraudulent documents confiscated 
at the ports. The FDAU collects additional categories of statistics, to 
include the number of passports, country of origin, and the nationality 
of the person who presented the document, and conducts regular analysis 
of fraud trends and significant interceptions which will be 
disseminated to DHS front line agents. The FDAU expects to have data 
ready in these categories by July for the first six months of this 
calendar year. The United States also intercepts other fraudulent 
travel documents in addition to passports, including Mexican border 
crossing cards and U.S. permanent resident cards. The FDAU expects to 
disseminate statistical information on fraudulent travel documents to 
the ports and others every six months.

    (B) Q02147: Information regarding stolen and fraudulent passports 
and documents acquired from collection activities abroad?
    Answer: It is crucial that component frontline CBP officials 
receive information regarding lost, stolen and fraudulent passports (or 
other travel documents). CBP systematically receives reporting from the 
Department of State and other federal agencies regarding lost and 
stolen passports and fraudulent documents. This information migrates to 
CBP Inspectors via electronic interface through the Treasury 
Enforcement Communications System (TECS) and the Consular Lookout and 
Support System (CLASS). Additionally, the DHS Office of Information 
Analysis (IA) and other Intelligence Community (IC) members 
periodically produce and disseminate lengthier pieces of unclassified 
finished intelligence for line agents. Such products may address 
trends, such those pertaining to lost and stolen passports, or may be 
crafted as specific hands-on guides. There are ongoing initiatives to 
improve the speed at which classified data is made available to line 
agents at the UNCLASSIFIED level. For example, IA is working with the 
IC to establish a standard whereby the pertinent portions of classified 
information concerning lost and stolen passport information will be 
automatically downgraded so that the information can immediately be 
sent to CBP's National Targeting Center. This would allow the frontline 
officers to more quickly query the Interagency Border Inspection System 
(IBIS) database to ascertain if the passport is from a lost/stolen 
batch or known fraudulent document. The FDL's Operational staff 
provides seven day a week (and Holidays) assistance to CBP field 
personnel regarding fraudulent documents. The Operations staff has 
access to the largest collection of foreign and domestic travel and 
identity documents in the world. They also have access to the Image 
Storage and Retrieval System (ISRS--photos, fingerprints and signatures 
from tens of millions of ``green cards'' and Employment Authorization 
cards), DOS's DataShare (database of photos and biographical data from 
millions of U.S. non-immigrant visas and U.S. passports), EDISON (image 
database of passports of every country in the world and other DHS 
databases. The FDL officers themselves have many years experience in 
examining travel and identity documents. The operations staff develops 
and disseminates Document Intelligence Alerts, Document Reference 
Guides and Fraudulent Document Briefs. They also develop and conduct 
fraudulent document training for CBP officers. As part of the 
Department's work in this area, the DHS Privacy Office is working 
collaboratively with other program offices to research the pragmatic, 
policy and privacy protection issues related to a distributed model for 
the exchange of passport-related data (lost, stolen, identity 
verification) where participating governments would control access to 
the personal information of their travelers and be able to verify 
travelers and travel documents of others in real time.

    (C) Q02148: On site resources at high traffic ports of entries to 
assist agents in identifying fraudulent documents or terrorist 
indicators on documents?
    Answer: Most high traffic ports of entry have the EDISON system on 
site. This is a computerized database containing images of travel 
documents and their security features from all countries. The system is 
used for comparative purposes when examining questioned documents. 
Altered and counterfeit documents are also contained in the database 
for reference.
    Ports have on site training staff and reference documents to assist 
Officers in identifying fraudulent documents or terrorist indicators. 
Immigration and Customs Enforcement (ICE) Forensic Document Laboratory 
(FDL) provides all ports with immediate assistance in document 
verification through their Intelligence Officers. The FDL produces and 
distributes Document Alerts to the ports illustrating recent fraudulent 
document interceptions.
    The Customs and Border Protection (CBP) Fraudulent Document 
Analysis Unit (FDAU), as it comes on line, will provide both strategic 
and tactical information to ports of entry regarding recent trends of 
document abuse identified through an analysis of document interceptions 
at ports of entry. This information will enable CBP officers to be on 
the alert for new patterns of fraud.

    5. Q02149: What is the Department doing to deal with the problem of 
altered and counterfeit passports and visas?
    Answer: The FDL's Operational staff provides seven day a week (and 
Holidays) assistance to all DHS personnel, other federal agencies, 
foreign immigration/border control authorities, State and local police 
and DMV and Social Security personnel in all matters relating to 
fraudulent documents. The Operations staff has access to the largest 
collection of foreign and domestic travel and identity documents in the 
world. They also have access to the Image Storage and Retrieval System 
(ISRS--photos, fingerprints and signatures from tens of millions of 
``green cards'' and Employment Authorization cards), DOS's DataShare 
(database of photos and biographical data from millions of U.S. non-
immigrant visas and U.S. passports), EDISON (image database of 
passports of every country in the world and other DHS databases. The 
FDL officers themselves have many years experience in examining travel 
and identity documents. The operations staff develops and disseminates 
Document Intelligence Alerts, Document Reference Guides and Fraudulent 
Document Briefs. They also develop and conduct fraudulent document 
training for all DHS personnel, other federal agencies, foreign 
immigration/border control authorities, State and local police and DMV 
and Social Security personnel (FDL's longstanding relationships) The 
FDL has continually participated in international working groups and 
conferences for over 20 years. The FDL was instrumental in the creation 
of the International Immigration Fraud Conference (IFC) which is 
comprised of 20 Western European and North American countries) that 
meet annually to exchange information on document fraud, fraudulent 
document training and document examination equipment. The FDL has also 
participated in Interpol's Fraudulent Document Working Group that 
develop minimum standards for passports. The FDL chaired the Security 
Working Group to develop minimum standards for U.S. driver's licenses 
and identification cards mandated by the Intelligence Reform Act of 
2004.
    We are working well with our international and interagency partners 
on improving standards for travel documents, aviation safety, port 
security and the exchange of watchlist information. The appropriate and 
secure use of biometric identifiers will assist in all these efforts. 
We use biometric identifiers as tools to help prevent the use of 
fraudulent travel documents and identities so that we can be more 
confident and secure about our admissions and screening decisions. DHS 
has conducted a review of the use of biometrics to ensure that we are 
coordinating the implementation of biometric technology across the 
Department. In the international arena, we are working closely with our 
European counterparts in the G-8, the International Civil Aviation 
Organization (ICAO) and other international fora to discuss how to 
advance biometric methodologies, both in chip technology and electronic 
readers, by establishing standards to ensure global interoperability.
    The most notable success in our efforts is the creation of US-
VISIT, a biometric entry-exit system. This system not only allows the 
Department to know who has entered the United States, but also captures 
a photograph and scans of index fingers to prevent the use of 
fraudulent identities to circumvent detection and employs biometric 
visa data shared by the US Department of State. In addition, the US-
VISIT data is shared with law enforcement and intelligence agencies as 
appropriate. Other initiatives undertaken by the Department include the 
promulgation of regulations to ensure that passenger data is collected 
and provided to law enforcement agencies for screening purposes, 
including efforts to target terrorists through the National Targeting 
Center; participation in the G8 Lyon Roma group focusing on terrorism; 
setting passport issuance standards and fraud prevention.

    Q02150: How is the Department working with other federal agencies 
to deal with this problem?
    Answer: The Department utilizes the resources of the Forensic 
Document Laboratory to ensure that information about fraudulent 
documents is disseminated to appropriate agencies within and outside 
the Department. Distribution of ``Document Alerts'' based on 
information obtained from intercepted fraudulent documents will be the 
major ports of entry throughout the United States, ICE, CBP, and CIS 
offices, Federal law enforcement training centers, various law 
enforcement intelligence services, the US Department of State, the US 
Secret Service, and the US Federal Protective Service. When 
appropriate, alerts will also be sent to the Social Security 
Administration, relevant Department of Motor Vehicles, and several 
transportation trade organizations such as the International Civil 
Aviation Organization, National Maritime Organization and International 
Council of Cruise Lines. The widest distribution of information on 
altered/fraudulent travel document is essential to addressing the 
problem.

    6. Q02151: Describe in detail the technologies and training methods 
the Department is using to detect terrorist indicators on travel 
documents.
    Answer: In the context of visa security specifically, the Visa 
Security Program is training its officers in terrorist indicators and 
document evaluation. The Program is leveraging the resources of ICE 
Forensic Document Laboratory (FDL). CBP and the FDL have created a 
train the trainer session that has brought in more than 300 CBP 
Officers into the FDL for a 3-day intensive training session. They stay 
another day and are given the material they will take back to the port 
in order to teach an 8-hour course. This course is currently a 
prerequisite to some of our cross training efforts, such as our Anti-
Terrorism Passenger course and Unified Primary. As of November 5, 2004, 
more than 4566 Officers have participated in this 8-hour course. In 
addition, using advance passenger information, the National Targeting 
Center accesses a variety of databases to identify travel and document 
patterns which might indicate terrorist connections.

    Q02152: Again, how is the Department coordinating its efforts with 
other federal agencies?
    Answer: In the context of visa security specifically, the Visa 
Security Program coordinates closely with State. At posts where Visa 
Security Officers are deployed, the VSOs work closely with consular 
officers; share information about fraud documents, fraud schemes, and 
terrorist activity and indicators; and provide training to enhance 
consular officers? ability to recognize those during the consular 
adjudication process. The VSOs also work with the law enforcement and 
intelligence communities at post and share information to support their 
efforts.
    The HSTC is utilized by DHS to convene important interagency 
coordination meetings, and to coordinate select initiatives and has 
signed an interconnectivity agreement with the HSTC that allows HSTC 
personnel, including non-DHS personnel, to access DHS information 
systems. DHS has also provided information technology resources to 
provide secure communications capabilities to HSTC personnel. Equally 
important, however, numerous agencies are able to communicate directly 
with the HSTC's staff on a daily basis on a wide range of policy, 
intelligence, and operational issues that impact our efforts to secure 
the homeland.

    7. Q02153: Is the training provided to our front line border 
personnel sufficient?
    Answer: Together with the FDL, we have created a train the trainer 
session that has brought in more than 300 CBP Officers into the FDL for 
a 3-day intensive training session. They stay another day and are given 
the material they will take back to the port in order to teach an 8-
hour course. This course is currently a prerequisite to some of our 
cross training efforts, such as our Anti-Terrorism Passenger course and 
Unified Primary. As of November 5, 2004, more than 4566 Officers have 
participated in this 8-hour course.

    Q02154: Or do we need a terrorist travel specialist at our ports-
of-entry who can provide this information but also protect classified 
information?
    Answer: The trainers described above, however, are not only 
equipped to teach this single course, but now have the materials and 
technical experience to teach additional port specific material. These 
are the technical experts and this pool of personnel will continue to 
expand, with the continued help of the FDL.
    As noted, CBP will establish a complementary function at selected 
field locations to ensure that there will be a specialist available to 
ports of entry at all times. This unit, and the field specialist, will 
work closely with the CBP Office of Intelligence and the intelligence 
community as a whole to ensure our front line border officers have the 
best and most up-to-date information available to safeguard the United 
States.

    Q02155: Do all the front-line personnel who need clearances to 
utilize current threat information in their activities have the 
appropriate clearances?
    Answer: All appropriate front-line personnel who need clearances 
have them or are in the process of obtaining the required clearances.

    8. Q02156: What is the Department doing to uncover clandestine 
travel among terrorists?
    Answer: The Department has instituted a number of initiatives 
designed to target clandestine travel by terrorists. As noted in the 9/
11 Commission Report, targeting terrorist travel is a powerful weapon, 
and constraining terrorist travel is part of the Department's overall 
strategy. As part of this effort, we are working well with our 
international and interagency partners on improving standards for 
travel documents, aviation safety, port security and the exchange of 
watchlist information. The appropriate and secure use of biometric 
identifiers will assist in all these efforts. We use biometric 
identifiers as tools to help prevent the use of fraudulent travel 
documents and identities so that we can be more confident and secure 
about our admissions and screening decisions. DHS has conducted a 
review of the use of biometrics to ensure that we are coordinating the 
implementation of biometric technology across the Department. In the 
international arena, we are working closely with our European 
counterparts in the G-8, the International Civil Aviation Organization 
(ICAO) and other international fora to discuss how to advance biometric 
methodologies, both in chip technology and electronic readers, by 
establishing standards to ensure global interoperability.
    The 9/11 Commission Report also advised that the Department needed 
to look even more closely at our aviation security initiatives and give 
special attention to improving each of the layers of the security 
system. The improvements in the layered approach include using 
biometric identifiers as well as using airline passenger data 
appropriately--both passenger name record (PNR) data and advanced 
passenger information system (APIS) data, which are screened against 
law enforcement databases by the National Targeting Center.
    The most notable success in our efforts is the creation of US-
VISIT, a biometric entry-exit system. This system not only allows the 
Department to know who has entered the United States, but also captures 
a photograph and scans of index fingers to prevent the use of 
fraudulent identities to circumvent detection employs biometric visa 
data from US Department of State. In addition, the data is shared with 
law enforcement and intelligence agencies as appropriate. Other 
initiatives undertaken by the Department include the promulgation of 
regulations to ensure that passenger data is collected and provided to 
law enforcement agencies for screening purposes, including efforts to 
target terrorists through the National Targeting Center; participation 
in the G8 Lyon Roma group focusing on terrorism; setting passport 
issuance standards and fraud prevention; continuation of the National 
Security Entry Exit Registration System (NSEERS) for special interest 
travelers; and the use of the Student and Exchange Visitor Information 
System or SEVIS to monitor the activities of foreign students. 
Additionally, the Department is actively working with the FBI and the 
Department of Justice, which already provides terrorist and criminal 
fingerprint data to US-VISIT to allow FBI access to data collected by 
US-VISIT at the ports of entry. Through these and other efforts, and 
the sharing of data with the appropriate agencies, the Department is 
working diligently to uncover clandestine travel by terrorists.
    DHS has coordinated improvements to security in the maritime arena 
by its implementation of a layered system of screening vessel arrivals 
to the U.S. Since 9/11, the USCG has been added as formal member of the 
Intelligence Community, created Maritime Intelligence Fusion Centers on 
the Atlantic and Pacific coasts, begun fielding Field Intelligence 
Support Teams in major U. S. ports, created the National Vessel 
Movement Center, and created the Coastwatch Program at the Intelligence 
Coordination Center in Suitland, MD. All of the programs are 
interagency coordinated efforts to bring together federal, state, and 
local agencies with a role on the protection of maritime assets an 
infrastructure. They all play significant roles in screening and 
collecting intelligence information on arriving ships, crew, and 
passengers that enter the U.S.
    In addition, the services and unique expertise of HSTC personnel 
directly supports the Commission's call for enhanced connectivity 
amongst law enforcement and intelligence entities. This enhanced 
connectivity will improve the U.S. Government's effectiveness in 
combating terrorism, as well as supporting an enhanced worldwide focus 
on travel and identity document fraud. Furthermore, the HSTC's 
interagency environment provides the opportunity to apply this approach 
to the serious problems of human trafficking and human smuggling.
    For the first time, the HSTC brings together federal agency 
representatives from the policy, law enforcement, intelligence, and 
diplomatic arenas to work together on a full-time basis to achieve 
increased progress in addressing the problems of human smuggling, human 
trafficking and clandestine terrorist mobility. Additionally, the HSTC 
has access to several interagency, national, and international 
databases that contain information relative to human smuggling and 
human trafficking that may not be readily available through other 
sources. This combination of on-site expertise and accessibility to 
sensitive information provides the U.S. Government and foreign allies 
with a unique opportunity to more effectively identify and dismantle 
smuggling and trafficking organizations, and terrorist travel 
facilitators by working together to attack these threats on multiple 
fronts.

    9. Q02157: How is the Department developing techniques to counter 
the evasive methods terrorists use to travel?
    Answer: The Department is actively involved in developing 
techniques to counter evasive methods used by terrorists to travel. 
Through the use of biometrics and the US-VISIT program, the use of 
fraudulent identities to enter the United States can be effectively 
countered. Through US-VISIT, and in conjunction with the Department of 
State's Biometric Visa Program, the Department has created a ``virtual 
border'' as a line of defense against entry by terrorists. Travelers 
seeking visas are screened against biometric and biographic watchlist 
to identify criminals, terrorists, and immigration violators. DHS is 
also working internationally to counter terrorist travel by 
participation in the G8 Lyon Roma group targeting terrorism and the use 
of fraudulent identification documents. In addition, the Department is 
in the process of implementing the legislative mandate of Section 428 
of the Homeland Security Act. The Department will deploy experienced 
DHS law enforcement officers to U.S. embassies and consulates. These 
officers will perform in-depth investigative reviews of high risk visa 
applicants, conduct training programs for Department of State consular 
officers, initiate investigations, conduct homeland security law 
enforcement liaison, and research and disseminate intelligence.
    The Department is also home to the Forensic Document Laboratory, 
the premiere fraudulent document laboratory in the world. It maintains 
an extensive library of travel documents, as well as trained forensic 
experts and intelligence officers who provide expertise throughout the 
Department.
    For aviation travelers, the department collects advance passenger 
information system data (APIS) otherwise known as manifest data, which 
is screened against law enforcement data bases and watch-lists. For 
specific flights, the Department also collects and vets passenger name 
record (PNR) data which may contain more detailed information about the 
passenger's itinerary. In addition to using passenger date, DHS has 
also piloted the Immigration Advisory Program (IAP) through which small 
teams of CBP Immigration Advisory Officers with strong immigration 
backgrounds are assigned to foreign airports to work with host country 
officials to identify potentially high-risk or inadmissible passengers 
before they board planes bound for the United States.
    DHS recognizes that there is no single solution to prevent 
airplanes from being used as weapons of terrorism. The improvements in 
the layered approach include using biometric identifiers to deter visa 
fraud, sharing lost and stolen passport information through Interpol, 
promoting a global standard for machine readable passports, using 
airline passenger data appropriately, expanding no-fly lists, screening 
domestic and international passengers against no-fly lists, including 
more travelers in US-VISIT, boosting airline security utilizing Federal 
Air Marshals on international flights of concern, hardening cockpit 
doors, and offering voluntary programs for arming pilots on passenger 
and cargo planes for domestic flights.
    Through the collection and dissemination of information, through 
the use of biometrics, and new approaches and technology such as US-
VISIT, the Department is constantly seeking out ways to detect and 
counter the evasive methods used by terrorists to travel.
    In addition, the HSTC staff is collecting, correlating, analyzing 
and disseminating domestic and international information on clandestine 
terrorist travel on a continual basis. These activities include:
        <bullet> Daily SECRET cables from select U.S. government 
        sources via DOS Cable Xpress.
        <bullet> Daily notices of activities, items of interest, and 
        intelligence from domestic, overseas and foreign sources.
        <bullet> National and foreign fraudulent document alerts.
        <bullet> Consular fraud notices and intelligence alert 
        bulletins.
        <bullet> Foreign law enforcement reports, notices and alerts.
        <bullet> Foreign government periodic reports on:
                <bullet> Immigration
                <bullet> Identity and travel document fraud
                <bullet> Terrorism
                <bullet> National Security
    The HSTC will support and exchange information with the NCTC and 
other U.S. agencies and organizations active in the war on terrorism, 
trafficking in persons and human smuggling. It will also coordinate 
feedback amongst the various diplomatic, law enforcement, and 
intelligence agencies.

    10. International coordination is essential to prevent terrorists 
from traveling into our country.
    Q02158: What is the Department doing to coordinate with the 
international community to prevent terrorist travel?
    Answer: The 9-11 Commission Report stated: ``The U.S. government 
cannot meet its own obligations to the American people to prevent the 
entry of terrorists without a major effort to collaborate with other 
governments. We should do more to exchange terrorist information with 
trusted allies, and raise U.S. and global border security standards for 
travel and border crossing over the medium and long term through 
extensive international cooperation.'' The bombings in Madrid, the more 
recent hostage crisis in Beslan, Russia and the Australian Embassy 
bombing in Jakarta also serve as vivid reminders to us that terrorism 
is an international threat that cannot be conquered alone. DHS 
understands that we must engage in a global effort each day, through 
collaboration, information sharing and ongoing dialogue to ensure that 
our efforts are informed, coordinated, and effective.
    As part of this effort, we are working well with our partners 
bilaterally and within multilateral organizations to improve standards 
for travel documents, aviation safety, port security and the exchange 
of watchlist information.
    The Department is working closely with our the international 
partners in the EU as well as with Canada, Mexico and other foreign 
governments to ensure that developments and initiatives in border and 
transport security are discussed, coordinated, and clarified before 
they are implemented.
    We are taking such steps every day. For example, together with our 
colleagues in the Department of State, DHS is addressing security 
challenges posed by lost and stolen passports. Through the efforts of 
the Departments of State and Justice, the U.S. has provided over 
300,000 records of Lost and Stolen passports to the Interpol's lost and 
stolen document database, which is available to border authorities 
worldwide. We continue to encourage our international partners to join 
us in this effort. Additionally, the US is initiating a scoping study 
to assess a technology concept that helps address this concern. The 
Enhanced International Travel Security (EITS) concept, which has been 
addressed in the G-8 context, uses distributed databases as a mechanism 
to allow real-time exchange of to the basic information needed- i.e., a 
``yes'' or ``no'' response--concerning the validity of a document 
without requiring visibility into the data that allows that 
determination. The approach would be very similar to that already used 
worldwide by the banking industry to support ATMs. Developing better 
systems for international sharing of information, and expanding 
participation to more countries will improve our ability to identify 
and screen travelers before they enter our country.
    Another area on which we are working to make significant 
enhancements involves the Visa Waiver Program and US-VISIT. DHS, with 
the assistance of Department of State, is in the process of completing 
the country evaluations required under the Visa Waiver Program statute. 
These reviews involve site visits to each of the participant countries. 
Overall, the cooperation of the VWP countries' governments has been 
exceptional. Additionally, on September 30, 2004, we began processing 
nationals from VWP countries through in US-VISIT. The Department 
engaged in multiple forms of outreach to ensure the countries and their 
citizens were prepared for the expansion of the program.
    To address possible risks, prior to flight departure, the 
Department has piloted the Immigration Advisory Program (IAP) in Poland 
and the Netherlands and is exploring other locations to expand this 
program. Host countries have shown support for this reciprocal program 
that has CBP officers assisting in examining travel documents and 
screening the flight manifests to make determination of whether 
passengers are adequately documented or likely to be found inadmissible 
upon arrival in the United States. Such efforts save the air carriers 
from penalties and providing an extra layer of security prior to 
departure.
    Since the establishment of the Department, the leadership of DHS 
has worked to establish and enhance the critical international 
relationships and partnerships with foreign counterparts. Coordinated 
efforts and continuous dialogue have proven vital to pursuing the DHS 
mission, whether it be through well-established legacy agency dialogues 
with Mexican and Canadian neighbors, the new Joint Contact Group 
meetings with United Kingdom officials that examine issues relating to 
all aspects of Homeland Security, the continuous discussions with 
European Union (EU) and the EU Member States. In addition, Department 
officials engage with foreign partners within the various international 
fora such as ICAO, World Customs Organization (WCO), International 
Maritime Organization (IMO), the G-8, Organization for Security and 
Cooperation in Europe and many others.
    DHS has also connected the Canadian Government Operations Center, 
the United Kingdom's Civil Continingincies Secretariat, National 
Security Advice Center, to the Homeland Security Information Network. 
This network provides 24/7 connectivity, at the SBU level, from each of 
these locations to the Homeland Security Operations Center.

    Q02159: How is the Department working with our neighbors, in Canada 
and Mexico in particular, to devise a coordinated anti-terrorist travel 
strategy?
    ANSWER: The Department values the strong partnership of the 
Governments of Canada and Mexico in securing international travel. 
While the work plans with our neighbors are similar in many respects, 
they are also tailored to the specific capacities and realities of each 
government. We are proceeding on two bilateral tracks rather than a 
trilateral track at this time although there is strong potential for 
convergenceSec.  the future.
    On December 11, 2001, the U.S. and Canada signed a Smart Border 
Plan originally containing 30 concrete initiatives to secure the 
infrastructure, flow of people, and flow of goods and to share 
information. A few short months later in March 2002, the U.S. and 
Mexico signed a 22-point Border Partnership Action Plan organized under 
the pillars of secure movement of goods, secure movement of people, and 
secure infrastructure. Together with our neighbors we recognized that 
our current and future prosperity--and security--depend on borders that 
operate efficiently and effectively under any circumstance.

General
    Progress is steady and many of the initiatives have already been 
implemented or are near completion. In other cases, on-going processes 
are required. Others, like our cooperation on human smuggling and 
trafficking, are ongoing activities that continue to be strengthened as 
we deepen our relationships. Some goals will require many years and 
extensive investment before they are in place. In some cases, such as 
the electronic sharing of information, the process is itself the goal. 
Still in other cases, long-term investment, political will and effort 
will be necessary to achieve the goal.

APIS
    Of particular note is the progress in sharing advanced passenger 
information. Currently, Canada and Mexico require international air 
carriers to send electronically manifest information for commercial 
flights destined to their countries. We are vetting the APIS data 
against relevant databases and have already developed with Canada a 
means to exchange bulk and individual records. Additionally, Customs 
and Border Protection (CBP) has developed common risk-scoring 
algorithms with its Canadian colleagues as well as a mechanism to 
resolve hits. Under the U.S.--Mexico Smart Border Action Plan, the GOM 
transmits APIS data to CBP. Commercial air carriers transmit API data 
to the GOM as required by law. The Mexican API data is retransmitted by 
the GOM to CBP via the existing CBP APIS infrastructure. In May 2004, 
the GOM designated Centro de Investigacion y Seguridad Nacional (CISEN) 
as the lead point of contact for the Mexican APIS program.

Integrated Border Enforcement Teams (IBET)
    In support of the Canada-United States Smart Border Declaration and 
Action Plan for creating a secure and smart border, Integrated Border 
Enforcement Teams (IBETs) seek to identify mutual national security 
threats and combat illicit cross border activity. IBETs are multi-
agency field level groups of law enforcement officials dedicated to 
securing the integrity of the Canada/United States border while 
respecting the laws and jurisdictions of each nation. The IBET mission 
is to enhance border integrity and security at our shared border by 
identifying, investigating and interdicting persons and organizations 
that pose a threat to national security or are engaged in other 
organized criminal activity.
    Across the northern border, 15 regional IBET locations have been 
established and are currently active. Each IBET has a local Joint 
Management Team (JMT) to incorporate national policies and formulate 
local investigative priorities of the regional team. The JMT is 
predicated on the needs and involvement of its participating agencies.
    IBETs are not ``firehouses'' waiting for something to occur but 
rather operate as intelligence driven enforcement teams comprised of 
federal, state/provincial and local law enforcement personnel to 
address terrorism and other forms of criminality in the context of the 
border. The teams are multidisciplinary in nature and work in an 
integrated land, air, and marine environment along or near the 
Canadian/United States border while respecting the jurisdiction of each 
nation.
    The IBETs were developed to be ``intelligence driven'' units. The 
concept of the Joint Intelligence Teams is to develop an inter-
connectivity of intelligence by co-locating ICE Intelligence Analysts/
Intelligence Research Specialists and Special Agents with Intelligence 
Analysts/Officers representing the other participating core member 
agencies. The intelligence officers will be responsible for the 
collection and collation of information and its dissemination to the 
field, other IBETs, as well as to their respective Headquarters 
entities.

Cargo Screening
    Tremendous progress has been made in securing commercial traffic--
both rail and truck. By 2005, it is expected that 100% of rail cargo 
entering the U.S. from Canada and Mexico will be screened using Vehicle 
and Cargo Inspection Systems (VACIS) and other appropriate 
technologies. The benefits derived from our northern and southern 
border FAST programs speak for themselves. For example, 92% of 
commercial traffic on the US-Mexico border is via the FAST lanes at the 
seven largest ports. We have aggressive expansion plans for FAST along 
the southern border and are studying additional dedicated FAST lanes at 
some of the busiest crossings between the U.S. and Canada.
    The Department, through CBP, has developed with Canada a Joint 
Targeting Initiative to review and research bills of lading and 
manifests necessary to target high-risk containers destined for North 
America. Additionally, CBP and Canada will embark on a common Container 
Security Initiative, leveraging resources at select locations abroad.
Passenger Enrollment Systems
    Low-risk, pre-enrolled travel programs for visitors and other non-
commercial travelers are another example of ways to leverage technology 
and bilateral cooperation to achieve the mutual goals of enhanced 
security and facilitated through-flow of known border crossers. We 
continue to expand and upgrade the NEXUS and SENTRI programs at our 
land borders while ensuring continuous compliance monitoring. Further, 
we will test a NEXUS Air program with Canada at the Vancouver 
International Airport.

Visa Policy
    Visa policy plays an essential role in our layered defense strategy 
that prevents known high-risk travelers from entering North America. To 
this end, we are working with Canada and Mexico to identify 
commonalities, gaps and areas. For example, since September 11, Canada 
has imposed a visa requirement on nationals of 12 countries, including 
Saudi Arabia and Malaysia. We are studying ways to converge visa-
screening procedures and to exchange visa information.

Information Sharing
    Both before and since the terrorist attacks of September 11, 2001, 
the State Department, with DHS and other interagency partners, has 
spearheaded efforts to coordinate the exchange of biographic terrorist 
screening information. With the specific authority granted to the 
Secretary of State by the USA PATRIOT Act of 2001 to establish 
agreements with foreign governments on exchange of visa screening 
information, we are seeking to negotiate more robust information 
exchange agreements.
    On June 12, 2003, the Secretary of State authorized negotiations on 
an agreement for the systematic exchange of broader visa screening 
database information with Canada and approved a draft executive-level 
agreement to do so. At the same time, he gave blanket authorization to 
pursue such an agreement with any other willing country, using the 
effort with Canada as a model. In accordance with the new guidelines of 
the Homeland Security Act, the State Department sought the cooperation 
of DHS and subsequently the newly formed TSC. In January 2004, the 
State Department opened negotiations with Canada aimed at reaching such 
an agreement. The negotiating team, which includes representatives of 
State, DHS and the TSC, is addressing the policy, legal and technical 
issues involved.
    The HSPD-6 Memorandum of Understanding (MOU) on the Integration and 
Use of Screening Information to Protect Against Terrorism of September 
16, 2003 was signed by the Departments of State, Justice, and Homeland 
Security and the DCI. The MOU requires the obtaining of terrorist 
screening information from our foreign partners ``in a manner 
consistent with each government's laws,'' and, as necessary, ``to 
provide operational support to the participating governments.'' It also 
established the guidelines for operation of the TSC and the transfer of 
State's TIPOFF database to the TTIC. The TIPOFF Program, founded in 
1987, was the first federal program focused on the identification of 
known and suspected terrorists to prevent their entry into the United 
States. On November 17, 2003 the TTIC,\2\ under the authority of the 
DCI, assumed responsibility for TIPOFF and for collecting all 
information the U.S. Government possesses related to known or suspected 
terrorists, with the exception of information on purely domestic 
terrorists. TIPOFF contains more than 175,000 records on terrorist 
identities as of mid-August 2004 and serves as a screening and analytic 
resource to the U.S. Government. On December 1, 2003 the Terrorist 
Screening Center (TSC) was established, under the administration of the 
FBI, to consolidate the U.S. government's approach to screening for 
terrorism.
---------------------------------------------------------------------------
    \2\ On December 6, 2004, the NCTC undertook all responsibilities 
assigned to the TTIC.
---------------------------------------------------------------------------
    The TSC facilitates terrorist screening exchange arrangements with 
two trusted partners--Canada and Australia. An agreement with Canada 
was established and implemented on May 23, 1997, and with Australia on 
April 12, 2000, through which sensitive but unclassified biographic 
screening data elements derived from the Terrorist Screening Data Base 
(TSDB), were made available to both countries. Terrorist screening data 
provided to TIPOFF by Canada and Australia is included in the Consular 
Lookout and Support System (CLASS) used by the State Department to 
screen visa applicants in the Integrated Border Inspection System 
(IBIS) used by DHS to screen travelers seeking admission into the 
United States, and by other federal, state, and local law enforcement 
through the National Crime Information Center (NCIC). HSPD-6 also 
tasked the Department of State, in conjunction with the TSC, to expand 
the sharing of terrorist identifying information with other countries 
and to begin with our partners in the Visa Waiver Program. This effort 
has been initiated and significant progress is being accomplished.
    Similarly, we are working within the Administration to determine 
the appropriate bilateral exchange of the No Fly and Selectee Lists 
currently used by domestic and international airlines transporting 
passengers in, to, or from the United States to conduct passenger 
prescreening. We continue to monitor the status of domestic legislation 
in Canada that would further enhance aviation security including the 
exchange of passenger information on domestic flights that may fly over 
U.S. airspace.

Transportation Security
    Member States in the International Civil Aeronautics Organization 
must meet the 100% hold-baggage screening standard by January 2006. 
This standard will make the global aviation system even more secure and 
will help reduce the possibility of acts of terrorism on our air 
carriers. The Department is pleased that our neighboring governments 
are sharing information to help meet this goal.

US-VISIT
    DHS implemented US VISIT at 115 airports and 14 seaports starting 
on January 5, 2004. The land border solution is being designed to be 
fast and easy, but also secure. The Department is committed to the dual 
goals of enhanced security and facilitated legitimate travel. Through 
US-VISIT, and in conjunction with the Department of State's Biometric 
Visa Program, the Department has created a ``virtual border'' as a line 
of defense against entry by terrorists. Travelers seeking visas have 
their fingerprints vetted against a biometric watchlist to identify 
criminals, terrorists, and immigration violators We have worked closely 
with officials from Canada and Mexico to develop an effective and open 
communication mechanism to exchange ideas and address concerns about 
how US-VISIT utilizes technology, how it may affect border communities, 
and how to manage public relations. Shared infrastructure, biometrics, 
data privacy and protection are all issues of common interest. The 
Department looks forward to continued bilateral dialogue as US-VISIT 
expands to the 50 largest land border ports by December 2004 and all 
land ports by December 31, 2005, and as we assess and build upon 
technologies and management concepts being tested or already deployed 
from the various departure pilots.

    11. Constraining terrorist mobility should be a broad, long-term 
DHS goal.
    Q02160: What initiatives does DHS have underway and what have you 
identified as future goals or developing capabilities?
    Answer: CBP has a number of initiatives underway in support of 
DHS's long-term goal of constraining terrorist mobility. To highlight a 
few:

Deploying Immigration Advisory Officers
    The Immigration Advisory Program (IAP) is a CBP effort to prevent 
terrorists from entering the United States. Under IAP, small teams of 
CBP Immigration Advisory Officers with strong immigration backgrounds 
would be assigned to the major ``hub'' airports around the world to 
identify potentially high-risk or inadmissible passengers before they 
board aircraft bound for the United States. Through these efforts, CBP 
is better positioned to address the worldwide threat of terrorism.
    CBP initiated an IAP pilot at Amsterdam's Schiphol airport on June 
26, 2004 and a second effort began at Warsaw's Chopin Airport on 
September 15, 2004. The IAP teams in both foreign locations have 
established similar passenger processing methods. Typically, airline 
security officers or government border guards review passenger 
documents and if there are any anomalies with the document or the 
passenger, they request assistance from the IAP Officer. IAP officers, 
based on targeting information or observation, may ask to see a 
particular passenger. Based on the review of the passenger's documents 
and responses to questions, the IAP officer may recommend to carriers 
not to board individuals who have documentary deficiencies or who may 
be otherwise inadmissible.
    Additional sites will be identified based on intelligence 
information, funding, and approval by the Department of Homeland 
Security and host countries.

Deploying Integrated IDENT/IAFIS
    The Automated Biometric Identification System and the Integrated 
Automated Fingerprint Identification System (IDENT/IAFIS) program was 
established to integrate the IDENT database with the Federal Bureau of 
Investigation's (FBI) Integrated Automated Fingerprint Identification 
System (IAFIS). The Integrated IDENT/IAFIS terminal provides 
simultaneous access to biometric-based criminal and immigration 
violator information for DHS agents in the field. In FY2004, DHS 
assumed the responsibility for funding and completion of phase 1 of the 
project--the nationwide deployment of IDENT-IAFIS workstations was 
transferred from the Department of Justice to the Department of 
Homeland Security (DHS). DHS immediately began accelerating the 
deployment of the integrated capability and has now completed 
deployment of the integrated system to all 140 operational Border 
Patrol stations, and 216 Port of Entry and ICE locations. DHS will 
complete deployment to all remaining Ports of Entry and ICE locations 
by December, 2005.
    Numerous other initiatives being pursued by CBP include continuing 
to enhance the automated targeting system, continuing to aggressively 
pursue smart box container technology, increasing Container Security 
Initiative (CSI) participation, Free And Secure Trade (FAST), internal 
law enforcement partnerships, deploying radiation portal monitors, and 
deploying additional imaging technologies to the ports. Future goals 
and developing capabilities include our Automated Commercial 
Environment system (ACE) which is currently restructuring what 
information is required for international transactions, how that 
information is processed, and employing technology and business 
partnerships with other agencies to identify their international data 
requirements, and how to best integrate these requirements through an 
international trade data system (ITDS).

   Questions for the Record from Chairman Dave Camp and Chairman Jim 
                                Gibbons

    (1) Q02161: What is the current process for DHS agencies to share 
information and intelligence they gather in their day-to-day activities 
with the DHS Office of Information Analysis?
    Answer: Each Department of Homeland Security (DHS) component 
employs several methods to share information with the DHS Office of 
Information Analysis (IA). Standardized, daily reporting is the 
principal method for sharing information. This regular reporting is 
supplemented by spot reports, alerts, and informal notifications via 
email, phone or fax to provide timely notice to IA, and to DHS in 
general, of emergent threats and other events of interest. The Homeland 
Security Operations Center (HSOC) is the focal point for this 
information exchange. IA personnel staff the HSOC on a 24X7X365 basis. 
This team, under the leadership of the Senior Intelligence Analyst, 
reviews all component reporting and works directly with both the Senior 
HSOC Watch Officer and all parts of the IA organization to ensure 
timely distribution of information throughout IA and to provide front 
line, first phase intelligence analysis to the HSOC.
    Most DHS components provide their reports to the HSOC via email at 
all classification levels (Sensitive but Unclassified (SBU), Secret 
(S), and Top Secret/Special Compartmented Information (TS/SCI)). These 
reports are automatically filed in designated folders accessible across 
DHS Headquarters for easy access and archival management. The U.S. 
Coast Guard submits reports in the form of Information Intelligence 
Report messages to the DoD's Automated Message Handling System (AMHS) 
and Web Intelligence Search Engine which are both guarded at DHS. In 
addition, the Coast Guard develops and displays a wealth of information 
on its Common Operational Picture (COP), and which provides real-time 
information to the HSOC. That information available through HSOC and 
through the COP is provided to DHS Office of Internal Affairs (OIA). 
The following is a listing of reports by agency:

BTS
Daily Operations Report
* BTS components ICE, CBP, and TSA also provide their own reports:

ICE
Homeland Security Intelligence Report
Significant Activity Reports
ICE daily operational summary
ICE Spot Reports
Daily Intelligence Summary

CBP
Homeland Security Intelligence Report
CBP Spot Reports
CBP daily operational summary
Intelligence Assessment
Intelligence Alert
Weekly Matrix

TSA
Daily intelligence Summary
Homeland Security Intelligence Report
Transportation Security Operations Center Spot Reports
Suspicious Incident Report

FAMS
Daily Intelligence Brief
Weekly Assessment

USCG
Coast Guard Incident Reports
Spot Reports
Field Intelligence Reports (via AMHS)
Intelligence Information Reports (via AMHS)
Common Operational Picture
Daily Intelligence Summaries
Routine and ad hoc Intelligence Production

USSS
USSS Intelligence Division/Operations Branch-Daily Operations Report

Federal Protective Service
    Daily Operations Log
    Spot Reports
    Information Bulletins
    Incident Reporting via the FPS Portal
    This system also supports reporting from DHS affiliates in the 
National Infrastructure Coordinating Center (NICC). NICC participants 
are given reporting criteria and email addresses to provide information 
to the HSOC for further distribution to IA analysts.
    The IA staff in the HSOC distributes information through several 
methods. The report is captured in a running log with the source of the 
report, the facts as reported, derivation of information gaps, and 
actions taken to exploit the information against all available 
databases and subject matter experts to determine terrorism nexus / 
emergence of threat. External watch officers are often contacted as the 
information is received, and queried for support in evaluating the 
threat against their resources. The text of the report is also sent to 
the HSOC Senior Watch Officer and IA analytic staff via email. If the 
nature of the information suggests an imminent threat, key IA leaders 
are notified by phone / pager.
    While this process is the primary path of information from 
components to IA analysts, the same email storage and DoD message 
systems are available directly to analysts and desk officers with 
appropriate security clearance. The SIA serves as the primary conduit 
of information into IA, providing global coverage of all of the over 
1500 messages received by DHS daily and ensuring broad distribution of 
that information on a 24X7 basis, but IA analysts have identical access 
to the source information for their topic areas to support easy access 
and rapid analytical response. This process is depicted in the example 
diagram below:


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Additionally, the DHS Request for Information (RFI) and Tearline 
process facilitates the sharing of information not only within DHS, but 
also with members of the Intelligence Community (IC). DHS's Web-based 
Pantheon system will help expedite and streamline the information 
sharing process. DHS IA also manages the DHS tearline program that 
currently helps facilitate information sharing within the IC, DHS, 
State & Local Government, and the private sector. In response to DCID 
8/1, DHS IA has developed a four phased tearline reporting 
implementation plan which will greatly enhance the ability to share 
information.

    (2) Q02162: Does IA currently have specific personnel devoted to 
developing a complete threat picture based on information it receives 
from BTS agencies and the Intelligence Community?
    Answer: The Department of Homeland Security (DHS) Office of 
Information Analysis (IA) currently has two analytical units. One 
focuses on current intelligence and the other on broader trends and 
developments. Within the analytic unit focused on current intelligence, 
there is a branch focused on fusing current intelligence and homeland 
security reporting, to include DHS Border and Transportation Security 
(BTS) reporting, with the contextual picture provided by the unit 
analyzing broader trends and developments. The product of this fusion, 
along with the near real time input from the Senior Intelligence 
Analyst in the Homeland Security Operations Center, is a complete 
threat picture. Additionally, BTS component intelligence activities, as 
well as representatives from the U.S. Intelligence Community (IC) 
maintain a presence in IA to facilitate sharing their respective 
understanding of the current threat picture.
    It is the responsibility of IA analysts to be cognizant of and 
apply knowledge of the broader threat context as derived from all 
sources of Homeland-related threat information to analyses of their 
specific accounts or programs. Specific divisions within IA that are 
focused on information derived from or pertaining to BTS naturally 
possess a greater macro and micro understanding of this information. It 
is also the responsibility of senior analysts and managers within IA to 
ensure all-source fusion is taking place.

    Q02163: Is this information integrated with intelligence and 
reporting from other agencies?
    Answer: Yes. Please refer to the above (Q02162) and Q02166.
    (3) In addition to the Office of Information Analysis (IA) within 
the Department of Homeland Security (DHS), several other components 
within the Department maintain distinct intelligence units. These units 
located within the Border and Transportation Security Directorate (BTS) 
and the U.S. Coast Guard serve the demands of their respective offices.

    Q02164: How does IA work with their respective DHS intelligence 
components to share border reports?
    Answer: Please refer to Q02161.

    Q02165: How is this information shared across the Department, with 
IA, and with the larger Intelligence Community?
    Answer: The Department of Homeland Security (DHS) Office of 
Information Analysis (IA) utilizes both formal and informal processes 
to share information across the Department, within IA, and with the 
larger Intelligence Community. IA conducts and or participates in 
several daily and weekly meetings/teleconferences. The primary purpose 
of these events is to discuss and disseminate information/intelligence 
and assign taskings for further analysis.
    The following meetings are of significant importance in the IA 
information sharing process:
        <bullet> Information Analysis Morning Executive Brief (IAMEB)--
        daily Monday through Friday brief that is attended by numerous 
        agencies from DHS to include IA, IP, HSOC, USSS, BTS,CBP,ICE, 
        TSA, State & Local as well as the FBI, State Department and the 
        Intelligence Community.
        <bullet> Daily Secure Video Teleconference--IA participates in 
        the daily secure meeting hosted by the National Counter 
        Terrorism Threat Center.
        <bullet> Homeland Security Terrorist Threat Intel Group 
        (HSTTIG)--Bi-monthly meeting of the DHS Intelligence component 
        leaders.
    Formal products are produced in a variety of formats to accommodate 
the different security handling and information requirements of our 
diverse audience, which ranges from private sector firms and 
institutions to members of the Intelligence Community.
    The department produces a wide variety of formal products 
including:
        <bullet> Homeland Security Information Advisories;
        <bullet> Homeland Security Information Bulletins;
        <bullet> Homeland Security Assessments and Studies;
        <bullet> Homeland Security Intelligence Articles (HSIA);
        <bullet> Homeland Security IAIP Red Cell Session Reports;
        <bullet> Homeland Security Intelligence Reports;
        <bullet> Daily briefings such as the Information Analysis 
        Morning Executive Brief;
        <bullet> Intelligence Information Reports (via DoD message 
        handling system).
    Information Advisories (IAs) provide a means for DHS to communicate 
threat information to all DHS customers ranging from the intelligence 
community and law enforcement to the general public at large. 
Advisories incorporate intelligence or information identifying a threat 
targeting critical national networks or key infrastructure assets that 
contains actionable incident information. The Advisory may suggest a 
change in readiness posture, protective actions, or response, as well 
as, relaying newly developed procedures that, when implemented, would 
significantly improve security or protection.
    Information Bulletins (IBs) report information of interest to the 
nation's critical infrastructures that does not meet the timeliness, 
specificity, or significance thresholds of Information Advisories. IBs 
are designed to provide updates on the training, tactics, or strategies 
of terrorists and may include: statistical reports, monthly, quarterly, 
or semi-annual summaries, incident responses or reporting guidelines, 
common vulnerabilities and patches, and configuration standards or 
tools. In addition, preliminary requests for information on symptoms, 
events, or social engineering being observed by constituents may also 
be communicated through a bulletin.
    Homeland Security Assessments and Studies provide an assessment or 
study for a specific event or location and are directed at a specific 
audience. Assessments are typically 25 pages, while Studies offer a 
more in-depth coverage of the subject and are typically 1020 pages in 
length. These come in various forms including: Threat--particular event 
related; Special--study of threats to infrastructure / security; 
Executive--summary assessments; and Joint--author sponsorship by DHS 
and another concerned organization.
    Homeland Security Information Articles (HSIAs) are classified, 
timely, all-source intelligence products that assess, clarify or 
consolidate new intelligence with previously reported information. 
HSIAs are an analytic production process that begins with new 
intelligence or threat information often expanding upon previously 
reported intelligence and threat assessments. The information is not 
limited to raw reporting and may contain finished analysis. The HSIA is 
authored by IA-C and/or IA-D analysts on an as-needed basis and is 
intended for various internal DHS audiences and the Intelligence 
Community.
    IAIP Red Cell Reports provide alternative assessments intended to 
provoke thought and stimulate discussion. Red Cell products enhance DHS 
analysis by engaging a community of outside experts from government, 
industry, and academia to provide an alternative perspective on 
threats/vulnerabilities facing the homeland. Emphasis will be is on 
examining issues from a terrorist mindset, focusing on innovative and 
unconventional targets and tactics. The analytic Red Cell program 
brings together DHS and outside experts on a regularly scheduled basis, 
and can also stand up ad-hoc red cells in response to immediate needs. 
Distribution is generally limited based on topic.
    Homeland Security Intelligence Reports (HSIRs) allow DHS 
operational components a vehicle to report case and potential terrorist 
information to DHS Headquarters. The final report contains a 
compilation of information with preliminary processing or analysis by 
the reporting agency supported by research using locally available 
databases and domain expertise of the component analysts.
    Information Analysis Morning Executive Brief (IAMEB) provides daily 
situational awareness on homeland security issues. The brief is a daily 
compilation of preliminary/ in-depth analytical perspectives on 
significant recent and developing issues affecting homeland security 
and DHS. The IA-C briefing team develops the IAMEB with input from IA-D 
as warranted, and briefs it to key IAIP personnel each weekday morning. 
The IAMEB is then modified as appropriate and disseminated. Appropriate 
versions of the IAMEB are sent internally throughout DHS and the 
Intelligence Community.
    DHS Intelligence Information Reports (IIRs) are produced by IA to 
publish information gathered by DHS components in the format most 
familiar to IC and DoD consumers. IA has partnered with DIA to allow 
direct publication of DHS IIRs into the standard DoD message handling 
system. Currently, DHS authors' component reporting in this format, 
however, components will begin production on their own to directly 
inject the information into the IC in the near future.
    Homeland Security Information Message (HSIM): Designed to 
communicate uncorroborated threat information to U.S. Government 
agencies, State and Local Homeland Security Advisors, and/or the 
private/public sector, in an expeditious manner. Information has not 
been fully evaluated. No specific actions are recommended. Should 
further information become available, it will be disseminated as a more 
comprehensive Information Bulletin, Advisory or Memorandum.
    This information is provided as directed in Section 201, Homeland 
Security Act of 2002. Additionally, IA is in constant informal 
communication with other Intelligence agencies and other non-
intelligence organizations, directly communicating information via 
liaison, phone, fax or e-mail. We rely heavily on representatives of 
the various agencies, both inside and outside DHS, to facilitate 
communication with their parent organizations. These experts provide 
not only a conduit for information, but also are valuable resources 
during the development and vetting of products.

    (4) Q02166: Does IA have the ability to analyze imagery and other 
forms ofSec. telligence that is gathered on our borders?
    Answer: Analyzing and consuming all-source intelligence analysis is 
at the core of the Department of Homeland Security (DHS) Office of 
Information Analysis (IA) mission. However, IA does not literally 
analyze imagery, with the exception of a small contingent of imagery 
analysts working within the Coast Guard who provide analysis of 
maritime events that impact a wide variety of USCG missions. However, 
for the most part, IA relies on the analysis of the National Geospatial 
Intelligence Agency (NGA) and other organizations that possess literal 
imagery analysts. This analysis is incorporated into IA evaluations and 
assessments pertaining to border issues. As a member of the U.S. 
Intelligence Community, NGA maintains multiple representatives within 
IA who very ably assist with various imagery requirements. Most 
notably, NGA has played a key role supporting DHS Information Analysis 
and Infrastructure Protection (IAIP) Directorate efforts relating to 
critical infrastructure protection, and has supported IAIP's mission to 
National Security Special Events and other significant functions. Other 
border-related information derived from the IC or BTS is funneled to 
DHS via established electronic systems and incorporated into IA's 
assessments.
    (5) Terrorist travel intelligence runs across broad federal, state, 
and local agency lines.

    Q02167: How is the Department leveraging its assets to best utilize 
current terrorist travel information from within DHS and other partners 
in the Intelligence Community?
    Q02168: What is it doing to improve the exchange of information?
    Answer: One of IA's OMB Milestones is to ``Establish and resource a 
DHS reports officer capability to report information from field and 
component organizations on potential threats to the Homeland.'' IA is 
staffing positions, developing procedures and training, and 
implementing a plan to deploy reports officers to the field. These 
reports officers' primary responsibility is to write and disseminate 
reports of intelligence value based on DHS component operational 
information. IA's intent is to model this effort on successful reports 
officer programs of long standing in the Intelligence Community and to 
review the newly developed program at the FBI for lessons learned in a 
start-up enterprise.

  Lawrence M. Wein Responses to Questions from Chairman Dave Camp and 
                          Chairman Jim Gibbons

    Thank you for the opportunity to testify before the Select 
Committee on Homeland Security Subcommittees on Infrastructure and 
Border Security and Intelligence and Counterterrorism hearing on 
September 30, 2004, entitled ``Disrupting Terrorist Travel: 
Safeguarding America's Borders through Information Sharing.'' I am 
pleased to answer your questions.

    Question 1: You make the point in your testimony that the more 
fingerprints captured, the less important image quality is. However, if 
I'm a terrorist I can just as easily ruin or impair all 10 of my 
fingerprints as I can just two. How do you make the assumption that 10 
prints are essential?
    Answer 1: First, approximately 5-10% of terrorists have poor image 
quality in the absence of any deliberate impairment. Given Al-Qa'ida's 
large pool of terrorists, it can simply choose US-bound terrorists that 
have inherently poor image quality. Second, approximately five times as 
much work, pain, etc. is required to impair 10 fingers rather than two 
fingers, although your point is well taken that terrorists who are 
capable of deliberately impairing two fingers can certainly 
deliberately impair 10 fingers. Regarding your main question, the 
bottom line here is that you get a limited amount of information out of 
a fingerprint with poor image quality, and you get approximately five 
times as much information from 10 poor-quality fingerprints as you do 
from two poor-quality fingerprints. We do not assume that 10 
fingerprints are essential. Rather, we solve an optimization problem 
that allows for the possible use of up to 10 fingerprints, and find 
that it is optimal to employ 10 fingerprints from visitors with poor-
quality fingerprint images. That is, the use of 10 fingerprints for 
visitors with poor image quality is not an assumption of our analysis, 
but rather a product of our analysis. Returning to the earlier issue, 
using 10 fingerprints allows five times as much information to be 
captured from visitors with inherently, or deliberately, poor image 
quality, which leads to a much higher detection probability.

    Question 2: What factors are involved in order to capture a quality 
image? (i.e., capabilities of the machine, software, screener training, 
and physical characteristics of the fingers).
    Question 3: It seems that if US VISIT is capturing quality images, 
the matching problems you outline in your testimony will largely be 
addressed. In your estimate, how much of the ability to capture a 
quality image is outside of DHS's control?
    Answers 2 and 3: While all the factors you mention in Question 2--
along with environmental factors such as humidity and dirt--impact 
image quality, our analysis of the data in Figure 11 of the NISTIR 7110 
report (this analysis appears in Appendix I of a report we distributed 
to various parts of the US Government, including analysts at NIST and 
managers of the US-VISIT Program) suggests that most of the image 
quality is inherent in the physical characteristics of the person 
(i.e., some people have inherently worn-out fingers), and hence is 
outside of DHS's control. However, a definitive answer to this question 
requires an analysis of NIST data that is more detailed than the 
summary statistics in Figure 11 of NISTIR 7110; I requested this 
additional data from NIST analysts on June 2, 2004, but they never 
responded to my request.

    Question 4: You concluded in your testimony that capturing 
additional fingerprints would not take additional time because you 
average the screening time between primary and secondary. Your findings 
combine the time in primary and secondary into a mean time. I am 
concerned that your findings don't fully weigh the cost of delaying 
travelers at a port of entry. What are you recommending exactly--that 
10 fingerprints are captured during primary inspection at the port of 
entry or at some other point in the screening process?
    Answer 4: We are also concerned with traveler delay at ports of 
entry. Unlike most previous biometric research, our analysis includes a 
constraint that the total mean (primary plus secondary) screening time 
per visitor be fixed at its current value. Queueing theory, which is 
the field of mathematics that analyzes waiting lines (see our report 
for a reference to a specific paper) implies that mean delay at ports 
of entry will not increase if the mean (primary plus secondary) 
screening time per visitor is not increased, under the assumption that 
there is some flexibility in the workforce (i.e., a small fraction of 
the inspectors are trained in both primary and secondary screening). 
Hence, we are taking traveler delay into full consideration. Regarding 
your final question, our recommendation is that 10 fingerprints be 
captured during visa enrollment from all during their next visit to a 
port of entry, and these 10 prints could replace the 2 fingerprints 
that were originally captured during enrollment. Our exact 
recommendation at the ports of entry is to take 10 fingerprints from 
enrollees with poor image quality, but only two fingers from the 
enrollees with good image quality. Using this information to match 
against the watchlist, we predict a detection probability of 95% with 
no increase in mean traveler delay. Of course, if different numbers of 
fingerprints are captured from different people, there is the issue of 
managing the perception of differential treatment (i.e., different 
numbers of fingers for different people). However, image quality is an 
objective measure that does not explicitly take into account age, 
gender, race, country of origin, etc., which may mitigate this concern.

    Question 5: I am concerned about the additional burden and time 
delay of taking 10 fingers from all travelers. Did you assess what the 
added value would be of taking 10 prints from all enrollees with poor 
image quality, as a subgroup of all visitors?
    Answer 5: This question was essentially answered in Answer 4, but I 
will repeat the answer here. We are also concerned with the time delay 
of taking 10 fingers from all travelers. In fact, in our analysis, 95% 
detection probability at the port of entry (with no increase in 
traveler delay) is achieved by taking 10 fingerprints from enrollees 
with poor image quality, but only two fingers from the enrollees with 
good image quality; note that we would know an enrollee's image quality 
from their prints taken at the time of enrollment. Of course, if 
different numbers of fingerprints are captured from different people, 
there is the issue of managing the perception of differential treatment 
(i.e., different numbers of fingers for different people). However, 
image quality is an objective measure that does not explicitly take 
into account age, gender, race, country of origin, etc., which may 
mitigate this concern.
    Thank you for your interest. Please let me know if I can be of any 
further help.

    Mr. Camp. The gentleman from Texas.
    Mr. Turner. Mr. Chairman, I just wanted to ask the chairman 
if he would allow me to place in the record a NIST 2002 report, 
which concluded that the addition of the additional fingerprint 
slap system that I believe you were referring to, Professor, 
the time required to capture those fingerprints would be 
insignificant.
    It goes to the heart of the issue that Mr. Dicks raised, 
because I think we all have the impression that we didn't use 
the 10-print system because it takes too much time. And I would 
like for this report to be placed as part of the record of this 
hearing.
    Mr. Camp. Without objection, the NIST report may be placed 
in the record.
    [Retained in the committee file.]
    Mr. Camp. There being no further business, the hearing is 
now adjourned.
    [Whereupon, at 3 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
